<html>
<title> - ARE WE READY FOR THE NEXT HURRICANE SEASON? STATUS OF PREPARATION AND RESPONSE CAPABILITIES FOR 2018</title>
<body><pre>[Senate Hearing 115-771]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 115-771

                  ARE WE READY FOR THE NEXT HURRICANE
                     SEASON? STATUS OF PREPARATION
                   AND RESPONSE CAPABILITIES FOR 2018

=======================================================================

                                HEARING

                              BEFORE THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 12, 2018

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                Available online: http://www.govinfo.gov
      
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
39-948 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
      
      SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER WICKER, Mississippi            BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  TOM UDALL, New Mexico
JAMES INHOFE, Oklahoma               GARY PETERS, Michigan
MIKE LEE, Utah                       TAMMY BALDWIN, Wisconsin
RON JOHNSON, Wisconsin               TAMMY DUCKWORTH, Illinois
SHELLEY MOORE CAPITO, West Virginia  MAGGIE HASSAN, New Hampshire
CORY GARDNER, Colorado               CATHERINE CORTEZ MASTO, Nevada
TODD YOUNG, Indiana                  JON TESTER, Montana
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
                      Renae Black, Senior Counsel
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 12, 2018...................................     1
Statement of Senator Wicker......................................     1
Statement of Senator Nelson......................................     2
    Prepared statement...........................................     4
Statement of Senator Cruz........................................     5
Statement of Senator Hassan......................................    50
Statement of Senator Peters......................................    53
Statement of Senator Cantwell....................................    55

                               Witnesses

Jamie M. Miller, Deputy Director for Governmental Affairs and 
  Chief Innovation Officer, State of Mississippi, Mississippi 
  Development Authority..........................................     6
    Prepared statement...........................................     8
Mayor Allen Owen, Mayor of Missouri City, Texas..................     9
Charles Lindsey, City Manager, City of Marathon, Florida.........    10
    Prepared statement...........................................    12
Jennifer Pipa, Regional Chief Executive Officer, Central Florida 
  Region, American Red Cross.....................................    15
    Prepared statement...........................................    17
RDML Timothy Gallaudet, Ph.D., USN (Ret.), Assistant Secretary of 
  Commerce for Oceans and Atmosphere; and Acting Under Secretary 
  of Commerce for Oceans and Atmosphere, National Oceanic and 
  Atmospheric Administration, U.S. Department of Commerce........    21
    Prepared statement...........................................    23
Rear Admiral Linda L. Fagan, Deputy Commandant for Operations 
  Policy and Capability, U.S. Coast Guard........................    31
    Prepared statement...........................................    32
Hon. T. Bella Dinh-Zarr, Ph.D., MPH, Board Member, National 
  Transportation Safety Board....................................    35
    Prepared statement...........................................    37

                                Appendix

Response to written questions submitted to RDML Timothy Gallaudet 
  by:
    Hon. Roger Wicker............................................    59
    Hon. Dan Sullivan............................................    60
    Hon. Bill Nelson.............................................    61
    Hon. Richard Blumenthal......................................    66
    Hon. Edward Markey...........................................    67
    Hon. Catherine Cortez Masto..................................    67
    Hon. Maggie Hassan...........................................    70
Response to written question submitted to Hon. T. Bella Dinh-Zarr 
  by:
    Hon. John Thune..............................................    70

 
                  ARE WE READY FOR THE NEXT HURRICANE
                     SEASON? STATUS OF PREPARATION
                   AND RESPONSE CAPABILITIES FOR 2018

                              ----------                              


                        THURSDAY, APRIL 12, 2018

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:07 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Roger Wicker 
presiding.
    Present: Senators Wicker [presiding], Cruz, Nelson, 
Cantwell, Klobuchar, Tester, Peters, and Hassan.

            OPENING STATEMENT OF HON. ROGER WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Good morning. Thank you for waiting during 
two relatively early morning votes for the Senate. And I'm 
happy to chair this timely hearing after the 2017 hurricane 
season and Hurricanes Harvey, Irma, Maria, and Nate.
    My home State of Mississippi is especially vulnerable to 
natural disasters, and the memory of Hurricane Katrina still 
remains fresh. I want to take this opportunity to remind the 
Committee that Barry Myers, President Trump's nominee to be the 
NOAA Administrator, still awaits confirmation from the Senate. 
I think as this hearing progresses, we should be mindful of 
that.
    Mr. Myers' long successful career with AccuWeather, a 
private weather entity, provided him with expertise to lead our 
Federal efforts on creating the world's best weather model. 
Precise weather forecasting provides great safety for Americans 
who face the threat of hurricanes and other natural disasters. 
Mr. Myers has pledged to recuse himself from any conflict of 
interest. It is certainly past time for him and many other 
Trump nominees to be confirmed.
    One thing we know for certain, Americans have the resolve 
to rebuild after hurricanes. Mississippians recovered thanks to 
the generosity of many heaven-sent Good Samaritans, and we 
rebuilt our coast after Hurricane Katrina stronger than before. 
The result continues to be evident in the aftermath of 
Hurricanes Harvey, Irma, and Maria. In this light, an important 
topic of this hearing is, Can we rebuild better? can we rebuild 
in order to withstand future storms?
    Hurricane Nate, a Category 1 hurricane that made landfall 
twice in Mississippi showed that we can absorb the impacts from 
serious storms. In the past, a Category 1 hurricane would have 
resulted in far worse consequences, but the investments and 
decisions made on the front end, learning from Hurricane 
Katrina, gave us the ability to prevent the worst of damages. 
Hurricanes like Harvey, Irma, and Maria require us to prepare. 
Just as we tell our coastal residents to prepare for a 
hurricane, it is vital to have Federal agencies, such as NOAA, 
the Coast Guard, and the NTSB ever at the ready.
    Federal bureaucracies are not always efficient, and there 
is always work to be done to streamline and expedite Federal 
actions. We must be ready to respond to these disasters quickly 
and efficiently. This past hurricane season, there were 
successes in improved forecasting from NOAA and heroic 
responses by the Coast Guard and other agencies. We need to 
continue to plan so we can respond quickly should sequential 
devastating storms stretch our resources to the maximum. It is 
important to tap into the networks of our State emergency 
responders and volunteer networks, such as churches and the 
American Red Cross.
    In the past, storms of this magnitude caused greater damage 
than was seen in 2017. So we're making progress. I'm hopeful 
that hearings like this can continue to minimize the impact to 
lives, property, and communities from these hurricanes. Things 
can be replaced, but people cannot.
    So, Senator Nelson, our Ranking Member is now recognized 
for whatever opening statement he would like to make.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Well, Mr. Chairman, here we are just about 
in hurricane season again, and we're still recovering from the 
hurricanes of last year. I imagine the Senator from Texas still 
has damage out there; in Florida, we do.
    FEMA did a pretty good job in Texas and in Florida, but 
there are folks today in Puerto Rico that still do not have 
electricity and potable water, and that's unacceptable. And yet 
we continue to try to examine what's gone wrong and what's 
right and what can be done better. And as we're aware, there 
are some areas where we can and must do better, and Puerto Rico 
is an example. Florida is an example that local governments 
still are not being compensated for the debris pickup that they 
have advanced as a local government since they couldn't keep 
leaving it out on the curbside.
    That is unacceptable that FEMA has not reimbursed them. But 
there seems to be a pattern because that was even the case in a 
hurricane 2 years ago when the State of Florida, which is 
responsible for taking local governments' requests, failed and 
missed the deadline, and as such, lo and behold, the local 
governments didn't get reimbursed, and we had to go in and 
plead for an amendment to that, an appeal to that.
    Local governments have been financially struggling to 
recover from Hurricane Irma, the one I was talking about 2 
years ago, was massive, and even Hurricane Hermine, which hit 
Florida 16 months ago. And so now 6 months after Hurricane 
Irma, some of those reimbursements haven't been made.
    Of course, local communities are cash-strapped and in need 
of the Federal funds in order to continue their recovery 
efforts and prepare for the one that's starting June the first. 
They can't keep going like we're going.
    So the citrus crop in Florida is just about to be picked. 
The trees are laden with fruit. Senator Cruz, the King Ranch 
has a major citrus operation of some 40,000 acres in South 
Florida; it was ready to be picked. Bam, here comes the wind, 
and they lost almost 100 percent of the crop in South Florida. 
Further north, they lost 50 percent of the crop. A good number 
lost 75 percent of the crop.
    So we went to work in the disaster assistance bill to get 
money to try to make them whole. It's in the USDA, Agriculture. 
They haven't been compensated yet, and it's 6 months, to 
allocate to agriculture $2 billion specifically to citrus, 
about 760 million for the loss of the crop, and about $200 
million we appropriated to address fishery disasters, and $18 
million to address the canals littered with debris in places 
like the Florida Keys, and it's sitting at the Department of 
Treasury as NOAA's plan to get it out the door awaits approval 
from the White House Office of Management and Budget. This is 
going so painfully slow. One of our witnesses here is from 
Marathon. He'll tell you about the debris in the canals. This 
funding was intended to help people not to be mired in a sea of 
bureaucratic red tape.
    Or let's take the Army Corps of Engineers. They've 
reportedly been moving workers out of Puerto Rico before the 
power is restored. Obviously, the Federal Government has got to 
do a lot better. And that's why we've asked to hear directly 
from folks who were on the ground and those who had agencies 
here in Washington that are involved in hurricane assistance.
    I want to welcome a couple of our witnesses from Florida. 
Chuck Lindsey is the City Manager for Marathon, a city working 
to return to normal after Irma slammed into the Keys and the 
folks around Marathon and a couple of Keys to the south were 
the ones that got it the worst because they were on the eastern 
side of the eye of the hurricane.
    Jennifer Pipa is a Regional Chief Executive Officer of the 
Red Cross and lives in Tampa. She deployed to Houston following 
Hurricane Harvey, and then one week later they had to take them 
out of Texas and send them to Florida, and then she went to 
Puerto Rico. It's certainly rare that we have someone before us 
who has witnessed the devastation in all three locations and 
played a key role in delivering disaster relief.
    Ms. Pipa, we look forward to hearing from you.
    And I'm also anxious to hear from Admiral Gallaudet. He is 
retired Navy, Rear Admiral, now heads the part of NOAA, and 
hear about the next steps now that Congress has given the 
agency the funding to purchase the second hurricane hunter jet, 
because the only one that we've had for years and years does go 
down for maintenance, and Lord forbid that we would ever have 
an accident because of complete loss. Now we're going to have a 
backup.
    And so we are also going to hear from NTSB Board Member 
Bella Dinh-Zarr about any progress that's been made to 
implement recommendations stemming from the investigation into 
the sinking of the El Faro cargo ship, which tragically was 
lost in a hurricane and should have never been steered into the 
path of that oncoming hurricane.
    Rochelle Hamm is in the audience today to honor her husband 
Frank's memory, an El Faro crewmember. And since his death, Ms. 
Hamm and other El Faro families have left no stone unturned to 
improve maritime safety.
    And like the families, I think a lot of us think we do need 
to do a better job of making sure ships have access to the most 
up-to-date weather information--they didn't on El Faro--and 
that they have the best lifeboats and lifesaving equipment--
they didn't on El Faro. Vessels ought to properly be inspected 
to have that safety equipment.
    So welcome, Mrs. Hamm.
    And thank you to all the witnesses and thank you to Senator 
Wicker for holding this hearing.
    [The prepared statement of Senator Nelson follows:]

   Prepared Statement of Hon. Bill Nelson, U.S. Senator from Florida
    Thank you, Mr. Chairman. The last time we discussed hurricanes in 
this committee was in May of 2016.
    So, here we are with hurricane season nipping at our heels again. 
At the same time we're still actively recovering from the busy and 
deadly 2017 season.
    Today, we're going to examine what's gone wrong, what's gone right 
and what can be done better.
    And as we're all very well aware, there are some areas where we can 
and must do better.
    Delays by FEMA to reimburse local governments have been completely 
unacceptable.
    Local governments are financially struggling to recover from 
Hurricane Irma, while at the same time still waiting for funds related 
to Hurricane Matthew and Hermine, which hit Florida over sixteen months 
ago.
    Six months after Hurricane Irma, some counties have yet to see a 
dime of the FEMA reimbursements they were promised.
    Our communities are cash-strapped and in need of Federal funds in 
order to continue their recovery efforts and prepare for the upcoming 
hurricane season less than two months away. They can't do that the way 
things are currently going.
    Florida's citrus farmers, too, need to make decisions about 
harvesting and planting, but they're still waiting for the USDA to 
allocate the over two billion dollars Congress provided in February.
    And the two hundred million dollars we appropriated to address 
fishery disasters and the eighteen million dollars to address the 
canals littered with debris in places like the Florida Keys is sitting 
at the Department of Treasury as NOAA's plan to get it out the door 
awaits approval from the White House Office of Management and Budget.
    This funding was intended to help people, not to be mired in a sea 
of bureaucratic red tape.
    Or, take the Army Corps of Engineers, who have reportedly been 
moving workers out of Puerto Rico before power is fully restored.
    Suffice to say, we can do better. And we must.
    That's why we've asked to hear directly from both folks who are on 
the ground and those who head agencies here in Washington that are 
involved in hurricane assistance, recovery and preparedness efforts.
    First, I'd like to welcome a couple of our witnesses from Florida.
    Chuck Lindsey is the city manager for Marathon, Florida--a city 
working to return to normalcy after Hurricane Irma slammed into the 
Florida Keys. Welcome, Chuck.
    Jennifer Pipa is a regional chief executive officer of the Red 
Cross and lives in Tampa. Jennifer deployed to Houston following 
Hurricane Harvey--then one week later to Florida for Irma response--and 
then to Puerto Rico after Hurricane Maria. It's certainly rare that we 
have someone before us who witnessed the devastation in all three 
locations and played a key role in delivering disaster relief. Ms. 
Pipa, we look forward to hearing from you.
    I'm also anxious to hear from Admiral Gallaudet on NOAA's next 
steps now that Congress has given the agency the funding to purchase a 
Hurricane Hunter replacement jet.
    And finally, I want to hear from NTSB Board Member Bella Dinh-Zarr 
about any progress that's been made to implement recommendations 
stemming from the investigation into the sinking of the El Faro cargo 
ship, which tragically was lost during Hurricane Joaquin in 2015.
    Rochelle Hamm is in the audience today to honor her husband Frank's 
memory--an El Faro crew member. Since his death, Mrs. Hamm and the 
other El Faro families have left no stone unturned to improve maritime 
safety.
    Like the families, I too think we need to do a better job of making 
sure ships have access to the most up-to-date weather information, they 
have the best lifeboats and lifesaving equipment and that vessels are 
properly inspected.
    Welcome, Ms. Hamm.
    Thank you to our witnesses. And thank you to Chairman Thune and to 
Senator Wicker for holding this very important hearing. With that, I'll 
turn it over to our local impact panel.

    Senator Wicker. Thank you, Senator Nelson.
    Senator Cruz, I understand there is a distinguished Texan 
on the panel that you would like to introduce.

                  STATEMENT OF HON. TED CRUZ, 
                    U.S. SENATOR FROM TEXAS

    Senator Cruz. Thank you, Mr. Chairman. It is my privilege 
to have the opportunity to introduce Mayor Allen Owen, of 
Missouri City, Texas. Mayor Owen has led a life dedicated to 
public service. He has served as the Mayor of Missouri City for 
the past 24 years, and he was a Member of the Planning and 
Zoning Commission and the City Council.
    In addition to holding public office, Mayor Owen has worked 
tirelessly in the community by serving on countless boards and 
associations, such as the Fort Bend Literary Council, the FBI 
Citizens Academy Alumni Association, and the Fort Bend Women's 
Center, and he's a lifetime Vice President and Director of the 
Houston Livestock Show and Rodeo.
    Mayor Owen has been so active in the community, if I were 
to read his entire record of community involvement, we would 
run out of time for the rest of the hearing. However, what 
brings Mayor Owen to this Committee today is August 25, 2017, 
the day Hurricane Harvey made landfall in Texas. Hurricane 
Harvey was unlike any storm we've ever seen before. It 
devastated our Gulf Coast and is considered one of the 
costliest disasters in United States history.
    As Harvey became--as Harvey made landfall, roads became 
rivers, winds obliterated entire communities, and too many 
precious lives were lost.
    Like many Texans, Mayor Owen didn't sit back and wait for 
help. Mayor Owen helped coordinate 1,300 high-water rescues, 
and housed and fed 60 state troopers and 17 National Guardsmen 
for over a week. He spent an entire week in the city's 
operations center with no way to get home. And even though the 
water has since receded, the work hasn't stopped.
    Eight months since Hurricane Harvey made landfall, Mayor 
Owen continues to be an integral part of the rebuilding process 
in Missouri City. From cleaning out waterlogged houses to 
consoling those who were most affected by the devastation, 
Mayor Owen is a wonderful example of what it means to be a 
Texan. And I am proud that he is here today to help represent 
the great State of Texas before this Committee.
    Welcome, Mayor.
    Senator Wicker. Thank you very much, Senator Cruz. And I 
want to welcome my fellow Mississippian and my friend Mr. Jamie 
Miller, who serves as Deputy Director for Governmental Affairs 
and Chief Innovation Officer for the Mississippi Development 
Authority, MDA. He serves as disaster recovery administrator 
and oversees state-owned ports.
    Mr. Miller lives in Gulfport, Mississippi. He responded to 
Hurricane Katrina both personally and professionally. And I 
think it's noteworthy that he served as Policy Advisor to 
Governor Haley Barbour's Office of Recovery and Renewal 
following Hurricane Katrina.
    So I think it's fair to say, Senator Cruz and Mr. Ranking 
Member, that all four members of our first panel have been 
there and done that, and I can say from my own personal 
knowledge that Jamie Miller knows what he's talking about when 
it comes to this subject matter.
    So we'll set the clock for 5 minutes for each witness. If 
there's more to be provided to the Committee, we'll, of course, 
take the entire statement for the record. But we'll begin down 
here with Mr. Miller and proceed down the table.
    You are recognized, sir, and welcome.

                 STATEMENT OF JAMIE M. MILLER,

            DEPUTY DIRECTOR FOR GOVERNMENTAL AFFAIRS

      AND CHIEF INNOVATION OFFICER, STATE OF MISSISSIPPI,

               MISSISSIPPI DEVELOPMENT AUTHORITY

    Mr. Miller. Thank you, sir. Good morning, Senator Cruz, 
Ranking Member Nelson, and good morning to my Senator, Senator 
Roger Wicker.
    I want to thank this Committee on Commerce, Science, and 
Transportation for hosting today's hearing, and asking a very 
important question: Are we ready for the next hurricane season?
    It is my honor to come before you and offer Mississippi's 
perspective on hurricanes, hurricane preparedness, and our 
ability to respond and mitigate the impacts of the next major 
storm.
    Mississippi is a state where we value simple and practical 
solutions to problems. We value personal responsibility and 
taking care of our neighbors. As the most charitable state in 
the Nation per capita, we value giving.
    Hurricanes have taught Mississippi some challenging 
lessons. They remind us of how vulnerable we are to their 
power, but I'm here to share with this Committee the lessons 
taught have not gone unlearned. Mississippi has been the 
beneficiary of the American people's incredible generosity when 
storms such as Hurricane Camille, Frederick, Elena, Georges, 
and Katrina made landfall in Mississippi. Mississippi was given 
a great responsibility to put those dollars to use to devise 
creative programs and policies to protect our citizens and to 
mitigate future damages.
    When Mississippi's coastal communities were built, it was 
without regard for significant hurricane impact. That all 
changed after Katrina. With the daunting task of rebuilding 
roads, infrastructure, housing, and the economy from a mountain 
of debris, Mississippi put the necessary safeguards in place to 
avoid the total devastation from future storms. Those 
safeguards required dramatic changes to building codes and 
elevation requirements.
    Housing programs implemented post-Katrina included the 
Homeowner's Assistance Program, or HAP. HAP required grant 
recipients to elevate their homes, comply with building codes, 
and maintain flood insurance. The Homeowner's Elevation Program 
provided grants to residents, although they did not lose their 
home, to elevate structures to the base flood elevations. And, 
finally, Mississippi's Small Rental Assistance Program was 
designed to rebuild single family rentals and duplexes with the 
new property covenants.
    Infrastructure initiatives included the Gulf Coast 
Infrastructure Program, which focuses on building a utility 
infrastructure backbone mitigated against future storm damage. 
The Port of Gulfport Restoration Program created a more 
resilient facility to withstand future hurricane damage. 
Efforts included elevating the port and creating an evacuation 
plan to ensure containers, equipment, and cargo did not wash 
inland. New buildings were also required to be built to the 
FEMA Flood Velocity Zone standards so critical structural 
components could withstand the storm surge.
    Mississippi believes in hazard mitigation. Coupled with the 
housing and infrastructure programs mentioned, Mississippi has 
invested more than $350 million in hazard mitigation directly. 
We invested $230 million in public and private safe rooms, $85 
million in wind retrofits for homeowners, 21 million in flood 
control, and 16 million to acquire properties in the 
floodplain.
    The payoff for Mississippi's investments in preparedness 
and mitigation was never more evident than October 8, 2017, 
when Hurricane Nate made landfall along the Mississippi Gulf 
Coast. Nate brought sustained winds of 85 miles an hour and a 
significant storm surge of 12 feet. This storm, by all 
accounts, should have caused an estimated $100 million in 
damages. However, Mississippi incurred no deaths, no injuries, 
and not one single home or business sustained major damage. 
Once the water subsided and debris was cleared, Mississippians 
went back to business as usual in a minimal amount of time. 
Governor Phil Bryant said it best when he correctly stated, 
``Mississippi did not dodge a bullet, we took a direct hit.''
    As the waters of the Gulf of Mexico begin to warm, 
Mississippians know now is the time to put together their 
individual preparedness and recovery plans. We have strong 
leadership from a dedicated Governor, statewide Emergency 
Management Agency, and seasoned local emergency managers and 
communities that remain vigilant. And although we will never be 
able to completely prevent the damages caused by violent 
storms, Mississippi is better prepared today to withstand the 
effects of tropical weather thanks to our responsible use of 
mitigation and preparedness resources. Our structures are 
higher and stronger, and Mississippians are much smarter.
    Thank you.
    [The prepared statement of Mr. Miller follows:]

 Prepared Statement of Jamie M. Miller, Deputy Director, Governmental 
     Affairs; and Chief Innovation Officer, State of Mississippi, 
                              Mississippi 
                         Development Authority
    Good morning. Thank you Chairman Thune, Senator Wicker and members 
of the Senate Commerce, Science and Transportation Committee for 
hosting today's hearing and asking an important question. Are we ready 
for the next hurricane season?
Mississippi's People and Lessons Learned
    It is my honor to come before you and offer Mississippi's 
perspective on hurricanes, hurricane preparedness and our ability to 
respond and mitigate the impacts of the next major storm.
    Mississippi is a state where we value simple and practical 
solutions to problems. We value personal responsibility and taking care 
of our neighbors. As the most charitable state in nation per capita, we 
value giving. Hurricanes have taught Mississippi some challenging 
lessons. They remind us how vulnerable we are to their power. But I'm 
here to share with this committee the lessons taught have not gone 
unlearned.
    Mississippi has been the beneficiary of the American people's 
incredible generosity when storms such as Hurricane Camille, Frederick, 
Elaina, Georges and Katrina made landfall in Mississippi. Mississippi 
was given a great responsibility to put those dollars to use to devise 
creative programs and policies to protect our citizens and mitigate 
future damages.
Mississippi's Investment in Mitigation
    When Mississippi's coastal communities were built, it was without 
regard for significant hurricane impact. That all changed after 
Katrina. With the daunting task of rebuilding roads, infrastructure, 
housing and the economy from a mountain of debris, Mississippi put the 
necessary safeguards in place to avoid the total devastation from 
future storms. Those safeguards required dramatic changes to building 
codes and elevation requirements.
    Housing programs implemented post-Katrina included the Homeowner 
Assistance Program, or HAP. HAP required grant recipients to elevate 
their homes and maintain flood insurance. The Homeowners Elevation 
Program provided grants to residents who did not lose their homes, to 
elevate the structures to FEMA base flood map elevations. And finally, 
Mississippi's Small Rental Assistance Program was designed to rebuild 
single family rentals and duplexes with the new property covenants.
    Infrastructure initiatives included the Gulf Coast Infrastructure 
Program, which focuses on building a utility infrastructure backbone 
mitigated against future storm damage.
    The Port of Gulfport Restoration Program created a more resilient 
facility to withstand future hurricane damage. Efforts included 
elevating the port and creating an evacuation plan to ensure 
containers, equipment and cargo did not wash inland. New buildings were 
also required to be built to the FEMA Flood Velocity Zone standards, so 
critical structural components could withstand storm surge.
    Mississippi believes in hazard mitigation. Coupled with the housing 
and infrastructure programs mentioned, Mississippi has invested more 
than $350 million in hazard mitigation directly. We invested $230 
million in public and private safe-rooms, $85 million in wind retrofits 
for homeowners, $21 million in flood control and $16 million to acquire 
properties in the floodplain.
Hurricane Nate in 2017
    The payoff for Mississippi's investments in preparedness and 
mitigation was never more evident than October 8, 2017, when Hurricane 
Nate made landfall along the Mississippi Gulf Coast. Nate brought 
sustained winds of 85 mph and a significant storm surge of 12-feet. 
This storm, by all accounts, should have caused an estimated $100 
million in damages. However, Mississippi incurred no deaths or injuries 
and not one single home or business sustained major damage. Once the 
water subsided and debris was cleared, Mississippians went back to 
business as usual in a minimal amount of time. Governor Phil Bryant 
said it best when he correctly stated, ``Mississippi did not dodge a 
bullet, we took a direct hit.''
Mississippi is Ready in 2018
    As the waters of the Gulf of Mexico begin to warm, Mississippians 
know--now is the time to put together their individual preparedness and 
recovery plans. We have strong leadership from a dedicated Governor, 
statewide Emergency Management Agency and seasoned local emergency 
managers and communities that remain vigilant.
    Although we will never be able to completely prevent the damages 
caused by violent storms, Mississippi is better prepared today to 
withstand the effects of tropical weather thanks to our responsible use 
of mitigation and preparedness resources. Our structures are higher and 
stronger, and Mississippians are much smarter.

    Senator Wicker. Thank you, Mr. Miller, for that fine 
statement. And it was precisely 5 minutes long. So thank you 
very much.
    Mayor Owen, you are welcome and recognized.

                STATEMENT OF MAYOR ALLEN OWEN, 
                 MAYOR OF MISSOURI CITY, TEXAS

    Mr. Owen. Mr. Chairman, thank you, and to my favorite, 
Senator Cruz, for asking me here.
    Monday, I was in a hearing in Houston, in the Houston area, 
that Chairman McCaul brought his Homeland Security Committee to 
Houston to talk about lessons learned from Harvey. So I guess 
I'm going to repeat what I said a lot on Monday, but, you know, 
Ranking Member Nelson forgot about the storm we called Ike.
    So we've had two hurricanes recently, and nobody has talked 
about Ike. And the reason I bring it up is that we still have 
not been paid totally from the money that was owned to us from 
FEMA from Ike, and that was in 2010. We received payments up 
until 2013. We have had two floods since then. We still have 
not received a penny from that. We have not received a penny 
from Harvey either.
    Harvey was different. I've been in office 32 years. This 
wasn't my first rodeo nor my first storm. It was different 
because once it hit Corpus Christi and Rockport, it moved to 
Houston, and it sat on top of us for 72 hours and dumped 
anywhere from 52 to 72 inches of rain, causing tremendous 
flooding throughout not only Houston, but the entire Gulf 
Coast. And I'm 40 miles from Galveston.
    So we're typically prepared for hurricanes and storms like 
that. We weren't prepared for this. There was no way for us to 
prepare for that much water to be dumped in a short period of 
time. And I'm glad that Ranking Member Nelson understands what 
the impact is on local communities.
    A point that I made Monday is that, you know, when cities 
have their bonding agencies come into town, they're now 
requiring that cities maintain a 25 percent reserve balance in 
our fund balance. But when disasters occur like Harvey, I paid 
a million dollars in overtime, I had costs for lost equipment, 
traffic signals. I had to write a check for that. I can't wait 
3 years to get reimbursed because when I take that money out of 
my fund balance, and I drop below that 25 percent, and the 
bonding agencies come back in, they're going to look at my 
rating again. That affects my entire balance of budget. And I 
can't afford to do that.
    And we emphasized to FEMA that, you know, the things that 
are going through the process right now of even filling out the 
forms. I recently hired a $24,000 consultant to tell us how to 
fill out the form for FEMA to make sure the i's are dotted and 
the t's are crossed. The money is going to the State of Texas, 
and I haven't seen a dime of it. They need to write the check 
to the people that are writing the checks and making sure that 
we're taking it into consideration.
    I'm going to ask you a question. And I'm a former banker. 
When FEMA--when a house floods and you don't have flood 
insurance--and, by the way, 95 percent of the people who 
flooded do not have flood insurance because they were told they 
weren't in a flood zone--when they flood and they don't have 
flood insurance, they get paid $33,000 maximum to repair their 
home. I can take $15 million and prevent 2,000 homes from 
flooding that flooded during Harvey, with pumps that were 
inundated, we didn't have enough of them, drain-out ditches, 
taking care of things that mitigate storms that would prepare 
for us.
    This wasn't the first flood we've had. Again, this was a 
flood that was all water and no wind. We didn't lose 
electricity. We had people that were actually flooded. And as 
the Senator said, we did 1,300 high-water rescues to get people 
out of their homes in a short period of time.
    But if I had the money to do the mitigation that's 
necessary to prevent that from happening, those 2,000 people 
that lost their homes would not have had a single drop of water 
in them because I could have taken that water, put it across on 
the other side of the levy that protects Missouri City from the 
Brazos River, by the way, which is at 59 feet. And while I'm 
sitting in that operations center on August the 26th 
celebrating my 50th wedding anniversary, by the way, for the 
next 7 days, I couldn't get out of my own house, we watched the 
Brazos River, being told that we were going to--that it would 
crest at 59 feet. That levy is at 59 feet.
    I have inundation maps in the city that show me what effect 
flooding would have at 52, 54, 56, and 58 feet. At 58 feet, I 
would have had water in 9,500 homes. At 59 feet or 60, I would 
have an entire city that was flooded, because we did not 
prepare for that and we did not prepare for that type of rain 
event.
    We need to make sure that the Corps of Engineers is working 
with us on alternative channels with alternative holding 
basins. In that hearing Monday, I can tell you that the City of 
Houston and Harris County drilled the Corps on not having 
adequate protection for them.
    So our part of mitigation is trying to get the funding up 
front to prevent what happened this past August.
    Thank you, Mr. Chairman.
    Senator Wicker. And thank you very, very much, Mayor Owen.
    Mr. Lindsey.
    Senator Cruz. I've got to point out the Texas witness was 
exactly 5 minutes, too.
    [Laughter.]
    Senator Wicker. Absolutely. And he asked a question, and I 
was about to say that question was so easy, I'm going to let 
Senator Cruz answer it later on.
    [Laughter.]
    Senator Wicker. Mr. Lindsey, we're delighted to have you.

          STATEMENT OF CHARLES LINDSEY, CITY MANAGER, 
                   CITY OF MARATHON, FLORIDA

    Mr. Lindsey. Thank you. Good morning, Senator Wicker, 
Ranking Member, and our Florida Senator Bill Nelson, and 
members of the Committee. Thank you for the opportunity to be 
here today to speak on behalf of our residents.
    We extend all of our thanks--or we extend our thanks to 
also all the Members of Congress for approving the disaster 
assistance needed during these very difficult times.
    Marathon is an island community of roughly 8,900 residents. 
We are located in the heart of the Florida Keys, and like all 
Keys communities, are faced with numerous challenges protecting 
our economy and our environment. We support a $2.7 billion 
tourism-based economy, a vital commercial and fishery--or 
commercial and recreational fishery.
    We support--and what's most important is we shoulder the 
responsibility to protect the third largest barrier reef system 
in the world, which includes the Florida Keys National Marine 
Sanctuary. We do this in part by relying on a unique community 
bond that exists from Key Largo to Key West. Following a 
catastrophic event like Irma, that bond was really put to the 
test. Last September, our local governments united, and with 
the patience of our residents, conducted a Keys-wide evacuation 
that had not been attempted in a decade, and clearly saved 
lives.
    We readied our emergency personnel, pre-staged our 
equipment, and prepped our emergency operations centers 
awaiting Irma's arrival. Upon sunrise the first morning, it was 
painfully clear our beautiful islands had been devastated. When 
we knew our--we knew our residents, our economy, and our 
environment demand rapid response and recovery. We were 
overwhelmed with incredible support from our Senators Nelson, 
Rubio, and Congressman Curbelo, as well as their staffs. 
Governor Scott led us from the front. He, along with his staff, 
the City of Miami Beach, Homestead Police Department, Miami-
Dade Task Force One, and hundreds and hundreds of others 
provided valuable support assisting Marathon and the entire 
Keys, and for that, we are indebted to them.
    An economy that's based on tourism and a healthy 
environment demands rapid recovery, but this is also the most 
difficult thing to achieve, and Marathon really can't simply do 
it alone. Up until recently, our progress was evident, however, 
our progress has come to a crawl, placed in extreme risk with 
minimal reserves, and the 2018 hurricane season fast 
approaching, a season already predicting what I believe to be 
14 named storms.
    You see, as of yesterday, seven months after Irma, Marathon 
and the Keys communities have received no Federal reimbursement 
dollars. We responded as required, quickly, efficiently, and 
responsibly, but in doing so, depleted all of our funds set 
aside for hurricane response on the understanding that initial 
Federal reimbursement would come quickly.
    It's important to note that these funds went first to the 
most crucial health and safety needs, initial debris removal, 
and force labor costs, not large projects or reconstruction of 
infrastructure.
    We were encouraged when the President acted quickly on the 
declaration and approved 100 percent funding reimbursement 
coverage for the first 30 days, and Congress, not hesitating, 
provided it. However, this initial reimbursement remains frozen 
between you and us.
    The slow-to-respond FEMA system has caused us to pull from 
our remaining accounts, we're having to utilize 2018 revenues, 
and it's forced us to secure large lines of credit. In 
addition, marine debris remains at crisis levels in our canals 
and near-shore waters. Always ready, the Coast Guard and the 
Florida Fish and Wildlife Commission did an outstanding job 
facilitating the removal of thousands of vessels; however, 
extreme costs, layers of Federal regulation, inflexible 
policies, and inefficient reimbursement make marine debris 
removal nearly impossible for us or our state to conduct, 
especially without adequate Federal funding or, at a minimum, 
upfront commitment that these funds will actually be 
reimbursed.
    Cars, homes, and construction debris are creating dangerous 
conditions for our residents and our ecosystem. Currently, 
there is one partial solution that works for the entire Keys, 
it's an existing debris removal program in the Department of 
Agriculture's Natural Resource Conservation Service. Monroe 
County has submitted an application, and NRCS has determined 
that 103 of our most impacted canals are eligible for $35.4 
million in reimbursement funds with a $10.5 million local match 
requirement. Now we need support and timely action by NRCS to 
award these funds to Monroe County so that local communities 
like Marathon can access them and begin debris removal.
    In closing, you know, we've done and continue to do our 
part. We need the Federal system to do its part and expedite 
FEMA reimbursement, and we need, Marathon needs NRCS to award 
funding. This will allow us to recover from this last storm and 
prepare for the next.
    On behalf of my wonderful city, it's an honor to be here 
today. Thank you very much.
    [The prepared statement of Mr. Lindsey follows:]

         Prepared Statement of Charles Lindsey, City Manager, 
                       City of Marathon, Florida
    Good morning Chairman Thune, Ranking Member and our Florida Senator 
Bill Nelson, and Members of the Committee, my name is Charles Lindsey. 
I am the City Manager for the City of Marathon, Florida. I want to 
thank all of you for the opportunity to represent the residents of 
Marathon and speak to you today about the conditions following the 2017 
hurricane season. I also wish to thank all Members of Congress for 
providing the emergency disaster assistance funding needed during some 
very difficult times.
    Marathon is a coastal island municipality of 8,910 residents 
located in the heart of the Florida Keys. Due to our remote 
geographical location, smaller population, and restricted growth we, 
along with all the communities of the FL Keys face numerous challenges 
protecting our economy and our delicate environment. We have a 
relatively small population but we all support a $2.7 Billion tourism-
based economy attracting millions of visitors annually. We have vital 
commercial, charter and recreational fisheries and a responsibility to 
protect our unique environment which includes the third largest barrier 
reef system in the world and the flagship Florida Keys National Marine 
Sanctuary. To do all of this we rely in large part on a unique, small 
community bond that exists from Key Largo to Key West. Following a 
catastrophic event like IRMA, our situation demands it.
    In September of 2017 as Hurricane IRMA built to Category 5 strength 
and headed toward the south Florida coast the ``Keys spirit'' came 
alive. With initial projections changing hourly we worked together to 
develop immediate plans to assist each community and conduct an 
evacuation that had not been attempted in over a decade. From Miami to 
Key West, in Irma's final days, an exact impact location was difficult 
to predict but there was no doubt we would be hit hard.
    Our local FL Keys governments worked together and with the 
tremendous patience of our residents conducted one of the most 
effective evacuations in Florida Keys history, no doubt saving many 
lives. We developed adaptive strategies to shelter our Emergency 
Management and crucial personnel in place and shifted locations as 
IRMA's projected path dictated. Our Marathon Team did not leave the 
Keys and along with the Monroe County team shifted locations slightly 
northeast to Key Largo where the Ocean Reef community provided us 
shelter. Our Marathon Sheriff with a small volunteer contingent of law 
enforcement officers remained in Marathon and established order for the 
few residents who did not heed the mandatory evacuation order.
    Immediately following the destruction caused by one hundred mile an 
hour winds for 12 hours and a dramatic storm surge, our Marathon Fire 
Rescue Department and city staff responded quickly. Losing 
communications during the storm we immediately reestablished contact 
with our law enforcement team and worked throughout the night to clear 
our airport runway, Marathon's only lifeline to the mainland.
    Upon sunrise on the first morning, it was clear our beautiful 
island had been devastated. Our residents were away from their homes 
and our economy and environment demanded a ``fast'' response and 
recovery. Immediate emergency action was necessary, essential services 
needed to be restored for residents to return, and recovery had to 
begin immediately to mitigate risk to our economy.
    We were overwhelmed with incredible support from Senator Nelson, 
Senator Rubio, and Congressman Curbelo and their respective staffs. 
Quickly on scene or in direct contact, they made themselves and their 
staffs available 24/7, assisting in many ways. Governor Scott led from 
the front. He along with his staff, the City of Miami Beach, Homestead 
Police Department, Miami Dade Florida Task Force 1 and hundreds of 
others, provided valuable support, responding to and assisting Marathon 
and the entire Florida Keys. To all of these FL officials we are 
indebted.
    For the Florida Keys communities who rely on a tourism-based 
economy, recovery is the key. Locally, we have plans to respond to 
crises and that planning is being improved every day to prepare for the 
next event. While we lacked some of the necessary tools, we made up for 
this after IRMA with sheer willpower and resiliency. Moving forward, we 
have identified what tools are needed and we are doing our best to 
prepare requests to access the grant funding provided by Congress. From 
advanced communication equipment to a hardened Emergency Operations 
Center that would allow Emergency Personnel to remain safely sheltered 
in place, we have identified our needs.
    Recovery is the most crucial but also the hardest to achieve and 
Marathon simply cannot do this alone. We know that for our families to 
be encouraged to remain in the Keys, and to reboot our tourist economy, 
marked improvement needed to happen continuously. Up until recently, 
this progress was evident. Unfortunately, our progress has come to a 
halt without movement in Federal reimbursement. This lack of initial 
reimbursement is putting us at tremendous risk going into the 2018 
season and has stopped further recovery operations due to lack of 
funding.
    In Marathon alone, 4,018 homes were impacted, 1,402 severely 
damaged, and 392 were completely destroyed. Numerous businesses were 
devastated and our commercial fishing industry got hit at their most 
vulnerable time. Perhaps most impactful to our economy, IRMA struck 
only months before the start of our main tourist season.
    To date, Marathon has estimated over $30M in local storm-related 
costs. This is six times what we had set aside for hurricane response, 
requiring us to pull from all fund balances and utilizing FY 2018 
revenue to stay solvent. In addition, Marathon had no choice but to 
secure a $10M line of credit and costs are increasing every day.
    We, like other Keys communities, immediately responded to 
emergencies and crucial life safety needs. Essential services like 
wastewater were restored in days and our Florida Keys Electric Co-op, 
with the help of others throughout the country, assessed, cleared, 
repaired, and replaced 834 miles of distribution/transmission lines and 
replaced 175 distribution poles throughout the upper and middle Keys. 
Their efforts miraculously restored power to the crucial 70-foot 
transmission life line in 12 hours and provided power to many residents 
in 10 days. In Marathon alone 300,000 yards of land debris were removed 
in only a few months, and like our cities overall response, was done so 
with local funding only, completely draining our reserves.
    To date, Marathon and the Florida Keys communities have received no 
Federal reimbursement! Within weeks of IRMA we depleted all our funds 
set aside for hurricane response on the understanding that initial 
reimbursement would come quickly. We were encouraged as the President 
acted decisively, enacting a declaration and approving 100 percent 
funding for the first 30-days and Congress, not hesitating, providing 
it. However these funds remain frozen in the middle, somewhere between 
you and us.
    In addition, marine debris removal remains at a crisis level in our 
canals and nearshore waters. The U.S. Coast Guard (USCG) and Florida 
Fish and Wildlife Commission (FWC) both did an outstanding job 
facilitating the removal of thousands of vessels. However, everything 
else remains--cars, homes, recreation vehicles (RV's), and construction 
debris still choke the canals, from the surface to the bottom.
    At this time we estimate over 513 canals in Monroe County are 
negatively impacted with estimated cleanup costs over $52.6M. Layers of 
regulations and policy coupled by extreme costs make our waterways and 
associated debris removal nearly impossible without adequate Federal 
funding or an upfront commitment that costs will be quickly reimbursed. 
The Keys are in a unique geographic location and all our waters (i.e., 
private, local, state and federal) affect our National Marine Sanctuary 
in some manner.
    As a small municipality in a very complex system it is impossible 
to determine with any certainty why the reimbursement process has been 
so slow. One thing we do know with full certainty is that 7 months 
post-IRMA we are at risk with minimal disaster reserves and the 2018 
hurricane season fast approaching. The forecasters suggest we are 
facing an active season, already predicting 14 named storms for 2018.
    Today, Marathon has over $28M in project worksheet (PWs) 
submissions to FEMA and has received $0 in reimbursement. Locally, the 
FEMA process appears to be intact. We have FEMA representation 
reviewing and submitting our claims; we have contracted labor to 
facilitate the difficult submission process; and the online portal, 
providing transparency. However, without receiving reimbursement of our 
Category A and Category B project worksheet submissions our recovery 
efforts have all but stopped. Furthermore, the longer our canals and 
waterways remain polluted the environmental risks increase, potentially 
negating decades of hard work and the hundreds of millions of federal, 
state, and local dollars spent improving nearshore water quality. 
Unfortunately, this does not escape the purview of our potential 
tourists.
    When asked what we need to be prepared for the 2018 season--the 
answers are simple: To respond and then recover from a Hurricane next 
year we need the funds that were approved by Congress to make it on the 
ground as quickly and efficiently as possible. I am not referring to 
large complex claims to reimburse the design, engineering, and repair 
of infrastructure such as a bridge or roadway. What I am referring to 
here is Federal funding for marine debris and the reimbursement of 
Category A and B projects that should come quickly to keep recovery 
efforts moving and protect us financially going into this next 
hurricane season. These are the funds we expended within the first 90-
days responding to life safety issues, initial debris removal, and 
forced labor costs.
    We need available Federal funding to begin removal of our extensive 
marine debris, including muck and sand. This is polluting, reducing 
flow, and creating life safety/environmental issues in our local 
waters. Currently, different rules for different pots of Federal 
funding along with FEMA reimbursement guidelines prohibit common sense 
solutions to removing this debris from our waters. These regulations 
make it cost prohibitive and nearly impossible for states and local 
governments, especially in an environment like ours, to address our 
debris removal
    Currently, one potentially viable solution for Marathon and the 
entire Florida Keys for debris removal resides within the Department of 
Agriculture Natural Resources Conservation Service (NRCS). On behalf of 
the entire Florida Keys, Monroe County has submitted a Damage Survey 
Report and application to NRCS and the agency determined the 103 of the 
513 canals to be eligible for $35.4M in reimbursable funds with a 
$10.5M local match requirement. NOAA's Florida Keys National Marine 
Sanctuary is supporting the Monroe County application. Now, we need 
support for the NRCS to move quickly to award these funds to the County 
so the local communities can access them.
    When asked for overall process improvement recommendations for 
subsequent years: we need policies and procedures to be streamlined and 
improved with an eye on real-world scenarios. For example, FEMA's 
online registration sounds great, but with no Internet in a disaster 
situation, we had to develop local solutions to register residents.
    We will need more case managers. Remarkably, within days, FEMA had 
representation on the ground to assist but it was not close to 
adequate. More FEMA case management personnel are needed to assist the 
thousands of displaced residents and help navigate the numerous 
available programs and track their assistance.
    We will need to have predetermined plans in place and lines of pre-
approved reimbursable funding clearly defined. Staff from the USCG 
volunteered to take the lead in removing vessels from our delicate 
waters and along with FWC, did so with incredibly efficiency. But they 
did as they always do: they got on scene, they evaluated, and they 
executed. In the end, this approach works but it does so with added 
cost and increased risk. Having processes like vessel removal and the 
responsibilities for it predetermined with clear funding lines 
established for such reimbursement would allow agencies like the USCG & 
FWC to increase safety, efficiency and overall effectiveness.
    We need better communication processes with clearly defined unified 
goals for all levels of government across all agencies. This is not 
just a FEMA issue, it is a national one. Increasing communication 
allows transparency, it increases effectiveness, and it promotes entire 
domain awareness.
    As we move forward today we are challenged with navigating 
difficult processes to prepare for the next season while at the same 
time recover and support our displaced families and struggling 
businesses from this last event. To FEMA's credit, I believe the agency 
has accurately captured what is needed in its 2018 Strategic Plan. So, 
one key question is how do we help them so we are all ready for the 
next storm event?
    I'd like to use FEMAs three strategic goals of ``Build a culture of 
preparedness'', ``Ready the Nation for Catastrophic Disasters'', and 
``Reduce the Complexity of FEMA'' as a framework to help begin to 
answer the question. The City of Marathon has and is, continuing to 
develop a culture of preparedness and is doing everything at our level 
possible to ready ourselves for the 2018 season. We are developing 
strategies based on best practices and lessons learned and implementing 
those process improvements to our already developed Compressive 
Emergency Management Plan. We have identified risks and we are doing 
everything we can to mitigate them. We have identified gaps and are 
doing everything in our power to fill them, however we cannot do this 
alone.
    To do so, we need help with what Administrator Long clearly lays 
out in FEMA's 3rd goal of reducing complexity. While he is referring to 
FEMA as a whole, we need all processes to be adaptable and flexible to 
get the necessary funds back in our reserves and to adjust to the 
incredibly unique challenges we face in the Florida Keys.
    In Marathon, we are proud of our ``Keys Spirit'' of working 
together. Following IRMAs destruction, it was more evident throughout 
the entire Keys than ever before. Today we continue to prepare for the 
2018 Hurricane season but our spirit and efforts alone will not get us 
there. We have done our part with the tools we have been given and the 
understanding we have of the processes. Marathon and the entire Keys 
has responded too, and began recovery following the largest storm we've 
seen in decades.
    In closing, we need the Federal system to do its part and help 
expedite the reimbursement of funds already approved by the President 
and graciously provided by Congress; and for NRCS to award and release 
funds to enable us to facilitate the removal of marine debris.
    It is an honor to provide this testimony and to tell Marathon's 
story. Chairman Thune, Senator Nelson and all the Members of this 
Committee--thank you for this opportunity, and thank you for all of 
your efforts supporting, advocating, and delivering assistance to our 
wonderful City, State, and this great Nation.

    Senator Nelson. Mr. Chairman, a point of personal 
privilege. I just want to say the witness has told us that they 
have not seen a single reimbursement from FEMA 6 months after a 
major hurricane, and that just is inexcusable.
    Thank you, Mr. Chairman.
    Senator Wicker. This is the very reason we're having this 
hearing. Thank you very much for emphasizing that.
    Ms. Pipa, we're thrilled to have you. Please proceed.

           STATEMENT OF JENNIFER PIPA, REGIONAL CHIEF

           EXECUTIVE OFFICER, CENTRAL FLORIDA REGION,

                       AMERICAN RED CROSS

    Ms. Pipa. Thank you, Senator Wicker and Ranking Member 
Nelson.
    2017 was a challenging year when we talk about disaster 
response for the American Red Cross. I unfortunately had the 
opportunity to visit both Harvey, Irma, and Maria during the 
disaster times. Harvey was a challenge in that people went to 
work that morning, they went out to run errands that day in the 
City of Houston, and discovered only late in the afternoon that 
they could no longer return home and they needed a safe place 
to stay.
    That's where the American Red Cross, in concert with the 
City of Houston and the Mayor of Houston, opened the George R. 
Brown Resource Center. That's where I ended up spending 7 days 
providing a safe haven for just over 11,000 members of the City 
of Houston. It was an amazing opportunity for us to provide 
those services, but clearly a very complicated response when 
you talk about the infrastructure that's compromised and the 
ability to move people and material resources into and out of 
impacted areas.
    I came back to Florida for Hurricane Irma, watched that 
happen, watched us, as we worked with local and county 
emergency management, open pre-landfall evacuation centers. We 
saw historic numbers of people evacuate. We think that is in 
part due to them watching people be stranded during Hurricane 
Harvey, and so they took those watchings and warnings much more 
seriously and chose to evacuate for the safety of their family. 
And we saw unprecedented numbers in those centers.
    Post-landfall, I had the opportunity to tour a lot of the 
state. One of the places I ended up was Immokalee, which is a 
small town in southern Florida. It is geographically isolated, 
and it's in the Everglades area. This is a town that had no 
access to power after Irma made landfall. That means their 
grocery stores didn't work, their gas stations didn't work. And 
they're an hour and a half from really any other viable 
resource in the area. We kept a shelter open there for an 
incredibly long period of time to make sure that the citizens 
of Immokalee were supported until that they could restore power 
and some infrastructure there. But that's just one town in many 
in Florida.
    Everglades City was another one, one of the southernmost 
points of Florida State, absent the Keys, and they were heavily 
impacted, not just by surge, but by wind as well. It became an 
incredibly complicated area for us to get resources into, is 
that they were so isolated.
    And then Maria. You know, it's hard enough to get items in 
when the infrastructure is compromised, but when you're talking 
about an island where the airport and the seaport are both 
impacted, the ability to move resources in becomes just that 
more exponentially challenging.
    I was in Maria in February. We were still delivering 
generators to people without power. We're still delivering food 
to people who don't have access to grocery stores that have 
power so that they can sustain. We're still giving out water 
filtration systems because there is no potable water there. So 
there is still a long time to go.
    And while we've spent a lot of time talking about response, 
and it may fall out of the media's coverage, recovery is a 
long-term gain, and that's where we sit at the table with all 
of our local and Federal partners, and we'll be there for the 
next 18, 24, 36 months with dedicated resources to help these 
communities continue their recovery as they move forward.
    One of the things our organization did was in the beginning 
of 2017 was we took a nationwide readiness initiative. And in 
Florida specifically, we met with every single county emergency 
manager in the state, and we talked about what we could do, how 
many people we had, how much stuff we had, how we could support 
if Florida were impacted by a hurricane. Those open and honest 
communications allowed us to form a basis of trust so that we 
could both deliver services to the communities that were 
impacted in Florida.
    So now in 2018, we go back, we talk about what we talked 
about at the beginning of 2017, we talk about our lessons 
learned, and we try and figure out how we can now make that gap 
even smaller working together.
    But this was a historic season for us. People ask me time 
and time again, ``How did the Red Cross do it?'' right? Harvey, 
Irma, Maria, California wildfires. We do it because we rely on 
mobilizing the power of volunteers and the generosity of 
donors, and without those two things, our organization can't 
deliver our services. We're a 90 percent volunteer-based 
organization. And so we count on the generosity of the American 
public and we count on the volunteers who raise their hands, 
who leave their families in other places in the U.S., and come 
down to help our impacted communities recover as we move on.
    Thank you very much for the opportunity to share my stories 
with you today, gentlemen.
    [The prepared statement of Ms. Pipa follows:]

   Prepared Statement of Jennifer Pipa, Regional Executive Officer, 
               Central Florida Region, American Red Cross
    Good Morning Senator Wicker, Ranking Member Nelson and 
distinguished members of the Committee. Thank you for the privilege of 
testifying before you today on behalf of the American Red Cross. We 
applaud the Committee for holding this much-needed hearing ``Are We 
Ready for the Next Hurricane Season? Status of Response Capabilities 
for 2018.'' My name is Jennifer Pipa and I am Regional Chief Executive 
Officer of Central Florida for the Red Cross. Our Central Florida 
Region includes communities such as Orlando, Daytona Beach, Sarasota 
and Winter Haven, among others. In my role, I am based in Tampa and 
guide a team of staff and volunteers that serve 19 counties across five 
chapters who work to fulfill the Red Cross mission, including 
responding to a variety of natural disasters. I am pleased to share the 
American Red Cross perspective on the extraordinary hurricane season of 
2017 and the status of preparedness for 2018.
The Mission of the Red Cross and Our Role in Disaster Response
    As you may know, the mission of the Red Cross is to prevent and 
alleviate human suffering in the face of emergencies by mobilizing the 
power of volunteers and the generosity of donors. As a leader in 
preparedness, health and safety training, the American Red Cross works 
every day across America to help individuals, families, businesses and 
schools be better prepared for life's challenges. Our purpose is to 
help people prevent, prepare for, and respond to disasters and other 
emergencies. We shelter, feed, and counsel victims of disasters at home 
and abroad; collect and distribute nearly half of the Nation's blood 
supply; teach lifesaving skills; and support military members and 
families. Whether the need is large or small, the Red Cross will be 
there.
    Each year the Red Cross responds to nearly 64,000 natural 
disasters, including everything from single-home fires to large-scale 
emergencies such as hurricanes. As you are aware, under a Memorandum of 
Agreement (MOA) signed in 2010, the American Red Cross is the co-lead 
for mass care response, known as Emergency Support Function #6 (ESF-6) 
with the Federal Emergency Management Agency (FEMA) during large 
emergencies in this country.
    This agreement means that the Red Cross and FEMA work together to 
help government agencies and community organizations plan, coordinate 
and provide a breadth of mass care services for people affected by 
disasters. Mass care services include opening shelters, feeding those 
affected, distributing emergency supplies and reuniting families. ESF-6 
is part of the National Response Framework, a Federal guide as to how 
the country will respond to situations ranging from local emergencies 
to large-scale terrorist attacks and catastrophic natural disasters. 
The partnership between the Red Cross and FEMA has proven to be 
extremely effective in helping Americans get through the initial 
devastation of a hurricane and on the road back to self-sufficiency. 
The dedication and hard work of the men and women of FEMA is very much 
appreciated by the Red Cross. Throughout the 2017 hurricane season and 
now, the Red Cross and FEMA are in constant communication and 
coordination on issues such as damage assessments and addressing 
shelter needs. In addition, any time the Red Cross responds to a 
disaster, we also work closely with multiple partners in the 
humanitarian community to ensure victims of natural disasters get the 
services and resources they need to get back on their feet. Those 
services encompass a wide variety of needs such as providing assistance 
with mental health care, financial assistance to cover short term needs 
and shelter for pets and service animals.
2017: A Look Back at a Precedent-Setting Hurricane Season
    Every disaster is unique. It has its own set of challenges and 
circumstances and the 2017 hurricane season was no exception. Hurricane 
Harvey was the first major hurricane to make landfall in the U.S. in 12 
years and it made landfall 3 separate times over 5 days after it 
stalled on the Texas coast. The resulting inundation challenged all 
first responders as parts of inland Texas were completely cut-off, 
including the interstate highway system in and around
    Houston. With its erratic, unpredictable track, Hurricane Irma left 
almost the entire southern half of Florida under watches and warnings 
that shifted from the East coast to the West coast and challenged 
planners across the state. And then there was Hurricane Maria, which 
compromised the logistics and infrastructure network of an entire 
island. All points of entry into Puerto Rico were devastated and the 
island was cut-off from the mainland. The time and distance required to 
reopen the ports and reestablish a supply chain created a unique 
situation for all responding agencies and organizations. Despite these 
challenges, the American Red Cross was there, working alongside FEMA 
and our partners to deliver the mission with compassion and quality to 
more of those in need.
    The Red Cross response to the hurricanes that made landfall in the 
United States and its Territories was just as record setting as were 
the Hurricanes Harvey, Irma, Maria and Nate. As of today, our numbers 
show that across these hurricanes the Red Cross:

  <bullet> supported 782,592 shelter stays;

  <bullet> provided 11,619,021 meals;

  <bullet> delivered 7,401,854 relief items;

  <bullet> served 588,622 families through casework and recovery 
        planning.

    We were able provide this momentous level of support by the 
dedication and compassion of the more than 18,800 volunteers who 
selflessly gave of their time to serve others. The level of service to 
those impacted by each of these storms exemplified the Red Cross 
mission.
    And the work to address the needs of those affected by these storms 
continues; the Red Cross is committed to helping those impacted by last 
year's hurricanes get back on their feet. We continue to have long-term 
recovery operations in each of the affected areas to ensure that we 
address needs such as clean water, community health, livelihoods 
restoration and access to power. In areas still experiencing difficulty 
in getting back to at least pre-storm conditions, we will continue to 
work with impacted individuals to create recovery plans, navigate 
paperwork and determine eligibility for financial assistance. We have 
provided reports to Congress as updated information becomes available 
and we will continue to do so.
2018: Preparedness for the Upcoming Season
    While the Red Cross has been able to meet needs that have arisen 
due to last year's storms, as we prepare for the 2018 season, it is 
important for us to identify areas of concern from last year's response 
in order to develop a successful strategy for preparing for upcoming 
disasters. Some top needs from 2017 which inform our 2018 planning 
include:

  <bullet> Effectively communicating information about pre-landfall 
        evacuation centers;

  <bullet> Managing expectations about what people need to bring with 
        them to evacuation centers and making sure people understand 
        the difference between an evacuation center and a shelter, and;

  <bullet> Recruiting volunteers

    To address these needs, we meet with and maintain ongoing 
relationships with local and county emergency managers in order to 
collaborate on public service announcements and education. We work with 
local and county officials to identify resources currently on hand, as 
well as any gaps that may exist between local and county government 
resources and Red Cross resources and how to address those gaps. The 
Red Cross also continuously develops and updates communications 
materials that can be used in a variety of social and traditional media 
and translated into other languages relevant to the local population, 
that provide information about evacuation procedures and shelters.
    An example of an ongoing Red Cross preparedness education campaign 
that helps families know what to bring to evacuation centers is our 
Pillowcase Project, which is our signature youth preparedness program 
and is implemented in every Red Cross region. The Pillowcase Project is 
for children in grades 3-5 and teaches them about personal and family 
preparedness for local hazards and home fires. Students receive a 
pillowcase to decorate and use as a personal emergency supplies kit. 
Students are encouraged to fill the pillowcase with items they would 
like to have if they need to be evacuated.
    An example of a Red Cross initiative to strengthen volunteer 
recruitment is our Regional Diversity Boards, which are designed to, 
among other things, ensure that the Regional workforce (staff and 
volunteers) mirrors the community it serves and increases the number of 
volunteers and representation by key demographics.
Elements for Effectiveness: Readiness, Adaptability and Support from 
        the American People
    In 2017 we kicked-off a multi-year nationwide initiative to 
strengthen our Readiness. The Readiness Initiative was designed to 
address recurring challenges by supporting regional teams in building 
capacity to deliver our mission; better recruiting, engaging and 
retaining our volunteers; being more efficient and effective in all of 
our activities; and harnessing the power of technology and teamwork to 
meet our mission in regions every day and for major disasters 
nationwide. We defined readiness as ``the capacity and capability 
needed to reliably accomplish our mission, which we do with our 
partners.'' Our vision is to get ready, be ready, and stay ready to 
reliably serve clients and communities impacted by the highest 
probability disasters in communities around the country.
    In addition, there is one overarching principle to responding to 
disasters which is at the heart of every response strategy. At the Red 
Cross and throughout the disaster response community, we know that our 
capacity to react to natural disasters as we go forward is directly 
connected to our ability to adapt and evolve. And technology is a 
critical part of that evolution. A major aspect of the Red Cross's 
technological innovation in the last couple of years is the development 
of ``RC View''--a state of the art geographic information system (GIS) 
and data visualization tool that provides the Red Cross and its 
partners with a common disaster response capability. This technology 
aids the Red Cross as we assess damage, formulate emergency response 
and evacuation plans and identify and understand relationships between 
areas affected by disasters and areas of social vulnerability. Because 
of RC View, the Red Cross is able to speed up our response time, make 
better resource decisions and improve our delivery of services to those 
most in need. With increasingly accessible data, we are better able to 
understand hazards and take necessary actions to mitigate, respond to, 
and recover from disasters when they strike.
    While data and technology are essential to responding to disasters, 
the plain truth is that a successful disaster response operation can't 
happen without money and volunteers. The Red Cross does not receive 
Federal funding for disaster response operations, but relies on the 
generosity of the American people to do so. Furthermore, our volunteers 
are the backbone of our humanitarian efforts; nearly 90 percent of the 
Red Cross workforce is volunteer. Americans who give of their time and 
donations are why we have been able to respond to disasters for over a 
hundred years. 2017 was truly an extraordinary year for natural 
disasters. But because of the kindness of the American people, 
including many of your constituents, in a 45-day period late last year, 
the Red Cross was able to respond to back-to-back hurricanes--Harvey, 
Irma, Maria and Nate--in addition to the devastating wildfires in 
California and the deadliest mass shooting in recent U.S. history in 
Las Vegas. We at the Red Cross are extremely grateful to the American 
people for all they do to enable us to help those in need.
Conclusion
    Again, thank you to this Committee for this important examination 
of how well America is prepared for life-threatening storms and thank 
you for allowing the Red Cross to share our perspective on the 
hurricane season that just passed and the one coming soon. Hurricane 
season for the Atlantic Basin runs from June 1 to November 30 and a 
busier than average hurricane season is forecast, so many Americans 
will be facing these threats again in the very near future. At the Red 
Cross, we will continue to fulfill our mission of alleviating suffering 
and meet our obligations to provide leadership with our Federal and 
humanitarian partners to address whatever natural disasters occur. We 
look forward to partnering with the United States Congress, other 
branches of government, the faith-based community, non-profits and for-
profits in preparing for disasters and recovering from them. We are 
happy to answer any questions you may have.

    Senator Nelson. Mr. Chairman, may I make an additional 
comment about----
    Senator Wicker. Unless there's an objection from any member 
of this----
    [Laughter.]
    Senator Nelson. Ms. Pipa talked about this little town of 
Immokalee, and it's a poor town. They're trying to do a lot of 
economic development out there. It's in one of the richest 
counties of Florida, Collier County. And so the Red Cross--the 
people had no place to go. There is a Catholic university, Ave 
Maria, that's about 7 miles from this. They opened their 
gymnasium, and then the Red Cross did the taking care of people 
in the gymnasium. But it's worth noting that there were senior 
citizens that were abandoned in their apartments by their 
caretakers. The university students went and got them and took 
them into their dorms with them to take care of them until 
somebody could be provided after the hurricane. Now, that's a 
good news story. That's a story about America at its best. And 
I wanted to make that part of the record.
    Senator Wicker. Thank you, Senator Nelson. And I really 
appreciate you adding that to the record. There are hundreds of 
stories like that.
    And thank you, Ms. Pipa, for pointing out the volunteer 
spirit of Americans and the donor community for making all of 
this possible.
    It's clear that this panel has had real life experience--
excuse me--and continue to experience the aftermath of these 
storms, and we very much appreciate it.
    By agreement, the Committee has decided not to grill you 
with questions. And so we thank you very much. We'll bring on 
the next panel. And if you'd like to stay and have discussions 
with us on an individual basis after the hearing is over, we 
welcome that, but you're not required to stay, and we do thank 
you very much.
    Now, as our staff is helping to set up the table for the 
next panel, let me tell you what we have in store. And Ranking 
Member Nelson has already mentioned the distinguished panel, 
but one of those is Rear Admiral Tim Gallaudet, the Assistant 
Secretary of Commerce for Oceans and Atmosphere and the Acting 
NOAA Administrator. He was previously a Rear Admiral in the 
U.S. Navy, where most of his recent assignment was 
Oceanographer of the Navy and commander of the Navy Meteorology 
and Oceanography Command, and that is a mouthful for this 
Mississippi boy. As you will hear today, Rear Admiral Gallaudet 
personally experienced Hurricane Katrina on the Mississippi 
Gulf Coast, and uses those personal lessons to inform his 
leadership at NOAA.
    Rear Admiral Gallaudet will be joined by Rear Admiral Linda 
Fagan, who serves as U.S. Coast Guard Deputy Commandant for 
Operations, Policy, and Capabilities. She is responsible there 
for establishing and providing operational strategy, policy, 
capability, and resources to meet national priorities for U.S. 
Coast Guard missions, programs, and services.
    And then we welcome Dr. T. Bella Dinh-Zarr, a member of the 
National Transportation Safety Board in Washington, D.C. Dr. 
Dinh-Zarr has dedicated her career to working to ensure that 
transportation safety is a policy priority, and has been a 
member of the National Transportation Safety Board since 2015.
    So members of the panel, thank you very, very much for 
joining us. And as we did at the last panel, we'll start at 
this end with a five-minute verbal statement from Rear Admiral 
Gallaudet.

        STATEMENT OF RDML TIMOTHY GALLAUDET, Ph.D., USN

       (RET.), ASSISTANT SECRETARY OF COMMERCE FOR OCEANS

           AND ATMOSPHERE; AND ACTING UNDER SECRETARY

             OF COMMERCE FOR OCEANS AND ATMOSPHERE,

        NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION,

                  U.S. DEPARTMENT OF COMMERCE

    Admiral Gallaudet. Thank you, Senator Wicker and Mr. 
Chairman, it's an honor to be here before you and the Committee 
today to talk about the great work the National Oceanic and 
Atmospheric Administration, or NOAA, has done and will continue 
to do to improve our hurricane watches, warnings, and national 
preparedness, and how all that work has saved lives and 
accelerated recovery throughout the 2017 hurricane season.
    I would especially like to thank the Committee for the 
disaster supplemental funding in 2017 and the 2018-based 
appropriations funding for NOAA. This combined funding will 
help NOAA to continue implementation of the Weather Research 
and Forecast Innovation Act of 2017, or Weather Act, as 
championed by this Committee. We are working with the 
administration and Congress to develop the detailed spend 
plans, as requested, for these funds.
    In the following, I will describe how NOAA is already 
accomplishing much to implement the Weather Act and prepare our 
Nation for the next hurricane season.
    Let me begin with the 2017 hurricane season, which we all 
know was extremely active with 17 named storms, including three 
Category 4 hurricanes that made landfall in the U.S. Harvey, 
Irma, and Maria were three of the top five most economically 
damaging hurricanes in U.S. history. Despite this devastation, 
communities were warned very far in advance by NOAA's reliable 
forecasts, and the result was that five times fewer lives were 
lost compared to the previous record-setting year of 2005. The 
National Hurricane Center's Atlantic track predictions for 2017 
set an all-time record for accuracy across all forecast hours, 
which is a 25 percent improvement on the 5-year average before.
    The State of Florida used National Weather Service 
forecasts to declare a state of emergency 6 days before 
Hurricane Irma made landfall. That is unprecedented, largely 
due to the Weather Service efforts to improve their Impact-
based Decision Support Services, as codified in the Weather 
Act. This long lead time allowed emergency managers to prepare 
and evacuate well in advance of the storm.
    Hurricane storm surge is the greatest threat to loss of 
life and property, so NOAA began issuing storm surge watches 
and warnings in 2017, and our preliminary information shows 
that there were no storm surge-related deaths in the U.S. this 
year.
    The same can be said for NOAA's mitigation, response, and 
recovery efforts. These include habitat restoration that 
prevented storm surge damage in the Gulf of Mexico, navigation 
response teams who opened dozens of ports in the Gulf, in the 
Southeast, and NOAA hazardous material teams that continue to 
assist with vessel and debris removal in the Florida Keys and 
the Caribbean, and NOAA's Sea Grant program that is helping 
local fishermen in Texas and Florida.
    In your invitation letter, you asked how we are improving 
preparations for the 2018 hurricane season. Beginning with 
observations, we are advancing our satellites and 
reconnaissance aircraft. In just the last 2 years, three of 
NOAA's next-generation weather satellites have been 
successfully deployed. Additionally, NOAA continues to rely on 
U.S. Air Force C-130s out of Keesler Air Force Base in 
Mississippi and NOAA's hurricane hunter aircraft based in 
Lakeland, Florida.
    One area we are rapidly advancing is using unmanned systems 
for observations. We have already used aerial and underwater 
drones to improve hurricane forecasts, and we are working with 
the private sector and Federal partners to evaluate other 
innovative and cost effective autonomous capabilities that meet 
NOAA's requirements.
    We are also making further improvements in modeling. NOAA 
research is leading the Hurricane Forecast Improvement Program 
following the guidance of the Weather Act, with the impressive 
result of extending hurricane forecast skill to 7 days. I am 
particularly pleased with our experimental global weather 
model, known as the GFS FV-3, which outperformed the European 
models for both the three major hurricanes that struck the U.S. 
last year, but also the four Nor'easters that slammed into the 
eastern seaboard this year. We are transitioning this model to 
the Weather Service now, and by 2020, NOAA will have the 
world's leading weather model.
    In conclusion, I want to thank the Committee for your 
continued support and for passing the Weather Act, which was 
the playbook we used for our truly tremendous teams to 
dramatically improve NOAA's hurricane predictions and warnings. 
The advancements NOAA has made over the last decade in 
environmental observations and prediction, decision support, 
risk mitigation, and response and recovery have saved countless 
American lives, protected billion dollars of property, and 
enabled continued growth in the national economy while 
providing critical support to national and homeland security.
    I'll be happy to take any questions.
    [The prepared statement of Admiral Gallaudet follows:]

    Prepared Statement of RDML Timothy Gallaudet, Ph.D., USN Ret., 
 Assistant Secretary of Commerce for Oceans and Atmosphere; and Acting 
Under Secretary of Commerce for Oceans and Atmosphere, National Oceanic 
      and Atmospheric Administration, U.S. Department of Commerce
    Good morning Chairman Wicker, Ranking Member Nelson, and Members of 
the Committee. It is my honor to testify before you today about the 
work the National Oceanic and Atmospheric Administration (NOAA) has 
done to improve our hurricane watches and warnings, and how all that 
work has saved lives and accelerated recovery throughout the 2017 
hurricane season. The 2017 hurricane season--with 17 named storms, 
including three Category 4 hurricanes that made landfall in the United 
States--was one for the record books. Three of the top five most 
economically damaging hurricanes in U.S. history occurred in 2017--
Harvey, Irma, and Maria.\1\ Despite the severity, communities were 
warned far in advance by NOAA's reliable forecasts. Based on 
preliminary data, the National Hurricane Center's (NHC) Atlantic track 
predictions for 2017 set an all-time record low position error across 
all forecast hours, which improved on the 5-year mean error by about 25 
percent.
---------------------------------------------------------------------------
    \1\ https://www.nhc.noaa.gov/news/UpdatedCostliest.pdf
---------------------------------------------------------------------------
    NOAA's mission is to understand and predict changes in the Earth's 
environment, from the depths of the ocean to the surface of the sun, 
and to conserve and manage our coastal and marine resources. As a 
mission-driven, science and operations agency, NOAA is responsible for 
global satellite observations, atmospheric and oceanic research (both 
in-house and collaborative research with our valued external and 
government partners), operational weather and water forecasts, the 
delivery of critical products and services, and the stewardship of our 
marine resources. NOAA provides environmental information and forecasts 
to American citizens, businesses, and all levels of government to 
enable informed decisions on a range of issues and scales--local to 
global and short-term to long-term. Through the National Weather 
Service (NWS), NOAA has the sole Federal responsibility for issuing 
weather and water warnings to protect lives and property in communities 
across the country and in U.S. territories, and does so by working 
closely with emergency management officials on the federal, state, 
local, and tribal level.
    This past hurricane season was ``all hands on deck'' for NOAA--
ranging from our well-known hurricane watches, warnings, and Hurricane 
Hunters, to our response and recovery efforts to reopen Gulf and 
Atlantic ports that are economic lifelines to coastal communities, to 
conducting damage assessment overflights, and assisting fisheries 
recovery. Before, during, and after these storms--as with all major 
weather events that impact the United States--NOAA provides products, 
tools, and services used by emergency mangers (EMs), emergency 
responders, coastal planners, individuals, and businesses to help save 
lives, protect property, and mitigate damage.
Hurricane Forecasts and Warnings
    Track and intensity forecasts for this past hurricane season were 
the best the NHC ever produced. The NHC official track forecast errors 
have decreased every decade since the 1960s. The average position error 
at 48 hours has been reduced from 260 nautical miles in the 1960s to 
about 75 n mi in the 2010s. The 5-day forecasts (storm location) are 
now better than day-and-a-half (36-hour) forecasts were in the 1970s. 
There has also been a 25 percent reduction of intensity errors at day-5 
in 2010-2016 as compared with 2000-2009. (See Figure 1)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 1. Official Hurricane Track and Intensity Errors from 1970--
2017.

    For Irma alone, the state of Florida used NWS forecasts to declare 
a State of Emergency six days before landfall. That, in and of itself, 
is amazing and is due largely to NWS efforts to provide Impact-based 
Decision Support Services (IDSS), as codified in the Weather Act. The 
storm was still east of the Lesser Antilles, yet the emergency managers 
had enough confidence in our forecast track (Figure 2) and intensity to 
begin evacuations and preparations nearly a week before the hurricane 
made landfall. The long lead time allows EMs to evacuate and improve 
preparation before the storm.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 2. National Hurricane Center 5-day forecast for Irma issued 
at 5 PM EDT September 4, 2017.

    The accurate predictions are the culmination of the ongoing process 
of transitioning model improvements made by the NWS Environmental 
Modeling Center (EMC) and NOAA's Office of Oceanic and Atmospheric 
Research (OAR) into production, where the sophisticated code is run 
operationally on the upgraded NOAA supercomputers. These high-
resolution models, including multiple ensembles, provide our 
forecasters with the detailed probabilistic guidance they need to make 
accurate predictions.
    Funding provided for the Hurricane Forecast Improvement Program 
(HFIP), and Disaster Relief Appropriations Act of 2013, referred to as 
the ``Sandy Supplemental,'' along with our annual appropriation, has 
afforded NOAA resources for ocean observing, hurricane-related 
research, coastal monitoring, upgrades to the two NOAA Hurricane Hunter 
aircraft, accelerating our hurricane-related storm surge prediction 
capabilities, and providing a critical historic enhancement in 
operational high-performance computing, enabling these models to be run 
at higher resolutions with better dynamics and physics. With the Sandy 
Supplemental funding and our base funding, our operational computing 
capacity has increased from 1.6 Petaflops in 2015 to 8.4 Petaflops in 
2018. We thank you for providing the resources to continue these 
improvements.
    NOAA's hurricane forecast improvement has resulted in a narrowing 
of our ``cone of uncertainty,'' increasing the confidence of emergency 
manager in deciding to evacuate. In addition to saving more lives, we 
are taking advantage of several opportunities that now enable us to 
take numerical weather prediction to a new level. HFIP activities were 
conducted to: improve the prediction of rapid intensification and track 
of hurricanes; improve the forecast and communication of storm surges 
from hurricanes; and incorporate risk communication research to create 
more effective watch and warning products. The research and development 
in HFIP has been a joint effort between NOAA (primarily NWS and OAR) 
and academic partners. The result is that NOAA is meeting the five-year 
HFIP goal to reduce hurricane forecast track and intensity errors by 20 
percent, and to extend the useful range of forecasts to seven days.
    Storm surge poses the greatest threat for a large loss of life and 
property in a single day from hurricanes. Consequently, NWS began 
issuing storm surge watch and warnings in 2017 based on a collaborative 
process between NHC, local forecast offices, numerical guidance, and an 
ensemble-based probabilistic surge model. Preliminary information shows 
there were no storm surge related deaths in the United States in 2017. 
This is a significant contrast to 2012, when storm surge from Sandy 
took 41 lives, more than half of all the fatalities in that storm.
    There was considerable attention over the 10-year development time-
frame of the storm surge watch and warnings product. Storm surge 
watches and warnings provide vital information about where and when 
life-threatening inundation will occur. This includes easy-to-
understand graphics, co-developed with emergency managers and social 
scientists, which clearly display the areas in harm's way. (Figure 3)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 3. Hurricane Irma storm surge watch/warning graphic issued 
for Florida on Sept. 9, 2017.

    In the days leading up to all three major hurricanes, NOAA's 
National Ocean Service (NOS) monitored and disseminated observations of 
water levels, currents, and weather information through Storm Quick 
Look. This product has been issued since 2004 and is initiated when NWS 
issues a tropical storm or hurricane warning to provide scientists and 
forecasters with reliable real-time observations from strategically 
located water level stations along the coastline to validate or adjust 
forecasts. Storm QuickLook ensures emergency responders and regional 
decision makers have actionable water level information to make 
critical safety decisions. (See Figure 4 depicting the paths of Harvey, 
Irma, and Maria.)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 4. Tracks and wind fields for Hurricanes Harvey, Irma, and 
Maria.

    An important contributing factor behind NOAA's forecasting success 
this hurricane season was our embedding with emergency managers at 
federal, regional, state and local levels. For example, prior to 
landfall of Harvey, Irma, and Maria, at the request of FEMA, NOAA (NOS) 
was working on-site in the FEMA National Response Coordination Center 
to provide critical connections between FEMA and NOS post-storm 
response operations.
    As the storms approached, NOAA's Regional Navigation Managers--who 
work directly with pilots, mariners, port authorities, and recreational 
boaters to help identify maritime navigational challenges--were on-site 
at U.S. Coast Guard (USCG) Incident Command Centers to coordinate post-
storm surveys, and Scientific Support Coordinators were present to 
assist with hazardous materials response efforts. Such utilization of 
NOAA by other agencies illustrate the unique value and expertise we 
provide to the Nation's coastal safety and sustainability.
    At the same time, the U.S. Integrated Ocean Observing System 
(IOOS), and the regional associations, collected data used by NWS 
models, and provided information to inform communities before, during, 
and after all three storms using shore stations, moorings, high 
frequency radars and gliders.
    Forecasting rainfall amounts from tropical systems is another area 
of significant improvement. Hurricane Harvey dumped an unprecedented 
five feet of rain over portions of East Texas. Our forecasters 
recognized the potential and were working directly with local EMs by 
providing IDSS to enable them to make evacuation decisions, and even 
the decision to close Downtown Houston in anticipation of the record 
setting rainfall. (Figure 5 is the observed 5-day rainfall from 
Harvey.). Emergency managers have credited NOAA with saving numerous 
lives. It is our dedicated workforce that makes all of this happen. 
NOAA forecasters stayed on the job during all of the hurricanes, 
working closely with EMs to provide life-saving forecasts and warnings, 
with full recognition that their own homes and families were under 
threat from the storms. Their dedication is unparalleled. Additional 
forecasters were deployed to the affected offices from other locations 
ahead of the storms, in anticipation of the work and decision support 
services that would be needed during the storms.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 5. Five-day observed rainfall totals from 7 a.m., Friday, 
August 25 to August, 30.

    NOAA's flood forecasting has also improved. The National Water 
Model (NWM), which is run at the National Water Center, provided 
information that was used by NOAA River Forecast Centers to issue the 
flood forecasts that were used by EMs during the massive flood in Texas 
caused by Harvey's unprecedented rainfall. It is equally important for 
EMs to know what areas would not be flooded, so they could position 
recovery assets in the right locations. This information allowed local 
officials and teams on the ground to quickly determine where to deploy 
limited resources, plan for evacuations, where to focus their recovery 
efforts. Improvements to the NWM will continue with one focus being 
inundation mapping.
NOAA Response and Recovery Efforts
    NOAA has made significant advances in our response, recovery, and 
restoration services as well. One example is NOS's capability to 
rapidly survey coasts and ports to facilitate resumed operations as 
soon as possible. Prior to each storm, Navigation Response Teams (NRTs) 
from NOS mobilized immediately to provide emergency hydrographic 
services to affected port areas. The NRTs rely on forecasts from NHC to 
stage their operations close enough to be able to respond quickly, and 
safe enough to not be impacted by the storm. When conditions are safe 
again for operations, these emergency response teams conduct initial 
rapid surveys to detect submerged obstructions and areas of shoaling, 
then summarize the data into information that the USCG relies on to 
make critical decisions to reopen ports. For example, within seven 
hours of Irma's passage, a NOAA survey team traveled from Mobile, 
Alabama, to Florida and was in the Port of Miami conducting survey 
operations. Staff worked relentlessly to process and deliver data to 
the USCG Captain of the Port, who then approved the reopening of both 
the port's north and south shipping channels within 38 hours of Irma's 
passage. Data from NOAA's work enabled emergency supplies to be 
delivered, cruise ships to return to port, and for commerce to resume 
in southern Florida, saving Port Miami approximately $69 million a day 
in potential losses.\2\
---------------------------------------------------------------------------
    \2\ NOAA estimates based upon data published by https://
www.ustradenumbers.com/ports/port/port-of-corpuschristi-texas/
---------------------------------------------------------------------------
    In total, NOAA helped reopen over 26 ports and approaches following 
the three major hurricanes. Critical ports, such as Corpus Christi, 
Galveston, Houston, Miami, Key West, Tampa, and San Juan provide 
lifelines to communities for essential products like fuel, and serve as 
these local communities' economic engines. The estimated cumulative 
loss of trade for ports closed in 2017 was roughly $500 million per 
day. These losses would have continued over many days if NOAA's 
emergency response capabilities had not been available to enable the 
USCG to reopen the waterways.\2\
    NOAA aerial survey missions also assess damages to hurricane 
affected areas and help guide the incident response. Since Sandy, NOAA 
has made significant improvements in our ability to quickly, 
efficiently, and reliably provide this information. NOS and the NOAA 
Office of Marine and Aviation Operations (OMAO) have jointly advanced 
our capability to capture high resolution mapping imagery to support 
NOAA's emergency response and safety of navigation requirements. Aerial 
survey teams process the data upon landing and quickly deliver it to 
users, often within hours of their flying the mission. The emergency 
responders and coastal managers use the imagery of coastal areas, 
sensitive habitats, and navigation routes to help direct aid to where 
it is most needed, facilitate search and rescue strategies, identify 
navigation hazards and HAZMAT spills, locate errant vessels, and 
provide documentation necessary for damage assessment. These publically 
accessible images are typically the first views that evacuated 
residents have of their property after the storm. For Harvey, Irma, 
Maria, and Nate, NOAA aircraft flew nearly 40,000 miles for hurricane 
recovery support missions collecting more than 65,000 images that 
covered just shy of 10,000 square miles; roughly the area of the State 
of Maryland.
    In support of the removal of HAZMAT and vessels displaced by 
Hurricane Irma, staff from the NOS Office of National Marine 
Sanctuaries and Office of Response and Restoration served in support of 
the Emergency Support Function 10 (ESF-10) Florida Incident Command 
Post Environmental Unit. This NOAA team provided concise and consistent 
guidance supporting pollution response and the removal of vessels/
debris in the Florida Keys, while considering impacts to sensitive 
natural and cultural resources.
NOAA Shoreline and In-Water Restoration Efforts
    According to a new study published by Nature in Scientific Reports 
\3\, conserving and restoring coastal reefs, wetlands, and mangroves 
can prevent flooding and abate hundreds of millions of dollars in storm 
damage. This study reports that wetlands protected areas of the East 
Coast from more than $625 million in direct flood damages from Sandy in 
2012. Wetlands reduced damages by more than 22 percent in half of the 
affected areas and by as much as 30 percent in some states. NOAA has an 
extraordinary team of environmental engineers, conservation biologists, 
and ecological experts who are running programs to rebuild marshes, 
beaches, and breakwaters and I have seen the success of these efforts 
first hand with NOAA's National Marine Fisheries Service (NMFS) 
restoring a marsh in Bayou Dupont, Louisiana that is a very effective 
hurricane storm surge barrier. This area was underwater four years ago.
---------------------------------------------------------------------------
    \3\ https://www.nature.com/articles/s41598-017-09269-z
---------------------------------------------------------------------------
    Since 1995, NMFS and partners have implemented over 300 wetland and 
coastal habitat restoration projects in the Caribbean, South Florida, 
and Gulf of Mexico--all areas that were impacted by 2017 hurricanes. 
When compared to adjacent sites that were not stabilized, NOAA 
restoration sites mitigated further erosion which reduced additional 
sedimentation of coral reef habitats while also protecting adjacent 
infrastructure (i.e., roads). For example, Texas restoration projects 
in the path of Hurricane Harvey generally sustained little to no 
damage. In Louisiana, 10 recent large-scale coastal wetland protection 
projects implemented through the Coastal Wetlands Planning, Protection 
and Restoration Act Program sustained little or no damage during 
Hurricanes Harvey and lesser known Hurricane Nate. The third landfall 
of Harvey passed over the Louisiana Oyster Bayou project during 
construction; however, only a small amount of material was lost and 
construction was able to quickly resume.
    In the Caribbean, the paths of both Hurricanes Irma and Maria 
crossed nearly 100 watershed restoration projects located throughout 
the U.S. Virgin Islands and Puerto Rico. These projects are focused on 
stabilizing steep and eroding terrain to prevent sedimentation to 
nearshore habitats and generally appear to have sustained minor to no 
damage.
Data
    The nation has made significant investments in developing, 
launching, and operating satellites that support the Nation's weather 
enterprise. For hurricanes, data from satellites and reconnaissance 
aircraft are critical components of NOAA's observation network.
    NOAA's National Environmental Satellite and Data Information 
Service (NESDIS) has operated Polar-orbiting Operational Environmental 
Satellites (POES) since 1966, and Geostationary Operational 
Environmental Satellites (GOES) since 1974. The Suomi National Polar-
orbiting Partnership (Suomi NPP) initiated NOAA's overall strategy for 
providing improved and higher resolution data to support weather 
forecasting. On November 18, 2017, NOAA launched the first of its four 
Joint Polar-orbiting Satellite System (JPSS) series, JPSS-1 (now known 
as NOAA-20). The substantial data collection from these satellites 
allows us to more precisely analyze the oceans and atmosphere, which 
greatly influence the development and track of hurricanes.
    Data from GOES are essential for observing and forecasting the 
formation and track of hurricanes. NOAA launched the first satellite in 
the GOES-R Series, known as GOES-16, on November 19, 2016. These 
satellites are the most sophisticated environmental satellites ever to 
be launched. They collect three times more data at four times better 
resolution, and scan the Earth five times faster than previous 
geostationary environmental satellites over North America. The 
technological advances of GOES-16 (now GOES-East) are absolutely 
astounding. For decades, geostationary weather satellites have 
supported weather and environmental monitoring programs that are relied 
upon by users in the U.S. and around the world.
    NWS forecasters in Corpus Christi, Texas, tracked the eye of 
Hurricane Harvey using preoperational GOES-16 imagery in concert with 
NEXRAD Doppler radar data. They worked closely with EMs who needed to 
evacuate people from vulnerable areas, but could not risk exposing the 
public to the harsh hurricane conditions. The forecasters used the 
information to identify a short window of opportunity to evacuate as 
the eye passed directly overhead. During Hurricane Maria, Puerto Rico's 
only NEXRAD Doppler radar was destroyed by the storm as the eye made a 
direct hit on the island. GOES-16 continued to provide detailed 
information that remained available to our forecasters. With 
information available every 60 seconds, forecasters could watch 
thunderstorms develop and were able to issue accurate flash flood 
warnings for the public.
    On March 1, 2018, NOAA launched GOES-S (renamed to GOES-17 on March 
12, 2018, when it reached geostationary orbit). Once GOES-17 becomes 
operational in late 2018 as GOES-West, along with GOES-East will 
provide superior coverage for the majority of the Western Hemisphere 
from the west coast of Africa all the way to New Zealand. Each 
satellite has six new, highly sophisticated instruments that will 
provide faster, more accurate and more detailed data than legacy 
satellites to track hurricanes and other potentially devastating 
events. The Global Lightning Mapper sensor on each will provide our 
forecasters and researchers with realtime in-situ lightning data for 
the first time over remote areas, such as open waters. These lightning 
data will help us better understand what is occurring within the 
storms, and it will also improve our warning capability for severe 
storms, including hurricanes.
    NOAA continues to benefit from, and rely on, aircraft 
reconnaissance. Ten WC-130J aircraft are specially configured and 
operated by the U.S. Air Force Reserve from the 53rd Weather 
Reconnaissance Squadron, 403rd Wing, located at Keesler Air Force Base 
in Biloxi, Mississippi. The NOAA G-IV and two Lockheed WP-3D Orions (P-
3) are part of NOAA's fleet of highly specialized research and 
operational aircraft. These aircraft are operated, managed, and 
maintained by OMAO, based in Lakeland, Florida. The G-IV flies at high 
altitudes around and ahead of a tropical cyclone, gathering critical 
data that depict the atmospheric steering flow, and that data feed into 
and result in improved accuracy from hurricane forecast models. The P-
3s are NOAA's hurricane research and reconnaissance aircraft. These 
versatile turboprop aircraft are equipped with an unprecedented variety 
of scientific instrumentation, radars and recording systems for both 
in-situ and remote sensing measurements of the atmosphere, the earth 
and its environment. These two aircraft have led NOAA's continuing 
effort to monitor and study hurricanes and other severe storms, and 
other non-hurricane-related missions in their ``off season.'' When 
flying a hurricane mission, military and NOAA P-3 air crews fly 
directly through the eye of the storm several times each flight. They 
collect data and transmit it in near real time by satellite directly to 
NHC so forecasters can analyze and predict changes to the hurricane's 
path and strength. The data also are transmitted in real-time for 
initializing the storms in operational numerical models for better 
analysis and forecast guidance and then used by researchers to better 
understand the processes contributing to intensity change.
    NOAA, though NESDIS, leverages full and open exchanges of satellite 
data with NASA and the Department of Defense, as well as foreign 
National Meteorological Services to meet our observational data 
requirements. With Congressional support, in recent years, NOAA has 
been increasingly seeking opportunities for incorporating commercially 
acquired data into our weather models.
Improved Observation through Unmanned Systems
    NOAA is working with the private sector and other Federal agencies 
to identify, evaluate, and transition innovative and cost-effective 
Unmanned System (UxS) capabilities that meet NOAA's observing 
requirements, and help form a comprehensive observing strategy for the 
future. Unmanned Aerial Systems (UASs), for example, have improved 
Hurricane observation. This hurricane season, NOAA joined with NASA to 
fly the unmanned NASA Global Hawk ahead of and above Hurricanes 
Franklin and Harvey, launching dropsondes that collected data to be 
assimilated into the operational Global Forecast System model and HWRF. 
This year marked the first time that Global Hawk dropsondes were 
assimilated in real-time into the GFS model. Scientists also launched 
six small ``Coyote'' drones from a NOAA P-3 Hurricane Hunter during 
Hurricane Maria to collect unique data from within the eyewall in the 
lower part of the storm where it gains strength from the ocean. The 
low-level observations of wind speed, wind direction, atmospheric 
pressure, temperature, moisture, and sea surface temperature provide 
more detail on hurricane strengthening than dropsondes that record a 
single point of data. These observations can provide information needed 
to improve intensity predictions.
    NOAA researchers partnered with NOS IOOS regions to deploy 
underwater gliders to better understand how the upper ocean contributes 
to hurricane intensity. These gliders collect information in the 
Atlantic Warm Pool, an area of the ocean commonly associated with 
hurricane development and intensification that has been expanding over 
the past two decades. Hurricanes Harvey, Irma, Jose, and Maria, passed 
directly over, or very close to the gliders, providing valuable 
information to NOAA researchers and forecasters. The ocean data 
collected by the gliders totaled over 4,000 temperature and salinity 
profiles. Correct representation of ocean conditions during a hurricane 
has been shown to significantly reduce the error in intensity forecast.
    We anticipate data from new UxS technologies, to include Unmanned 
Surface Vehicles (USVs) will contribute significantly to improved 
understanding of tropical cyclone processes and ultimately to 
improvements in track and intensity predictions.
Further Improvements
    In addition to continuing the improvement cited above, we will look 
to transition other promising research and development work. For 
example, experimental models being developed at NOAA Research labs 
produced impressive results this hurricane season, holding out the 
promise for important gains in future years. These models will be 
further tested, refined and transitioned to day-to-day operations 
within the NWS. NOAA's experimental global model, or fvGFS, exceeded 
all other global models in forecasting the track of Hurricane Maria. 
FvGFS is powered by the NOAA Research-developed FV-3, which is 
transitioning to operations to become the heart of NOAA's next 
generation Global Forecast System.
    The experimental, basin-scale version of the operational HWRF 
model, supported by HFIP, was run in real time for Hurricane Harvey. 
Tail Doppler radar wind data collected from the NOAA P-3 aircraft was 
assimilated into this system for the first time. Apart from near-
perfect track predictions, the basin-scale HWRF accurately captured the 
rapid intensification of Harvey over several cycles in advance of the 
system's landfall.
    The NOAA Research experimental High Resolution Rapid Refresh model, 
HRRRx, also showed great promise for future improvements to NOAA's only 
high resolution, hourly updating forecast model that can resolve 
weather down to the level of individual thunderstorms. Preliminary 
evaluations showed that HRRRx, accurately predicted the path of 
Hurricane Harvey, as well as the location and amount of rainfall from 
the storm for its range of prediction out through 36 hours.
    Improvements in NOAA's hurricane prediction will continue to follow 
the guidelines outlined in the Weather Act. The Act expands on critical 
NOAA mission areas, including improvements through HFIP, improved 
modeling and computing capacity, working with the private and academic 
sectors to obtain the best possible data, improving NWS Impact-based 
Decision Support Services (IDSS) efforts, and using social science to 
better communicate critical messages and information to the public and 
our core partners.
Conclusion
    The improvements NOAA has made over the last decade in 
environmental observation, prediction, decision support, response and 
recovery were clearly validated during the 2017 hurricane season. 
Nevertheless, we can and will improve further by applying the FY18 
Omnibus and Disaster Supplemental appropriations to continue 
transitioning research to operations, strengthening our vast network of 
partners, and implementing the Weather Research and Forecast Innovation 
Act.

    Senator Wicker. Thank you very much.
    Rear Admiral Fagan.

STATEMENT OF REAR ADMIRAL LINDA L. FAGAN, DEPUTY COMMANDANT FOR 
       OPERATIONS POLICY AND CAPABILITY, U.S. COAST GUARD

    Admiral Fagan. Thank you, Mr. Chairman. It's a pleasure to 
be here with the Committee this morning to focus on Coast Guard 
preparations for the next hurricane season.
    As the Federal Government's maritime first responder, the 
Coast Guard's unique capability, capacity, and authorities 
allow it to play a critical role in disaster response. When 
responding, our primary missions are saving lives, providing 
security for and reconstituting commercial waterways and 
infrastructure, responding to environmental threats, and 
providing support to other agencies.
    As the lead Federal agency responsible for maritime 
disaster response and an armed service within DHS, the Coast 
Guard is uniquely positioned to operate across the response 
spectrum and serve as a bridge between the military and 
civilian responders.
    Coast Guard efforts during, before, and after all four of 
last season's hurricanes were sharply informed by our core 
missions and authorities. We deployed nearly 5,000 personnel to 
augment the permanently assigned Coast Guard persons in the 
impacted areas. Working from helicopters, boats, cutters, 
vehicles, and on foot, these dedicated professionals saved 
nearly 12,000 lives.
    At the height of our response, approximately one-quarter of 
the helicopters in the service were forward-deployed. Ships 
ranging from the newest national security cutter to 50-year-old 
inland river tenders all took part in the response. We restored 
the safety and security of the maritime transportation system 
by addressing 1,200 aids to navigation discrepancies, 
coordinating salvage of over 4,200 damaged or sunk vessels.
    Today, there are Coast Guard forces still operating out of 
temporary infrastructure as they continue to execute our day-
to-day missions. Recovery is ongoing in these communities, and 
for many first response partners. Meanwhile, dozens of Coast 
Guard families impacted by these storms remain displaced from 
their homes.
    We are thankful for the enduring support provided by 
Congress, especially the recent supplemental funding, for our 
hurricane response activities. This will allow us to rebuild 
some of our damaged infrastructure and restore some of the 
future readiness depleted in response to these devastating 
back-to-back storms.
    Over the past several months, the Coast Guard examined all 
aspects of our response to these storms, where pre-arrival 
preparations and immediate response actions were taken, and how 
we worked to reconstitute ports and waterways in partnership 
with local communities to recover from their devastating 
effects.
    Utilizing a well-established lessons-learned process, we 
have accelerated the implementation of several key lessons to 
improve future responses. We are updating policies and plans, 
improving capabilities, sharing best practices, and 
collaborating with partners to ensure the best possible whole-
of-government response to the next natural disaster.
    Our lessons learned highlight a common theme. With the 
right facilities, equipment, assets, and training, Coast Guard 
men and women will save American lives and preserve economic 
prosperity. Rebuilding our facilities in a way that make them 
more storm resilient and survivable is key to enabling future 
success. We need to continue to invest in our ongoing 
recapitalization of our fleet of aircraft, vessels, and boats, 
and we need to rebuild organizational infrastructure that 
support the Coast Guard's greatest asset, our people.
    Coastguardsmen are among the most dedicated, selfless, and 
effective men and women you will find in government, and I'm 
proud of their efforts and success. They must have a foundation 
of sound training, capable equipment, which, when blended with 
courage, discipline, and vigilance, creates a significant 
benefit to the American public. They remain always ready and 
will continue to risk their lives to save those in distress.
    Thanks to the support of the Department of Homeland 
Security, the administration, and Congress, we have made great 
strides in replacing our aging aircraft vessels and rebuilding 
and repairing infrastructure, and providing equipment to our 
Coast Guard men and women as they answer the Nation's call 
without fail time and time again.
    Thank you very much, Mr. Chairman, and I look forward to 
answering your questions.
    [The prepared statement of Admiral Fagan follows:]

 Prepared Statement of Rear Admiral Linda L. Fagan, Deputy Commandant 
         for Operations Policy and Capability, U.S. Coast Guard
Introduction
    Good morning Mr. Chairman and distinguished Members of the 
Committee. It is my pleasure to be here today to discuss the Coast 
Guard's preparations for the next Atlantic hurricane season, lessons 
learned from the 2017 hurricane season, and the demands contingency 
responses place on the Coast Guard.
    First, let me thank you for the outstanding support this committee 
has given the Coast Guard (Service), especially as it relates to the 
supplemental funding for hurricane response activities. This critical 
infusion allows the Service not only to rebuild damaged and destroyed 
facilities, but also provides the ability to rebuild to modern 
resiliency standards, ensuring the best chance of withstanding future 
disasters.
    The U.S. Coast Guard is the world's premier military, multi-
mission, maritime service responsible for the safety, security and 
stewardship of U.S. waters and hundreds of miles seaward. At all times, 
a military service and branch of the U.S. Armed Forces, a Federal law 
enforcement agency, a regulatory body, a first responder, and a member 
of the U.S. Intelligence Community, the Coast Guard stands the watch 
and serves a nation whose economic prosperity and national security are 
inextricably linked to broad maritime interests.
    As the Nation's maritime first responder, the Coast Guard has 
unique capabilities, capacity, and authorities that allow it to play a 
critical role in disaster response. Today I would like to discuss the 
Coast Guard's primary missions in disaster response, its strengths, 
limitations, and some issues that demand our focus as we look toward 
the 2018 hurricane season.
Primary Missions in Disaster Response
    The Coast Guard's primary missions in domestic disaster response 
are:

  (1)  Saving lives in distress, and ensuring the safety and 
        survivability of its own forces and assets for immediate post-
        disaster response operations;

  (2)  Security and reconstitution of ports, waterways, and critical 
        maritime infrastructure;

  (3)  Environmental response operations (oil, chemical and hazardous 
        material); and

  (4)  Support to other agencies in a whole-of-government response 
        effort.

    Saving lives in distress remains our first priority. During 
Hurricanes HARVEY, IRMA, MARIA, and NATE, Coast Guard women and men in 
vessels, aircraft, vehicles, and on foot rescued nearly 12,000 people 
and over 1,500 pets.
    For each of these storms and all natural disasters along our 
coastline, Coast Guard crews are typically the first Federal responders 
to enter an impacted area, right alongside our state, local, tribal, 
and territorial responders, to conduct rescues and assess damage. I 
should note that in an average year, the Coast Guard saves 3,600 lives. 
The Coast Guard tripled that number during HARVEY alone in a matter of 
days.
    In addition to search and rescue operations, the Coast Guard flows 
forces into the impacted regions to restore ports and waterways, 
respond to pollution, provide security and additional law enforcement 
capability where necessary, and protect offshore petrochemical 
platforms. Within five weeks, Hurricanes HARVEY, IRMA, MARIA, and NATE 
impacted over 2,500 miles of shoreline.\1\ The Coast Guard responded to 
1,269 aids to navigation discrepancies, handled 290 pollution cases, 
and targeted and assessed thousands of grounded vessels, with more than 
4,200 removed to date. Coast Guard damage assessment teams were on-
scene within hours determining the status of ports and waterways, 
documenting environmental hazards, assessing the impacts to Coast Guard 
facilities and capabilities, and leveraging technology, such as the 
employment of electronic aids to navigation, to facilitate the 
reopening of key ports and waterways.
---------------------------------------------------------------------------
    \1\ Using CRS method of Shoreline Measurement: Texas: 367 mi, 
Louisiana: 397 mi, Florida: 1,350 mi, Puerto Rico: 311 mi, USVI: 117 mi
---------------------------------------------------------------------------
    The Coast Guard response during the 2017 hurricane season was 
historic and overwhelmingly successful. However, as an organization 
dedicated to continuous improvement and increased resiliency the Coast 
Guard inherently knows there are lessons to be learned, even after a 
successful contingency response. The Coast Guard has identified several 
strategic and over one hundred tactical-level lessons learned. The 
Coast Guard is tracking, and will continue to track, these issues until 
they have been resolved. The Service is updating policies and plans, 
improving capabilities, sharing best practices, and working with FEMA 
and state partners to improve processes. As we approach the start of 
the Atlantic hurricane season on June 1, 2018, the Coast Guard will 
conduct fifty-two natural disaster exercises at its District and Sector 
Commands. In addition, the Coast Guard will participate in the 2018 
Atlantic Fury National Level Exercise involving a National Capital 
Region impact in order to test headquarters-level preparedness for 
hurricane response.
Our Strengths
    The Coast Guard has several key strengths that enable quick and 
effective response to natural disasters. The first of these strengths 
begins with its people, whose bias for action and adaptability to 
rapidly changing circumstances and uncertainty never ceases to fill me 
with pride and admiration.
    Coast Guard cutters, aircraft, and boats are built to respond to a 
variety of missions without the need for any significant 
reconfiguration. Cutters conducting counter-drug patrols in the Transit 
Zone can quickly divert to disaster areas to provide command and 
control, deliver rotary wing air capability from the sea, conduct 
refueling, and provide forward staging facilities. Coast Guard aircraft 
that normally perform law enforcement surveillance to thwart 
transnational maritime criminal activities can be dynamically 
repositioned and re-tasked to deliver disaster relief supplies, 
additional responders, and equipment to affected areas.
    Additionally, Coast Guard forces are on station at key locations 
around the Nation, most of them on short-notice recall, which can 
respond quickly to emergent events. When a major catastrophe occurs or 
is anticipated, the Service can reposition forces quickly to that area 
to optimize the response.
    The Coast Guard enjoys an agile and decentralized command and 
control structure, which provides operational commanders the authority 
to move forces quickly to respond to large contingencies. Two Area 
Commanders, and their nine subordinate District Commanders, can shift 
and reallocate forces from one region to another based on levels of 
risk and anticipated demand for operational capabilities.
    The Coast Guard has also developed and regularly exercises 
Continuity of Operations Plans for relocating command and control 
functions out of harm's way to strategically advantageous positions to 
effectively conduct response and recovery operations. During the 2017 
hurricanes, seven major shore commands and one District command shifted 
out of the path of the storms to alternate facilities, resulting in 
only minor disruptions and no loss of command and control.
    In addition to fielding flexible, multi-mission forces and 
effective command and control systems, the Coast Guard also benefits 
from a unique mix of broad standing authorities, as well as extensive 
experience operating within both military and other interagency 
response organizations.
    As a military service, the Coast Guard can be a supported or 
supporting commander, and its forces are frequently integrated with 
U.S. Department of Defense (DOD) services in Joint Task Force 
organizations. The Service regularly provides forces in support of DOD 
exercises, Combatant Commander contingency plans, and theater security 
cooperation activities. This routinely exercised relationship develops 
close cooperation at the service level, enabling Coast Guard and DOD 
forces to integrate seamlessly during disaster response operations.
    In addition to its military role, the Coast Guard routinely works 
with other Federal agencies, state and local governments, non-
governmental agencies, and international organizations under its U.S. 
Code, Title 14 law enforcement and regulatory responsibilities.
    The Coast Guard is the Nation's ``maritime first responder'' and 
has a leading role in executing the National Response Framework (NRF) 
for disaster situations. Its personnel are well-trained and experienced 
in response operations, which make them a sound choice to be designated 
for key leadership positions in the NRF structure. This ability to 
operate concurrently in both military Joint Task Force and civilian NRF 
structures enhances unity of effort during whole-of-government 
responses across organizations and dramatically improves the 
effectiveness of disaster response, which makes the Coast Guard a truly 
unique Federal agency.
Our Limitations
    Despite the many strengths the Coast Guard brings to disaster 
response, the Service has limitations that must be considered.
    Across the 2017 hurricane response operations, more than 3,000 
Coast Guard women and men, and 200 assets or platforms from across the 
Service, from places as far away as Alaska, Hawaii, and Maine responded 
to save nearly 12,000 citizens in distress. The hurricane response had 
a significant impact on Coast Guard operations. The Coast Guard is 
small in comparison to the other Armed Services. With only 40,600 
active duty, 7,000 reserve, and 8,500 civilian personnel, responding to 
a major natural disaster requires balancing risk in other geographic 
regions and mission areas in order to flow forces and capabilities into 
the major disaster response.
    Residual risk was spread across the Coast Guard, with a keen eye 
towards meeting minimal mission standards in most, but not all, 
locations. Given the heavy demand for aviation capabilities following 
each of the storms, all aviation training was stopped until the later 
stages of recovery efforts were reached. The level of forces typically 
allocated to performing counter-drug, fisheries enforcement, and 
migrant interdiction operations in the Eastern Pacific Ocean, Caribbean 
Sea, and Florida Straits was reduced as well.
    The Service has a limited capacity to respond to prolonged and 
sequential events. While the Coast Guard is well-positioned for 
immediate and effective first response, plans to sustain operations and 
hand-off responsibilities once a crisis has been stabilized are primary 
considerations for Coast Guard commanders responding to natural 
disasters. During 2017, the initial hurricane response spanned multiple 
months, with some response operations continuing today. The Coast Guard 
endured risk exposure across all 11 missions with service-wide impacts 
to training, personnel readiness, and maintenance of equipment. To 
sustain prolonged response operations, the Service had to sacrifice 
preparedness for the next contingency response. When discussing 
resiliency, infrastructure and assets immediately come to mind. 
However, the resiliency of the Coast Guard as an organization is 
equally critical to mitigating the secondary effects of responding to 
emergent events. The Coast Guard must be able to meet the needs of the 
Nation, through a resilient and well-trained workforce, while 
simultaneously answering the call for help during a disaster.
    The age and condition of the Coast Guard's assets is another 
concern, and is one that the Administration, with the support of 
Congress, is working hard to improve. The newest National Security 
Cutter JAMES, working alongside several modern Fast Response Cutters, 
showcased its abilities after hurricane MARIA by serving as a command 
and control platform off of Puerto Rico. As more modern and capable 
cutters repositioned for hurricane response, the Coast Guard Cutter 
ALERT, a 48-year-old cutter, held the line in the Eastern Pacific 
Ocean. The crew performed admirably, including a two-week period as the 
only cutter operating in the Eastern Pacific.
Issues to Focus on Going Forward
    Lastly, there are several areas that will require continued energy 
and focus in the months and years ahead in order to enhance the Coast 
Guard's national disaster response capacity and capability.
    When the Coast Guard has the opportunity to recapitalize its 
facilities, it needs to make them more storm-resilient and survivable. 
In fact, several shore facilities that were rebuilt following Hurricane 
IKE suffered minimal damages along the paths of HARVEY and IRMA, a 
testament to modern building codes and standards.
    Continued investment in recapitalizing Coast Guard resources is 
paramount. The need for modernized assets, such as the Offshore Patrol 
Cutter and Waterway Commerce Cutters, to replace an aging fleet is 
highlighted by the National Security Cutter's superior ability to 
coordinate and communicate with Coast Guard, Department of Defense, and 
interagency resources during contingency responses.
    Investing in the Coast Guard's infrastructure supports its greatest 
resource: its people. Although the Service deployed approximately 3,000 
additional Coast Guard women and men to support response operations, 
many more Coast Guard personnel from within the impacted areas 
responded to help those that were displaced and distressed, even as 
they and their loved ones were also displaced. The Coast Guard had to 
relocate over 700 Coast Guard members and dependents after their homes 
were damaged to the point of being uninhabitable.
    Many do not realize the residual risk associated with surging 
resources to an incident. No amount of response capacity and capability 
will be effective without a foundation of preparedness. Having enough 
well-trained and properly equipped personnel, the right assets, and 
adequate contingency infrastructure in place prior to an event is vital 
to sustained success during a major disaster response, and to the 
reconstitution of the impacted area. It is too late to train 
responders, procure new equipment, or find alternate command posts when 
a hurricane is barreling toward our coasts. As has been shown time and 
again, investment in the Coast Guard pays dividends when they are 
needed most.
Conclusion
    The Coast Guard is well-positioned to respond to natural disasters 
due to its unique blend of authorities, capabilities, and capacity. 
Flexible, multi-mission forces and agile command and control systems 
provide the solid foundation from which we can respond to major 
catastrophes. When combined with broad authorities and extensive 
experience operating with diverse partners, the Coast Guard provides a 
vital service to our Nation. As an organization that strives to better 
serve the Nation through continual improvement, the Coast Guard 
evaluates its successes and failures to optimize performance through 
applying both strategic and tactical-level lessons learned. The Coast 
Guard's dedication to ongoing self-improvement will ensure that it is 
best positioned to deliver the level of service the Nation expects and 
deserves well into the future.
    Thank you for the opportunity to testify before you today and for 
your ongoing support of the women and men of the Coast Guard. I look 
forward to your questions.

    Senator Wicker. Thank you very much, Admiral.
    Dr. Dinh-Zarr, we're delighted to have you with us.

STATEMENT OF HON. T. BELLA DINH-ZARR, Ph.D., MPH, BOARD MEMBER, 
              NATIONAL TRANSPORTATION SAFETY BOARD

    Dr. Dinh-Zarr. Good morning, Chairman Wicker and members of 
the Committee. Thank you for the opportunity to testify today.
    When we investigate transportation accidents, the NTSB 
tries to understand not only the human and mechanical factors, 
but also environmental factors, including the weather. In 50 
years of accident investigations, we've seen the importance of 
having accurate weather information, adequate training and 
equipment to understand and operate in adverse weather, and 
suitable equipment to survive dangerous conditions. All of 
these issues were raised in our recent investigation into the 
sinking of El Faro.
    As you know, on October 1, 2015, the cargo ship El Faro 
sank in the Atlantic Ocean during Hurricane Joaquin claiming 
the lives of all 33 crewmembers. I was the NTSB board member 
on-scene.
    Our investigation into the sinking identified several major 
safety issues, but today I'll focus on the weather information, 
the survival craft, and the related recommendations about these 
issues. As we work to encourage adoption of our safety 
recommendations, our thoughts continue to be with the families.
    We worked jointly with the Coast Guard to investigate El 
Faro's sinking. Other organizations, including NOAA, provided 
support to recover El Faro's recorder from over 15,000 feet 
below the surface of the ocean.
    Recovering the recorder was critical to determining the 
probable cause because it provided audio of conversations and 
ambient sounds as well as parametric data, such as heading and 
speed. On behalf of the NTSB, I would like to thank the Coast 
Guard and NOAA for their support.
    By all accounts, the storm was difficult to track as it 
made its way through the Atlantic. Our investigation determined 
that the forecast errors for Hurricane Joaquin and other 
tropical cyclones suggests that hurricane forecasting needs to 
be improved, and we made several recommendations to help ensure 
that mariners at sea better understand and are able to respond 
to severe weather.
    In addition to the challenges of knowing where the storm 
was headed, the captain of El Faro relied primarily on weather 
information that was not as current as other sources of 
information being reviewed by the crew. There are several 
possible explanations for the captain's decision to continue on 
course into the hurricane's path, but his training does not 
appear to have prepared him for the conditions that the storm 
presented. The ship also lacked functioning critical equipment 
that would have helped the crew better understand their 
position relative to the storm.
    We recommended improvements to training for mariners in 
heavy weather operations, including advanced meteorology and 
bridge resource management. And we recommended that vessels in 
ocean service be equipped with properly operating 
meteorological instruments, such as barometers, barographs, and 
anemometers. Once the ship had sailed into the hurricane and 
lost propulsion, El Faro was listing heavily to port in high 
seas and hurricane strength winds, leaving the crew with few 
options. It's unlikely that the life rafts or open lifeboats on 
board could be launched or boarded by the crewmembers, and they 
would not have provided adequate protection even if they had 
been launched.
    Open lifeboats are not allowed on newly built vessels. The 
NTSB's recommendation is that they should not be allowed on any 
vessel. El Faro was 40 years old when it sank, and open 
lifeboats had been outdated for 30 years. If open lifeboats on 
all vessels in service are replaced with enclosed lifeboats 
that adhere to the latest safety standards, as recommended in 
our investigation, all mariners would have the same increased 
chance of surviving should they need to abandon ship regardless 
of the age of the vessel.
    Finally, in recognition of continuous advances in 
equipment, we recommend that lifesaving equipment on vessels be 
reviewed at regular intervals. If enacted, this would 
constitute, in both senses of the word, a living requirement.
    The captain's insufficient action to avoid Hurricane 
Joaquin due to his failure to use the current weather 
information and the lack of appropriate survival craft for the 
conditions were critical factors in this fatal accident. We 
hope our investigation into El Faro's sinking will improve 
mariners' awareness of and preparation for heavy weather as 
well as prompt changes to improve weather forecasting and 
dissemination. These changes, combined with updated technology 
and equipment requirements, will help future mariners avoid 
hurricanes and other significant weather events, and in the 
event of extreme circumstances, will offer them the best chance 
of survival.
    We appreciate that both the Coast Guard and NOAA have been 
responsive to our recommendations, and we look forward to 
continuing to work with them.
    Thank you again for the opportunity to testify. My written 
testimony provides more details, and, of course, I'd be happy 
to answer any questions.
    [The prepared statement of Dr. Dinh-Zarr follows:]

   Prepared Statement of Hon. T. Bella Dinh-Zarr, Ph.D., MPH, Board 
              Member, National Transportation Safety Board
    Good morning Chairman Thune, Ranking Member Nelson, and Members of 
the Committee. Thank you for inviting the National Transportation 
Safety Board (NTSB) to testify before you today.
    The NTSB is an independent Federal agency charged by Congress with 
investigating every civil aviation accident in the United States and 
significant accidents in other modes of transportation--highway, rail, 
marine, and pipeline. We determine the probable cause of the accidents 
we investigate and issue safety recommendations aimed at preventing 
future accidents. In addition, we conduct special transportation safety 
studies and coordinate the resources of the Federal government and 
other organizations to assist victims and their family members who have 
been impacted by major transportation disasters.
    When we investigate accidents, we try to understand not only the 
human factors or the mechanical factors involved, but also the 
environmental factors, including weather. In over 50 years of accident 
investigations, we have seen the importance of having accurate weather 
information, adequate training and equipment to understand adverse 
weather conditions and how to operate in them, and suitable equipment 
to survive dangerous conditions. All of these issues were raised in our 
recent investigation into the sinking of the El Faro.
Investigating the Sinking of El Faro
    On October 1, 2015, the US-flagged cargo ship El Faro, owned by 
TOTE Maritime Puerto Rico and operated by TOTE Services, Inc., sank in 
the Atlantic Ocean about 40 nautical miles northeast of Acklins and 
Crooked Island, Bahamas, during Hurricane Joaquin, claiming the lives 
of all 33 crew members. Our investigation into the sinking and the 
subsequent loss of life identified several major safety issues, 
including the captain's actions, currency of weather information, 
bridge resource management, company oversight, damage control plans, 
and survival craft suitability.
    We served as the lead investigative agency and worked jointly with 
the U.S. Coast Guard to investigate El Faro's sinking. Because the 
sunken vessel could not be physically investigated, recovering El 
Faro's voyage data recorder (VDR) from over 15,400 feet below the 
surface of the ocean was critical to determining the probable cause of 
its sinking. We want to thank the U.S. Coast Guard, the National 
Oceanic and Atmospheric Administration (NOAA), and all the other 
organizations who provided tremendous support to recover El Faro's 
recorder.\1\
---------------------------------------------------------------------------
    \1\ Organizations assisting in the VDR recovery included the 
Department of the Navy, Supervisor of Salvage and Diving and Military 
Sealift Command; U.S. Coast Guard; American Bureau of Shipping; 
National Oceanic and Atmospheric Administration; National Science 
Foundation; Woods Hole Oceanographic Institution; TOTE Services, Inc.; 
and University of Rhode Island, Inner Space Center.
---------------------------------------------------------------------------
    We recovered audio of conversations and ambient sounds from the 
ship's bridge that began at 5:36 a.m. on September 30, two days before 
the accident, and continued until El Faro sank. This data--as well as 
parametric data from the VDR, such as the ship's heading and speed--
provided information about the captain's and crew's conversations and 
actions throughout the voyage, the weather information available to 
them, and the ship's performance as it sailed into the storm. On 
December 12, 2017, following a 26-month investigation, we determined 
the probable cause of the sinking and made 53 safety recommendations. 
The final report and recommendations were published on February 7, 
2018.\2\
---------------------------------------------------------------------------
    \2\ National Transportation Safety Board, Sinking of U.S. Cargo 
Vessel SS El Faro, Atlantic Ocean, Northeast of Acklins and Crooked 
Island, Bahamas October 1, 2015, Rpt. No. MAR-17/01 (Washington, D.C.: 
NTSB, 2017).
---------------------------------------------------------------------------
    For the purposes of this testimony, I will focus on the safety 
issues regarding the weather information available to and used by the 
crew, as well as the survival craft onboard the ship, and 
recommendations that we made to address these issues.
Currency of Weather Information
    On September 29, 2015, at 9:48 p.m., El Faro and its 33 crewmembers 
departed its homeport in Jacksonville, Florida, on a 1,100-nautical-
mile (nm) planned voyage to San Juan, Puerto Rico, slated to arrive in 
the early morning hours of October 2. However, the ship sailed directly 
into the path of Hurricane Joaquin, a Category 3 storm that reached 
Category 4 strength shortly after the sinking, at approximately 8:00 
a.m. on October 1.
    Approximately 3 hours before El Faro set sail on September 29, the 
National Hurricane Center (NHC) issued the first marine hurricane 
warning for Joaquin for a large area of the Atlantic east of the 
Bahamas; however, we determined that the captain's decision to depart 
Jacksonville was reasonable, considering the number of options he could 
employ to avoid the storm. As they tracked the storm the next day, the 
captain and chief mate diverted course slightly to the south to try to 
distance themselves from the storm. However, as it continued to 
intensify, Joaquin also tracked further south than originally 
predicted.
    The crew onboard El Faro relied on two primary sources of weather 
information to remain aware of Joaquin's changing position, forecast 
intensity, and predicted track: Inmarsat-C SafetyNET (SAT-C) and the 
Bon Voyage System (BVS). These sources used different methods and 
formats to deliver weather guidance. SAT-C provided text broadcasts of 
NHC weather products, which were delivered to the vessel's bridge. This 
includes near-real-time information on Joaquin's position, forecast 
intensity, and predicted track, and is issued four times a day for 
active tropical cyclones.
    BVS is a commercially available software program that provides 
graphic depictions of weather information via e-mail or broadband. BVS 
weather files were e-mailed to El Faro's captain, who primarily relied 
on this information for storm location and forecast track. Seven BVS 
files were e-mailed to El Faro during the accident voyage. At the times 
the BVS weather files were e-mailed, the storm location and forecast 
track were not current with the information then available through SAT-
C; rather, due to a delay in processing and preparing the data for 
distribution, BVS provided a storm position and forecast track 6 hours 
behind SAT-C. BVS can also send updates with current forecasts if a 
user specifically requests them, but during the accident voyage, El 
Faro did not request any.
    The VDR audio recording from the bridge made clear that the crew 
had access to other weather information as well, including the Weather 
Channel, satellite radio, and broadcasts from U.S. Coast Guard 
aircraft. We found that El Faro was receiving sufficient weather 
information for the captain to make educated decisions regarding the 
vessel's route, but the captain did not use it. Several times 
throughout the night of September 30 and into the early morning of 
October 1, the bridge crew noted their concerns about the ship's 
advancement toward a strengthening storm based on information from SAT-
C and other sources; however, the captain may have felt confident about 
the ship's route and proximity to the storm. However, he was relying on 
BVS weather information that was many hours older than what the bridge 
crew was reviewing. Based on the information obtained from the VDR, it 
seems most likely that the captain did not realize that SAT-C was 
providing more current information than BVS.
    At 4:45 a.m., on October 1, the captain downloaded a BVS weather 
file that had been sent to him at 11:04 p.m. the night before. 
Joaquin's position, forecast track, and intensity given in the file 
were consistent with the data in the advisory that had been delivered 
to the bridge via SAT-C almost 12 hours before, at 4:54 p.m. the 
previous afternoon. At 4:46 a.m., El Faro's SAT-C terminal received an 
advisory indicating that El Faro was 11 nm northwest of the storm 
center (Figure 1). By that time, the ship was experiencing a starboard 
list caused by increasing wind on the vessel's port side. As the ship 
continued to sail into the storm, the crew struggled to deal with a 
cascading series of events, including flooding and loss of propulsion, 
any one of which could have endangered the ship on its own.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 1. El Faro's location in relation to available weather 
forecasts and poststorm analysis at 4:46 a.m. on October 1.

    Once under way on the accident voyage, the captain had 
opportunities to take other actions to avoid Hurricane Joaquin. There 
are several possible explanations for the captain's decision to 
continue on course into the hurricane's direct path, but his training 
does not appear to have prepared him for the conditions Hurricane 
Joaquin presented.
    El Faro's captain graduated from Maine Maritime Academy in 1988, 
and he obtained his master's credential in 2001. Mariners who obtained 
their initial credential before 1998 were not required to take an 
advanced meteorology training course approved by the U.S. Coast Guard; 
thus, the captain was not required to have completed the advanced 
meteorology or advanced shiphandling courses. The same was true for El 
Faro's chief mate. According to their most recent certificates, none of 
the bridge officers had attended the advanced meteorology or advanced 
shiphandling courses. We concluded that training in heavy-weather 
operations, including advanced meteorology and advanced shiphandling, 
might have provided the captain with additional information to consider 
while evaluating options, and may have resulted in a different course 
of action. We recommended that the U.S. Coast Guard require that all 
deck officers, at both operational and management levels, take a U.S. 
Coast Guard-approved advanced meteorology course to close the gap for 
mariners initially credentialed before 1998.\3\ The recommendation is 
currently classified ``Open--Await Response.''
---------------------------------------------------------------------------
    \3\ Safety Recommendation M-17-33.
---------------------------------------------------------------------------
    We also recommended that the U.S. Coast Guard publish policy 
guidance to approved maritime training schools offering management-
level training in advanced meteorology, to ensure that the curriculum 
includes the following topics: characteristics of weather systems, 
including tropical revolving storms; advanced meteorological concepts; 
importance of sending weather observations; ship maneuvering using 
advanced simulators in heavy weather; heavy-weather vessel 
preparations; use of technology to transmit and receive weather 
forecasts (such as navigational telex or weather-routing providers); 
ship-routing services (capabilities and limitations); and launching of 
lifeboats and liferafts in heavy weather.\4\ The recommendation is 
currently classified ``Open--Await Response.''
---------------------------------------------------------------------------
    \4\ Safety Recommendation M-17-34.
---------------------------------------------------------------------------
    We further recommended that the U.S. Coast Guard provide policy 
guidance to approved maritime training schools offering operational-
level training in meteorology to ensure that the curriculum includes 
the following topics: characteristics of weather systems, weather 
charting and reporting, importance of sending weather observations, 
sources of weather information, and interpreting weather forecast 
products.\5\ The recommendation is currently classified ``Open--Await 
Response.''
---------------------------------------------------------------------------
    \5\ Safety Recommendation M-17-35.
---------------------------------------------------------------------------
    An accurate determination of wind speed and wind direction onboard 
El Faro would have allowed the crew to resolve the conflicting weather 
reports. El Faro was not required to carry an anemometer but did have 
one installed. The vessel's anemometer displayed wind data on the 
bridge, which was also recorded by the VDR; however, according to 
interviews with former crewmembers and crew discussions and wind data 
obtained from the VDR, the anemometer was not properly functioning. A 
properly working anemometer would have allowed the ship's crew to 
compute the true wind direction and speed. With that information, the 
captain would have had additional tools to use to determine the 
vessel's position in relation to Hurricane Joaquin. We concluded that 
TOTE did not ensure that El Faro had a properly functioning anemometer, 
which deprived the captain of a vital tool for understanding his ship's 
position relative to the storm. To ensure that vessels are equipped 
with properly functioning weather equipment, we recommended that the 
U.S. Coast Guard require that vessels in ocean service (500 gross tons 
or over) be equipped with properly operating meteorological 
instruments, including functioning barometers, barographs, and 
anemometers.\6\ The recommendation is currently classified ``Open--
Await Response.''
---------------------------------------------------------------------------
    \6\ Safety Recommendation M-17-36.
---------------------------------------------------------------------------
    During the course of our investigation, the factual information 
indicated that Joaquin's track was difficult to forecast because of its 
moderate wind shear. The forecast errors for Hurricane Joaquin and 
other tropical cyclones suggest that hurricane forecasting needs to be 
improved. Further, our investigation revealed that critical tropical 
cyclone information issued by the National Weather Service (NWS) is not 
always available to mariners via well-established broadcast methods. 
The data also suggest that modifying the way the NWS develops certain 
tropical cyclone forecasts and advisories could help mariners at sea 
better understand and respond to tropical cyclones. As a result, we 
adopted a safety recommendation report on June 20, 2017, making ten 
recommendations to address these safety issues--two addressed to NOAA, 
seven to the NWS, and one to the U.S. Coast Guard.\7\
---------------------------------------------------------------------------
    \7\ National Transportation Safety Board, Tropical Cyclone 
Information for Mariners, Rpt. No. MSR-17/02 (Washington, D.C.: NTSB, 
2017).
---------------------------------------------------------------------------
    Among these, we recommended that NOAA develop and implement a plan 
specifically designed to emphasize improved model performance in 
forecasting tropical cyclone track and intensity in moderate-shear 
environments. We also recommended that NOAA develop and implement 
technology that would allow NWS forecasters to quickly sort through 
large numbers of tropical cyclone forecast model ensembles, identify 
clusters of solutions among ensemble members, and allow correlation of 
those clusters against a set of standard parameters.\8\ Both 
recommendations are classified ``Open--Await Response,'' although we 
recently received information from NOAA that these recommendations 
aligned with work that is in progress or planned as part of the 
Hurricane Forecast Improvement Program.
---------------------------------------------------------------------------
    \8\ Safety Recommendations M-17-8 and M-17-9.
---------------------------------------------------------------------------
    Collecting and disseminating meteorological and oceanographic data 
in near real-time is vital to supporting global meteorological 
authorities who aim to produce the best possible weather forecasts and 
advisories. Although surface-based data collection networks on land are 
geographically extensive and, in many cases, provide good temporal 
coverage, no such network exists over the world's oceans. Satellites 
retrieve valuable data from the ocean surface; yet, they have 
limitations. We found that increased reporting and improved 
transmission of meteorological and oceanographic data from vessels at 
sea would significantly improve the availability of vital information 
to enhance weather awareness, forecasting, and advisory services aimed 
at improving mariner safety.
    We recommended that NOAA coordinate with the NWS, vessel operators, 
automatic identification system (AIS) service providers, and required 
onboard technology vendors to perform a ``proof-of-concept'' project to 
establish whether AIS, or another suitable alternative, can practically 
deliver, in a single message, meteorological and oceanographic data 
obtained directly from automated instrumentation and manual observation 
onboard vessels at sea, vessel position and time of observation, and 
other important metadata by satellite and land-based receivers to 
global meteorological authorities via the Global Telecommunication 
System with acceptable time delay.\9\ On March 15, 2018, the NWS 
responded that it is establishing a proof-of-concept project under its 
Office of Observations to evaluate the feasibility of transmitting 
weather information through AIS. Preliminary discussions have been 
conducted among the NWS, NOAA, potential contributors to this project, 
and key stakeholders. This recommendation is classified ``Open--Initial 
Response Received.''
---------------------------------------------------------------------------
    \9\ Safety Recommendation M-17-52.
---------------------------------------------------------------------------
Suitability of Survival Craft
    According to data from El Faro's VDR, at 7:27 a.m. on October 1, 
after struggling to address the flooding and propulsion loss 
experienced on the vessel, the captain rang the ship's general alarm, 
and one minute later, the chief mate gave a radio command for the crew 
to muster on the starboard side of the ship. At 7:29 a.m., the captain 
ordered abandon ship, and two minutes later, he ordered that inflatable 
liferafts be thrown overboard and that the crew enter them. The VDR 
ceased recording at 7:39 a.m., with the captain and able seaman still 
on the bridge.
    A transmission from El Faro's emergency position indicating radio 
beacon (EPIRB) was detected by geostationary satellite at 7:36 a.m. and 
received by the U.S. Coast Guard. The transmission was forwarded as an 
``unlocated first alert'' because El Faro's EPIRB was not GPS-equipped, 
which would have allowed the unit to transmit its current position. No 
further communications were received by either the U.S. Coast Guard or 
TOTE. El Faro's last known position, according to VDR data, was 20 nm 
north of Samana Cay, about 17 nm north of Joaquin's center.
    El Faro carried five liferafts: four 25-person liferafts and a 6-
person liferaft. In addition, El Faro was equipped with two 43-person 
open lifeboats, which were original equipment from when the ship was 
built. El Faro's starboard lifeboat was discovered during the search-
and-rescue operation, damaged and swamped. The damaged port lifeboat 
was discovered on the seafloor during the second mission to recover the 
VDR. There was no indication that the lifeboats had been launched. A 
partially inflated liferaft was discovered during the search-and-rescue 
operation and confirmed to be from El Faro. None of the remaining five 
El Faro liferafts was recovered, and none was observed in a stowed 
position on the wreckage.
    We found that the captain's decision to muster the crew and abandon 
ship was late and may have reduced the crew's chances of survival. 
However, the severe weather, combined with El Faro's list, made it 
unlikely that the liferafts or lifeboats could be launched manually or 
boarded by crewmembers once in the water, and they would not have 
provided adequate protection even if they had been launched. Open 
lifeboats, such as those El Faro carried, are not allowed on newly 
built vessels. El Faro's lifeboats were inspected and surveyed in 
accordance with the regulations applicable to its delivery date of 
January 1975. A vessel is surveyed under the same regulations as long 
as it is in service or until it undergoes a major modification; in the 
latter case, the vessel must comply with the requirements current at 
the time of modification as far as is reasonable and practicable. In 
1993, El Faro, then named Northern Lights, underwent a major 
modification, but the lifeboats were not required to be upgraded at 
that time because the lifeboats themselves were not modified in the 
conversion. The vessel was again substantially modified in 2005-2006 to 
carry load-on/load-off containers, but the U.S. Coast Guard did not 
classify this change as a major modification. We concluded that the 
2005-2006 conversion should have been designated a major modification, 
which may have required the vessel to meet newer safety standards for 
lifeboats.
    The average life of international merchant ships is roughly 20 to 
30 years. The El Faro was 40 years old when it sank, and open lifeboats 
had been superseded for 30 years. Therefore, considering the average 
service life of these vessels, we recommended that all lifesaving 
appliances on inspected vessels, which would include lifeboats and 
liferafts, be reviewed at a maximum 20-year interval to current 
standards and be upgraded as required.\10\ This recommendation is 
classified ``Open--Await Response.''
---------------------------------------------------------------------------
    \10\ Safety Recommendation M-17-042.
---------------------------------------------------------------------------
    Survivability would be enhanced if open lifeboats on all vessels 
remaining in service were replaced with enclosed lifeboats that adhered 
to the latest safety standards, and if new cargo vessels were equipped 
with stern-launched freefall lifeboats where practicable. We 
recommended that the U.S. Coast Guard require open lifeboats on all US-
inspected vessels to be replaced with enclosed lifeboats that meet 
current regulatory standards and freefall lifeboats, where 
practicable.\11\ This recommendation is classified ``Open--Await 
Response.''
---------------------------------------------------------------------------
    \11\ Safety Recommendation M-17-043.
---------------------------------------------------------------------------
Conclusion
    The captain's insufficient action to avoid Hurricane Joaquin due to 
his failure to use the most current weather information and the lack of 
appropriate survival craft for the conditions were critical factors in 
the probable cause of El Faro's sinking and the loss of 33 lives. 
Although the ship and its crew should never have found themselves 
sailing into the storm, many other factors, including ineffective 
bridge resource management, inadequate company oversight and safety 
management, flooding, propulsion loss, and the lack of an approved 
damage control plans also contributed to the sinking, and there are 
many other lessons to learn.
    As with all of our investigations, our aim is to learn from this 
tragedy to improve safety for current and future generations of 
mariners. We hope that our investigation into El Faro's sinking will 
improve mariners' awareness of and preparation for heavy weather as 
well as prompt changes to improve weather forecasting and 
dissemination. These changes, combined with updated technology and 
equipment requirements, will help future mariners make better decisions 
in the face of hurricanes and other significant weather events. We 
appreciate that both the U.S. Coast Guard and NOAA have been responsive 
to our recommendations and we look forward to continuing to work with 
them.
    Thank you again for the opportunity to testify, and I am happy to 
take your questions.
                           Attachment--Report
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Senator Wicker. Well, thank you to all members of the 
panel.
    Dr. Dinh-Zarr, the report really points to human error on 
board the ship, is that correct?
    Dr. Dinh-Zarr. Yes, Chairman, Chairman Wicker. The report 
points that--to the fact that the captain did not use the most 
currently available weather information, and because of that, 
he made errors in not removing the ship from a course that led 
to this disaster.
    Senator Wicker. He should have turned the ship in a 
different direction.
    Dr. Dinh-Zarr. Correct. He could have made a different 
route had he made the decision earlier. But once he had 
realized the situation, it was too late to avoid the hurricane.
    Senator Wicker. Was there a minority view in that regard, 
or was this unanimous, that particular conclusion?
    Dr. Dinh-Zarr. Among the crew, sir?
    Senator Wicker. No, on the Board, among the people who 
wrote the report.
    Dr. Dinh-Zarr. Oh, among--among our investigators, among 
the----
    Senator Wicker. Yes.
    Dr. Dinh-Zarr. Yes, there was a--we analyzed the factual 
information. We reviewed many hours of the voyage data 
recorder, which showed the conversation of the crew, including 
the captain, who was part of the crew, and it was determined 
that----
    Senator Wicker. The investigators were unanimous in this 
conclusion.
    Dr. Dinh-Zarr. That is correct.
    Senator Wicker. And I think you said the--that this 
particular captain's training at Maine Maritime Academy could--
if it had been--if he had been trained in the more modern 
procedures, a different conclusion might have been reached by 
the captain earlier on, is that correct?
    Dr. Dinh-Zarr. The captain was--obtained his initial 
credentialing before 1998, and they were not required to take 
an advanced meteorology course. And so our report found that 
perhaps had he been required to take that, he might have had 
more knowledge and been able to make a better decision. So one 
of our recommendations is actually to close that gap among 
those who did not receive that training who are still in 
service.
    Senator Wicker. Are there people still out there who don't 
have that training----
    Dr. Dinh-Zarr. Yes, there are.
    Senator Wicker.--as captains of ships? OK. Well, it's just 
an awful tragedy. And you hate to bring up these matters of 
human error, but we might as well talk about them.
    Thank you all for your testimony.
    Let me see. Admiral Fagan, let's talk about the national 
security cutters. Is that OK? We've got some in service that 
have yielded record results in drug interdiction, but I'm told 
the modernized versions of the cutters can do a lot more and 
help us in the subject matter that we're talking about today. 
So would you explain that to members of the Committee and to 
the public who are listening to us today?
    Admiral Fagan. Yes. Thank you, Mr. Chairman. The national 
security cutters are incredible, incredibly capable, new assets 
that we've been thankful for the support that we've been able 
to deploy into multimission sets, and you talked about the 
counternarcotic mission set. Specific to the topic at hand, the 
National Security Cutter JAMES was forward-deployed to provide 
secure interoperable communications and assist in bringing the 
whole-of-government response to the hurricanes. The JAMES was 
sailed--sailed to Puerto Rico, provided command and control and 
communications for the multitude of first responders and local 
responders that flowed into that event. It serves as an afloat 
command, known interoperable coms, it has exceptional 
capabilities with regard to just intelligence and other 
communicating, and was really a force multiplier and critical 
to the success----
    Senator Wicker. When was it built, the JAMES? Do you know?
    Admiral Fagan. When--when was it built, sir?
    Senator Wicker. Yes. How new is the----
    Admiral Fagan. It's a year, no more than 2 years. But 
it's--they're quite new, sir.
    Senator Wicker. OK. And so how many of those are we going 
to have altogether? Can you tell us?
    Admiral Fagan. So the program of record was originally 
eight. We are--we currently again appreciate the support of 
Congress and our overseers, and look to be moving toward a 
tenth national security cutter, sir.
    Senator Wicker. Thank you. And I'm going to go a minute or 
two over my time just to say this. Rear Admiral Gallaudet, 
thank you for your service. You mentioned your appreciation to 
Congress for helping with some deficiencies we previously had 
with funding. What department did this funding come through? Do 
you know?
    Admiral Gallaudet. Are you talking about the supplemental--
--
    Senator Wicker. Yes.
    Admiral Gallaudet.--or the appropriations, sir?
    Senator Wicker. Well, the appropriations.
    Admiral Gallaudet. Well, ours, of course, will be the 
Department of Commerce.
    Senator Wicker. OK. You know, the point I want to make is 
sequestration had not only been devastating to DoD, but it had 
been devastating to programs like this, that really are also 
very much involved in the security of Americans, safety of 
Americans. And so I just wanted to--I wanted to drive that 
point home. Thank you for acknowledging that we did something 
that was much more adequate to get the job done this year, but 
there is much in the so-called non-defense discretionary budget 
that has everything to do with making Americans safe abroad and 
making Americans safe at home. So thank you for making that 
point.
    And I have filibustered--yes, you can--someone asked to be 
recognized? I have filibustered long enough that Senator Nelson 
has returned and can be recognized for the next question.
    Senator Nelson. Thank you, Mr. Chairman. Both the Coast 
Guard and the National Transportation Safety Board have made a 
number of recommendations to address the El Faro sinking. 
Obviously, as I said earlier this morning, it traveled right 
into the path of an oncoming hurricane. From the 
recommendations, what do you believe are the most important 
issues to address? Any one of you.
    Admiral Gallaudet. I'll start off, Senator Nelson. Thank 
you for your question and your support of NOAA. As we discussed 
yesterday, part of it is improving our hurricane forecasts and 
our predictions of intensity and tracks, and we have been--
we've made great strides, as I made--said in my opening 
statement, at NOAA and the National Weather Service in doing 
that. And I recall about our track accuracy being the most 
accurate for hurricane track forecasts by about 25 percent over 
the last 5 years.
    So since the El Faro went down in 2015, we've really looked 
hard at our forecast--Hurricane Forecast Improvement Program, 
that is codified in the Weather Act, and we're going to 
continue to move forward and improve in that lane.
    Senator Nelson. Ms. Dinh-Zarr, tell me, the problem with El 
Faro, as I understand your report, is that it didn't get the 
most up-to-date weather information, and it certainly didn't 
have the best safety equipment, which I guess would involve the 
Coast Guard. I mentioned earlier the enclosed lifeboats. They 
were not there. So what do you think?
    Dr. Dinh-Zarr. Thank you, Senator Nelson, for that 
question. Yes, one of our recommendations from the NTSB is that 
all lifeboats--all seafaring vessels of this size be equipped 
with enclosed lifeboats. These--the El Faro was 40 years old, 
and the lifeboats that were on it were already out of date as 
of 30 years prior. But because there was not regular review of 
that part of the vessel, they were not able to make use of the 
latest lifeboat equipment that was required by the Coast Guard.
    Senator Nelson. Well, either you or Admiral Fagan, what 
about the fact that the El Faro was getting dated weather 
reports? They were not up-to-date reports. What do we do about 
that?
    Admiral?
    Admiral Fagan. So thank you, Mr. Chairman. I would like to 
just compliment the NTSB with regard to how thorough and 
transparent the investigation into the El Faro was. It's 
certainly a tragedy for the families who lost--lost their 
family members.
    The lifeboats on the El Faro, while dated, were in 
compliance with the regulation that applied to the vessel. 
Because of the age of the vessel, the lifeboats would have been 
grandfathered. Lifeboats are, as other safety equipment, are 
very much a part of the inspection and oversight that the Coast 
Guard oversees with regard to U.S. vessels.
    The totality of the report and the recommendations, there 
are a number of key recommendations in the report. The Coast 
Guard and NTSB and others are taking that report seriously and 
moving to ensure that we've increased--we've implemented 
recommendations and then ensured safety for our dedicated 
mariners at sea.
    Senator Nelson. What about the up-to-date? How are we going 
to ensure that ships that sail when there's a storm brewing are 
getting the up-to-date information, unlike the El Faro, which 
did not?
    Dr. Dinh-Zarr. May I, Senator Nelson?
    Senator Nelson. Please.
    Dr. Dinh-Zarr. The information that the Captain--our 
investigation found that the Captain actually had the 
information when he set sail, and his decision was reasonable. 
Where the problem came into play was that as he was 
progressing, he was using a certain weather forecasting, the 
BVS, and it was several--it was hours behind, up to 6 hours 
behind. And the way it is transmitted is not done immediately. 
So we did make recommendations to encourage this type of 
weather forecasting to be transmitted in a more regular and 
timely manner.
    I think that the important point here is that the Captain 
made a decision based on old weather information, and that's 
why he sailed into the path of the storm.
    Senator Nelson. And the avoidance of that in the future is?
    Dr. Dinh-Zarr. To ensure that there is more timely and 
accurate weather information and that it's provided in a way 
that cannot be missed by the crew.
    Senator Nelson. OK. Admiral Gallaudet, you are now getting 
the second jet that can fly above the hurricanes so that we can 
get more accurate data. NOAA didn't do that last year. The 
aging Gulfstream was grounded for emergency repairs, so we were 
able to get millions for the aircraft recapitalization in the 
omnibus appropriations to require a replacement and a backup. 
And so the question is, when are you getting this new jet now 
that the funds have been appropriated?
    Admiral Gallaudet. Well, thank you for your support, 
Senator Nelson. We're very excited to get that new aircraft 
aloft. We will be contracting or doing a request for proposals 
this year, and we'll be applying that 2018 money as quickly as 
we can.
    Senator Nelson. Will it be in time for this hurricane 
season?
    Admiral Gallaudet. It might not be aloft by the hurricane 
season starts, but we think we can execute it sometime 
midcourse this year.
    Senator Nelson. OK. The big boys usually come in August and 
September, so see if you can get it by then.
    Admiral Gallaudet. Yes, sir.
    Senator Nelson. And when is NOAA going to release its 
spending plans for supplemental appropriations?
    Admiral Gallaudet. We have two in the works, sir. We have 
already completed both, one for fisheries disasters and one for 
the weather-related disasters and requirements to improve our 
forecasting. Both the weather-related pieces for $200 million 
is at OMB right now, and they're chewing through it. We hope 
that will be released in the next week or two to the Congress. 
And then the fisheries disaster spend plan is under review 
right now at the Department of Commerce, and we are hopeful 
that that will be sent to OMB fairly soon, possibly next week.
    Senator Nelson. Thank you.
    Senator Wicker. Thank you.
    Dr. Dinh-Zarr, just to see, make sure that Senator Nelson 
and I understand exactly the information, your report concluded 
that there was adequate information being made available to the 
captain, but he was really focused in on the wrong information. 
The SAT-C and the Weather Channel were giving information that 
was more accurate and more timely, is that correct?
    Dr. Dinh-Zarr. That is correct. The crew was looking at the 
SAT-C information. The captain was focused primarily on BVS, 
which was delayed. And the way it's transmitted to the captain, 
the BVS information was out of date by many hours by the time 
he received it. But the--in answer to Senator Nelson's 
question, when the captain left port, the information that he 
had, he made a reasonable decision based on the weather at that 
time to leave port.
    Senator Wicker. Indeed. And are you saying there was a 
discussion onboard the ship among crewmembers and between them 
and the captain as to which service to be more mindful of?
    Dr. Dinh-Zarr. There was a discussion about the weather, 
sir, but the captain ultimately makes the decisions.
    Senator Wicker. Crewmembers were recommending the SAT-C.
    Dr. Dinh-Zarr. They were asking the captain to make a 
decision about--or asked him whether the ship should be taking 
an alternate route.
    Senator Wicker. But did they----
    Dr. Dinh-Zarr. I don't know if they were specific----
    Senator Wicker. Did they mention that they were listening 
to other information?
    Dr. Dinh-Zarr. He--they did talk about other sources of 
information. I don't know if they said specifically the word 
``SAT-C'' or the names of the sources.
    Senator Wicker. OK. Well, thank you for----
    Senator Nelson. That sounds like a communication problem 
between the captain and the crew. Is that what you thought, Ms. 
Dinh-Zarr?
    Dr. Dinh-Zarr. It's a choice of the crew to use different 
sources of information. And one of our recommendations is that 
because SAT-C comes directly to the bridge, the BVS information 
has to be e-mailed, and if you would like it more regularly, 
you have to make that request to have more rapid information, 
which the captain did not do. So, yes, there was a discrepancy 
in the type of weather information that they received, and when 
they communicated about it, the captain chose an alternate 
course.
    Senator Wicker. Thank you very much.
    Senator Nelson. I think that's tragic. I think that's just 
very tragic.
    Senator Wicker. Senator Hassan.

               STATEMENT OF HON. MAGGIE HASSAN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Hassan. Thank you very much, Mr. Chair and Ranking 
Member Nelson, for holding this hearing.
    And thank you to all of the witnesses, not only for being 
here today, but for what you do for our country. We are very, 
very grateful.
    I come from a state with a relatively short shoreline, 
approximately 18 miles, but it is used for a range of important 
and often competing interests, such as residential areas, 
agriculture, tourism, recreation, fisheries, and harbors. The 
need to both improve and conserve these areas is naturally 
high. With the increasing severity and number of storms, 
there's a growing consensus that climate change plays a pivotal 
role.
    So, Admiral Gallaudet, I wanted to start with you. Have you 
been directed to eliminate or adjust the mention of climate 
change from reports? And do you believe climate change needs to 
be considered in hurricane preparedness?
    Admiral Gallaudet. Thank you, Senator Hassan, for your 
question and interest and support of NOAA. And I should mention 
that the University of New Hampshire is the world leader in 
hydrographic studies. And we have a great partnership with that 
institution, and I hope to be visiting sometime soon.
    Senator Hassan. Great.
    Admiral Gallaudet. Regarding climate change and direction 
to remove or eliminate mention of that, no, I've been given no 
such direction. And, in fact, I testified yesterday about the 
fact that I am working with the White House's Office of Science 
and Technology Policy, and they're supporting much of our 
Arctic-related research that is driven primarily by climate 
forcing and changes.
    Senator Hassan. And do you believe that climate change 
needs to be considered in hurricane preparedness?
    Admiral Gallaudet. Yes, sir--yes, ma'am. Pardon me.
    Senator Hassan. That's fine.
    Admiral Gallaudet. I do. I do. In fact, I have experience 
about this in the Navy----
    Senator Hassan. Yes.
    Admiral Gallaudet.--where I directed the Navy's Climate 
Change Task Force. And so--and we are continuing to do active 
climate research and climate support. If you go to climate.gov, 
you'll see, and drought.gov, that NOAA maintains a fairly 
robust climate services mission, and I do believe that needs to 
be factored into any kind of weather-related preparedness.
    Senator Hassan. Thank you. Along the same lines, as we 
think about the impact of climate change, what are some of the 
best practices for coastal cities to strengthen their 
infrastructure to combat these mounting risks?
    Admiral Gallaudet. There are a range of activities, and 
NOAA is involved in them. We work closely with communities for 
resilient type of efforts. I'll give you one example. It's not 
New Hampshire, but I happened to visit Bayou Dupont in 
Louisiana this last year, and this is a marsh that we restored 
that had been under water for 4 years. And so working with 
Louisiana, we diverted some of the sediment from the 
Mississippi, and I walked on this--I walked on this marsh at 
low tide and I didn't get wet. So that served as a very 
effective storm surge barrier during the hurricanes that hit 
the Gulf Coast this year.
    Senator Hassan. Excellent. So I wanted to give you the 
opportunity, too, just to let us know if there are Federal 
obstacles that may hinder your ability to prepare for and 
respond to challenges that our coastal communities are facing 
and their need to be resilient.
    Admiral Gallaudet. There are some obstacles, but we're 
overcoming them. For example, I think one of the 
administration's priorities is regulatory reform. And so, for 
example, permitting has been and Endangered Species Act 
consultation has always been very difficult for people on 
coasts who either want to develop or conduct resiliency type 
projects.
    A case in point is Department of Energy's--Department of 
Energy--pardon me--Department of Interior and us, and we both--
we both have recently--we are in the final stages of revising 
our joint regulations on the consultation of Sections 4 and 7 
of the Endangered Species Act. It was difficult for any given 
customer, if you will, because we kind of had one 
interpretation, and Interior had another, and so it was sort of 
like in a computer, a do loop, where no one was ever getting 
work done.
    Senator Hassan. Yes.
    Admiral Gallaudet. We now are on the same page. I told my--
the Deputy Secretary of Interior, we will have no daylight 
between our agencies, and that's what this new rule will 
effect.
    Senator Hassan. Excellent. Thank you for that. We will also 
give you an opportunity to elaborate if there are other things 
you think of on the record.
    Rear Admiral Fagan, I wanted to ask you, the 2017 Atlantic 
hurricane season was by far the most expensive season on record 
with a preliminary total of over $206 billion in damages. It 
included 17 named storms and 10 hurricanes. We know how 
important it is to make critical investments in coastal- and 
ocean-observing infrastructure in order to protect our families 
and mariners, whether they're on land or sea.
    The wind and wave observations that are conducted by the 
buoys off the New Hampshire coast help mariners know the 
conditions that they're going to face before they go out to 
sea. How important is ocean information in predicting 
hurricanes and other storms? And how does information from 
tools like buoys help you provide information to mariners and 
respond to emergencies?
    Admiral Fagan. Thank you, Senator. Predictive tools that 
allow mariners to manage risk and the environment that they're 
operating in are absolutely essential to the safety and well-
being of our maritime commerce as it trades and applies to the 
waters of the United States. And, you know, the Coast Guard 
operates a navigation role in working with NOAA and others to 
ensure that we've got those best tools and information flows 
out there are, again, just absolutely critical to ensuring 
mariners have a safe experience at sea.
    Senator Hassan. Well, thank you.
    And I appreciate the Chair letting me go over. I'll have 
some additional questions in follow up for you on the record.
    Senator Wicker. Thank you very much, Senator Hassan.
    Senator Peters.

                STATEMENT OF HON. GARY PETERS, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Peters. Thank you, Chairman Wicker. And thank you 
for holding this hearing. I would like to thank both you and 
Ranking Member Nelson. Your states certainly have endured some 
pretty tough storms, and you both have been real leaders in 
trying to improve our preparedness and resilience to these 
storms, and I appreciate your leadership in that area.
    Senator Wicker. Thank you.
    Senator Peters. And also to our witnesses, I would also 
like to thank you for your service and for your testimony 
today. And while today's hearing appropriately focuses on 
hurricane preparation, given that we're at the start of the 
season, the very same disaster response machinery from NOAA's 
scientific modeling to the Coast Guard's emergency authorities 
all too often must be employed to respond to human-caused risk 
and disasters as well, and, in particular, oil spills.
    Rear Admiral Fagan, I'm going to ask you a few questions 
related to the Coast Guard's ongoing investigation and 
leadership of the unified command around a recent Straits of 
Mackinac oil spill that has many of us in my state very, very 
concerned. On April 1, a suspected vessel anchor-drag in the 
Straits of Mackinaw damaged two 138-kilovolt American 
Transmission Company cables and also dented the Line 5 pipeline 
owned and operated by Enbridge. Line 5, as you know, is an 
aging pipeline that would never be built today. The 65-year-old 
Line 5 is a major oil pipeline conveying upwards of a half a 
million barrels of oil per day through the Straits. It is known 
to be corroded and it has been previously compromised.
    From a human health and ecological perspective, the rupture 
of this line would be absolutely catastrophic in the Great 
Lakes. Modeling from Michigan Tech and the University of 
Michigan, based on NOAA's data, shows the oil would quickly 
spread, given the swift currents in the Straits, and the harsh 
reality is that these waters are currently under one and a half 
feet of ice, rendering any kind of recovery efforts difficult 
at best. The waters of the Great Lakes also provide drinking 
water to over 40 million Americans and empower billions of 
economic revenue as well. So the threat of an oil spill from 
Line 5 is exactly why I have worked in this Committee with the 
help of my colleagues to pass some improved pipeline safety 
regulation, and we need to do more.
    But just 3 weeks ago I met with Commander--Commandant 
Nominee Admiral Schultz in my office to press him on improving 
the Nation's freshwater oil spill response capabilities. I 
certainly stressed that it was a top priority of mine, and I 
asked for his personal commitment to focus on this issue as 
well.
    So, Admiral Fagan, my question is, Under the current 
unified command that has been established for the Straits 
spill, the Coast Guard has informed our office that the State 
and PHMSA have decided to keep Enbridge Line 5 operational for 
now while the ongoing inspection of damage continues. Is that 
accurate?
    Admiral Fagan. I believe it is; yes, sir.
    Senator Peters. As the lead for the unified command, is the 
Coast Guard fully confident in the State and PHMSA's judgment 
that the pipeline presents no risk as a result of the recent 
breach?
    Admiral Fagan. So thank you, Senator. The pipeline 
oversight is in the State's and PHMSA's purview. You mentioned 
the ongoing investigation which the Coast Guard is conducting 
into the cause of the--the cause of the incident. Our role in 
the unified command, you know, focuses on the response and the 
oil spill, spill mitigation, to ensure that we've got 
appropriate entities and resources brought to bear in this 
spill and should other spills occur. The Coast Guard takes oil 
spill response, frankly, disaster or just response in general, 
quite seriously. We've got very extensive training, planning, 
exercising programs that are designed to ensure we've got the 
most effective means to support the state and other entities in 
a spill such as the dielectric spill that you're referring to, 
sir.
    Senator Peters. So you're the lead in the unified command. 
But, so please explain to me why the Coast Guard would defer to 
the State's judgment to reopen Line 5 in advance of any visual 
underwater inspection?
    Admiral Fagan. So, sir, I don't have specifics on what--
what the--what information the Coast Guard has that they're 
using to make that determination in conjunction with PHMSA. I'm 
not privy to it. I'll have to get back to you, sir.
    Senator Peters. So we're 11 days into this investigation 
and we still don't have any visual confirmation of the damage, 
is that correct? Do you know?
    Admiral Fagan. I don't know, sir. I know visual 
verification is key in a response such as this. I'm certain the 
team is working to do that, but I don't know the timeframe that 
that's on, sir.
    Senator Peters. It would be my belief that the Coast Guard 
would want to know, is that correct? You'd want to know exactly 
what's happening? You will be responsible for coordinating a 
spill should it occur, and if there has been damage to this 
pipeline that leads to that spill, you're going to be 
intimately involved, I would hope----
    Admiral Fagan. Yes, sir, we----
    Senator Peters.--that the Coast Guard has been monitoring 
this closely. Is that accurate?
    Admiral Fagan. Yes, sir. A unified command is indication of 
how closely we are monitoring and how seriously we are taking 
the threat and concern with regard to a spill. Having 
situational awareness, eyes on-scene, are a key part. It's one 
of our main operating doctrine. Again, in this case, I just 
don't have the timeline or know what the challenge is or why 
that may not have happened at this point with regard to this 
particular incident, sir.
    Senator Peters. But someone at the Coast Guard would have 
that information?
    Admiral Fagan. Certainly, the local unified command, the 
local commander, who has purview over the spill, all of the 
resources that are brought to bear, would have that specific. I 
just don't have it, sir.
    Senator Peters. So I would like those answers today. Is it 
possible to get those today, those answers?
    Admiral Fagan. Yes, sir, we will. We will provide that to 
you, sir.
    Senator Peters. Because this has gone on for a number of 
days, and not to have visual inspections to have any kind of 
understanding of what happened and to be relying on the State 
and PHMSA without knowing exactly what they have looked at I 
think is irresponsible, that we need to get to the bottom. I'm 
not saying you haven't done that, but I want to know whether or 
not that's occurred. We need to know.
    A lot of people in Michigan are asking questions. Folks are 
very concerned. As you know, the Straits of Mackinac are 
vitally important, as I mentioned earlier in my comments. The 
amount of water that goes through there is equal to 10 times 
that of Niagara Falls, and it's right next to our number one 
tourist attraction, Mackinac Island. The economic environmental 
impact would be devastating.
    So I'm going to be seeking another meeting with Admiral 
Schultz in the next few days. I also hope that we might have an 
oversight hearing of this. But I would certainly appreciate if 
the Coast Guard get back to my office as early as possible, by 
today at some point, so that we can get a full accounting of 
where we are. I'd appreciate that, Admiral.
    Admiral Fagan. Absolutely. Yes, sir; we will do that.
    Senator Peters. I appreciate it. Thank you.
    Senator Wicker. Thank you very much, Senator Peters.
    Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman, and thanks for 
holding this hearing today. I notice that we are not having a 
NOAA budget hearing this Congress, and so a lot of questions to 
ask. So I might have to file some for the record as it relates 
to various issues. Thank you for bringing up the discussion you 
and your colleague--did you want to say something?
    Senator Wicker. No, no.
    Senator Cantwell. OK--you and your colleague on the El 
Faro, and I appreciate the questions being asked. I think it 
points to the fact that we need to make more investment in our 
weather information. No one should die because someone didn't 
read an e-mail. I have long thought that our investment from 
NOAA lags behind what we often get from our European 
counterparts. People will routinely on the news say, ``Well, 
this is what we're predicting in the U.S., but here is what the 
European model predicts for the U.S.'' Why do they even comment 
on it? Because they think that we're further ahead.
    So as weather changes, I want to make sure that we have the 
latest and greatest technology and that that technology is 
being deployed and used in a way that is cost effective. So I 
appreciate everyone's comments so far and questions on that. 
And I definitely think the fact that the NOAA budget would be 
cut from both the forecasting and the programming, and larger 
cuts on the weather data, is something that we need to revisit. 
It is very, very important that we keep moving forward on 
important technology information here.
    Rear Admiral Gallaudet, I wanted to talk to you about the 
halibut fishery in Washington. A number of Tribes in the 
Pacific have sent letters to the Department of Commerce 
requesting a formal government-to-government consultation 
regarding halibut cuts. Are you aware of Executive Order 13175?
    Admiral Gallaudet. Yes, I am, Senator.
    Senator Cantwell. So you know that it means that you're 
supposed to have regular consultation with Tribes and 
collaboration with them on the Federal implications of policy.
    Admiral Gallaudet. Yes, I am. I'm well aware of that, 
Senator.
    Senator Cantwell. OK. So have you done that?
    Admiral Gallaudet. Well, I had a great discussion with 
Congressman Kilmer on this, and I've done quite a bit of 
homework. And here's the issue. Six of the seven Tribes for 
this Area 2A are the ones that requested formal consultation 2 
weeks prior to the opening of the season. And as I looked into 
the matter, what they're concerned about is not allocation, but 
the catch limit that the Fisheries Management Council--or 
Commission--pardon me--the International Pacific Halibut 
Commission had proposed. And it's only 11 percent lower than 
the previous year. The science--the Commission report that they 
issued was recommending a 65 percent catch limit decrease. So I 
really feel the Commission is yielding quite a bit to the 
Tribes, and not--not--and that--this--if you----
    Senator Cantwell. I'm not interested in what you're saying. 
I'm interested in you complying by talking directly to the 
Tribes.
    Admiral Gallaudet. OK.
    Senator Cantwell. I'm interested----
    Admiral Gallaudet. In fact, we had consulted with them at 
least 18 times, not formally, prior to their letter. And the 
time--and the process is typically for the Tribes to ask for 
formal consultation after the November midyear meeting where we 
announce--propose the draft catch limits.
    Senator Cantwell. They've asked for consultation, correct?
    Admiral Gallaudet. They have.
    Senator Cantwell. OK. And you haven't met that yet.
    Admiral Gallaudet. We--we--they asked for formal 
consultation 2 weeks prior to the season, Senator, and we 
didn't want to have--we didn't want to delay opening the 
season. And so I fully welcome conducting formal consultation 
with them now for next year's season, 2018--or 2019, pardon me. 
We've communicated with them as often as they wanted to 
informally.
    Senator Cantwell. My guess is no. My guess is that didn't 
happen. Formally, you should have told them, ``This is what 
we're proposing,'' and have that conversation. You're right, 
people want science to win the day and people want seasons to 
be open and based on science.
    I think the issue here is you have to talk a lot sooner 
about your proposal and give people the ability--the one thing 
that holds the Northwest together, I guarantee you, is science. 
I guarantee you we don't agree on a lot of things, but out 
there, we agree on science, and people will live up to that 
science. So please make sure that you're living up to the 
Executive order on consultation.
    Admiral Gallaudet. Thank you, Senator. We are. I visited 
our science centers in your great state, and we certainly agree 
with you on that.
    Senator Cantwell. Thank you.
    Can I ask, Rear Admiral Fagan, about derelict vessels and 
what more we need to do to coordinate with State and local 
governments on removing of derelict vessels? I feel like we 
have a process, but yet at the same time, you have the 
authority to remove substantial oil spill risks from the 
vessels before it happens. And, you know, we have this ``Davy 
Crockett'' situation where spills continue to happen. So how do 
we prevent--how do we prevent that in derelict vessels? How do 
we get better coordination?
    Admiral Fagan. So derelict vessels that propose a risk of 
oil spills are--you know, the Coast Guard does have authority 
to remove that spill risk from the vessel. We are involved in 
the port communities where these vessels, you know, are found, 
and continue to collaborate and coordinate to ensure that that 
authority is initiated and acted on when appropriate with 
regard to oil spill risk.
    Senator Cantwell. And so who's in charge?
    Admiral Fagan. If it is a threat--if it's an oil spill 
threat from a derelict vessel, the Coast Guard oversees or 
works to mitigate the threat of the oil spill, but in a lot--
it's very situational, dependent where the vessel is, but, 
again, the Coast Guard oversees the mitigation or elimination 
of the threat of a spill from a derelict vessel.
    Senator Cantwell. Well, in that instance, we had $22 
million and took 10 months to clean up the spill. And so what I 
think we're looking for is, are we missing something here on 
the coordination between the State and local and Feds on how to 
respond and prioritize?
    Admiral Fagan. So the State, Federal, and local interplay 
and discussion are critical in oil spill mitigation. I know the 
area maritime committees and the forums there were used to 
bring all those key stakeholders together are very much alive 
and well and well collaborated and communicated in your state 
and in all of the states in the country, and it's that 
collaboration that brings the greatest strength to ensure that 
we're as effective and efficient in mitigating spill threat as 
possible.
    Senator Cantwell. Well, I think what we should do is go 
back and review the recommendations from the GAO report and 
think about better ways to improve coordination and timing.
    So thank you, Mr. Chairman.
    Senator Wicker. Thank you, Senator Cantwell.
    Admiral Gallaudet, let me talk about my legislation that 
was enacted in 2012, the COASTAL Act, which dealt with the 
question of whether hurricane damage was caused by wind or 
water, whether it is, therefore, covered by wind insurance or 
flood insurance.
    Storm data currently collected by NOAA, academic 
institutions, and private entities to allocate property damage 
following storms is the subject matter here. During the storm 
event model developed through my COASTAL Act, damage would be 
determined by its source and attributed to either wind or water 
peril. NOAA would certify the accuracy of its data and provide 
a highly detailed post-event assessment to the Secretary of 
Homeland Security for every named storm. The Secretary would 
then establish a formula to allocate losses, wind or water, for 
total-loss properties.
    NOAA was kind enough to come forward and give some 
technical assistance regarding amendments to actually make this 
work when it's fully implemented. And so, as such, I have 
introduced S. 2242, the COASTAL Implementation Act of 2017.
    Admiral Gallaudet, I hope this is something you've paid 
attention to.
    Admiral Gallaudet. Yes, sir.
    Senator Wicker. And so, if you could, give us your take on 
whether this COASTAL Implementation Act would provide the 
necessary simple technical changes to actually make this work 
and accelerate the implementation.
    Admiral Gallaudet. Thank you, Mr. Chairman, I'd be happy to 
comment on that. And as you know, I very much applaud your 
intent to make it easier for Americans who have total losses of 
their homes to get the right answer in terms of the insurance 
claims, whether wind or water damage was the cause of loss of 
property.
    You know, myself, I was one of those ``just a slab'' type 
of people after Hurricane Katrina, and so I think--I applaud 
your efforts and have been very happy that NOAA has contributed 
technical drafting assistance to your staff.
    I think we're already underway in many things to implement 
the intent of that Act. We have updated what they call 
``vertical elevation models.'' We have established a protocol 
with the USGS and the Army Corps of Engineers on data 
collection so that we can all have, see, the same thing on our 
data bases, and there's not going to be confusion whenever 
given someone who suffers from damage is trying to make a 
claim. And so those databases are set.
    The models for local area storm surge and wave inundation, 
we've advanced those.
    And then, as required by the Act, there is also a named 
storm event model that we are developing and we'll be 
validating soon as well as a database for wind and water. And 
so we've made great strides already, and I believe--I have not 
reviewed the draft legislation, but I know our support to it 
has been such that, if passed, we'll be--we'll already have 
results underway to ensure that our data allows the Act to 
achieve its effect.
    Senator Wicker. Thank you very much.
    Now, are there certain words I have to say to close this 
hearing out? How long are we supposed to leave the----
    Voice. Two weeks for questions.
    Senator Wicker. We're going to leave--we're going to allow 
members two weeks to submit questions for the record.
    And unless my expert staff tells me to say something else, 
I think we can----
    Voice. ``This hearing is adjourned.''
    Senator Wicker. Oh, OK. I'm advised that I should announce 
that the hearing is adjourned. Thank you very much.
    [Whereupon, at 11:49 a.m., the hearing was adjourned.]

                            A P P E N D I X

  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                         RDML Timothy Gallaudet
    Question 1. How vital is the U.S. Integrated Ocean Observing System 
(IOOS) for obtaining accurate forecasts? What is NOAA doing to enhance 
IOOS and its observing capacities to improve forecasts for storms? 
After a hurricane, does NOAA have the ability to quickly replace lost 
or damaged IOOS assets?
    Answer. The U.S. Integrated Ocean Observing System (IOOS) is 
essential for providing real-time and historic physical oceanographic 
data to inform weather forecasts. As a national-regional partnership, 
U.S. IOOS works to provide new tools and forecasts to improve safety, 
enhance the economy, and protect our environment. Easier and better 
access to this information is improving our ability to understand and 
predict coastal events--such as storms, wave heights, and sea level 
change. For example, U.S. IOOS partners with the National Weather 
Service (NWS) to make surface current data from High Frequency radars 
accessible through the NWS Advanced Weather Interactive Processing 
System (AWIPS) and National Centers for Environmental Prediction data 
tanks to inform forecasts.
NOAA enhancing IOOS
    With FY18 funding and hurricane supplemental funding, the U.S. IOOS 
program is working with NOAA and regional partners to deploy additional 
gliders in the Atlantic to improve hurricane forecasting. U.S. IOOS 
also is working with the National Data Buoy Center to make glider data 
more accessible so that they can be used to validate forecasting 
models. Finally, U.S. IOOS is working with Navy to facilitate sharing 
glider data from their unclassified deployments around the coastal 
United States. This would substantially increase the amount of 
subsurface glider data available to the NWS for use in its forecasting 
models.
Post-storm recovery
    U.S. IOOS constantly monitors observing assets; before storms, to 
the extent it is safe to do so during storms, and after storms. The 
Regional Associations leverage resources to the greatest extent 
possible to maintain the services their stakeholders rely on.
    U.S. IOOS is preparing a report to Congress pursuant to Departments 
of Commerce, Justice, Science, and Related Agencies Appropriations 
Bill, 2018 Senate Report (115-139) accompanying the Consolidated 
Appropriations Act, 2018 (P.L. 115-141) that assesses the regional 
spending practices for resources that became damaged or unworkable, as 
a result of hurricanes of other significant storms, using a cost-
benefit analysis. This report will provide a better understanding of 
the U.S. IOOS regional component's contribution, laying out the value 
chain of observations in storm forecasting, providing an analysis of 
asset maintenance/protection practices across the U.S. IOOS regions and 
examples of how the Nation benefits by this information.

    Question 2. With an authorizing provision enacted in the FY18 
budget along with appropriations to support it, what is NOAA's strategy 
for recapitalizing and acquiring a backup Hurricane Hunter aircraft, as 
per the Congressional intent?
    Answer. NOAA is developing a plan to acquire an aircraft to 
supplement our current hurricane surveillance capabilities. Upon 
approval of that plan, NOAA will follow the Federal acquisition process 
to acquire a new high-altitude aircraft to meet the requirements of the 
Weather Research and Forecasting Innovation Act of 2017.

    Question 3. How important is the need for more research using 
supercomputing for protecting our coastal communities and improving our 
future storm resiliency, and how important are university partnerships 
for advancing this technology and creating new developments?
    Answer. NOAA relies on High Performance Computing (HPC) to meet its 
mission and drives its innovation. NOAA's work is highly sophisticated 
and resource-intensive because it includes the complex interactions of 
the atmosphere, ocean, land surface, cryosphere, chemically active 
atmospheric constituents, biogeochemical cycles on land and in the 
ocean, and terrestrial and oceanic ecosystems. The applications must 
address local to global spatial scales and timescales from seconds to 
centuries.
    NOAA's mission requirements will continue to require additional HPC 
research and capacity. Higher resolution and more complex models that 
capture the realism of the Earth System combined with the use of 
ensembles (a set of computer models working together) will require 
significantly enhanced HPC capabilities. These capabilities will also 
require new approaches in data management, transmission, and storage.
    University partnerships have proven valuable to NOAA in the past as 
a source of HPC innovation and skill. NOAA received $15 million above 
the President's budget request for HPC resources in FY18. NOAA will 
make those funds available to university partners through a follow-on 
grant to the Northern Gulf Institute (NGI) in Mississippi. This will 
provide HPC capacity to run larger, more complex, and more detailed 
environmental models, while advancing the historical and ongoing 
relationships between NGI scientists and personnel in NOAA Labs and 
other Cooperative Institutes.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Dan Sullivan to 
                         RDML Timothy Gallaudet
    Question 1. Is NWS going to stop reporting the weather via weather 
radio?
    Answer. The NWS has no plans to stop any NOAA Weather Radio All-
Hazards (NWR) broadcasts, which provides Very High Frequency broadcasts 
to Alaskan communities. These broadcasts will continue to provide 
continuous 24x7 forecasts, warnings, and observations. In October 2017, 
two additional transmitters were installed, in partnership with U.S. 
Coast Guard (USCG), for expanded NWR coverage of the Duffield Peninsula 
and Middle Cape in Alaska. However, the NWS did stop providing High 
Frequency broadcasts in November 2017 because this service was 
redundant to the service already provided by the USCG. The USCG 
broadcasts NWS weather information on High Frequency radio to meet the 
United States' obligation under the Safety of Life at Sea Convention.

    Question 2. If so, what is the rationale associated with this 
decision, and what will replace this service? Does this decision take 
into account that in remote and rural areas of Alaska--where many 
Alaskans live and subsistence hunt--there is no access to broadband and 
alternative sources of weather information, and residents depend on the 
weather reports to know when it is safe to travel?
    Answer. The NWS will continue to provide weather information via 
the NWR, which provides Very High Frequency broadcasts to Alaskan 
communities. As stated above, the NWS did stop providing High Frequency 
radio broadcasts in November 2017 because it was a redundant service 
duplicating the High Frequency broadcasts from the USCG.

    Question 3. My office understands that NWS removed all of the 
associated equipment for weather radio broadcasts in the Fall of 2017. 
What is the status of these radio reports and the capability for the 
reports to be reinstated?
    Answer. There have been no removals of NWR transmitter sites in 
Alaska. As stated above, there have been two additional NWR sites 
added, in partnership with USCG, for expanded coverage of the Duffield 
Peninsula and Middle Cape. There is a total of 52 NWR transmitters in 
Alaska. The equipment in question serves High Frequency weather 
broadcasts. The NWS High Frequency broadcast was a redundant service 
duplicating the High Frequency broadcasts from the USCG.

    Question 4. Does the National Weather Service plan on consolidating 
its Tsunami Warning Centers in Hawaii and Alaska? If so, where and how 
would this occur?
    Answer. The NWS does not plan to consolidate the Tsunami Warning 
Centers in FY18, in accordance with Congressional direction. The 
President's FY19 Budget prioritizes rebuilding the military and making 
critical investments in the Nation's security. It also identifies 
savings and efficiencies needed to keep the Nation on a responsible 
fiscal path. To meet these goals, some difficult decisions needed to be 
made, including a reduction to the Tsunami Warning Program. However, 
NOAA would continue to fund critical tsunami program components to 
ensure high-quality tsunami watches, warnings, and advisories. Should 
the FY19 proposal be approved, NOAA would seek to merge the Tsunami 
Warning Centers or co-locate them with other institutions/centers.

    Question 5. Alaska has very localized weather systems. How does an 
auto-launcher, or remotely monitored video device effect NWS' ability 
to deliver accurate, up-to-date weather information for all rural 
Alaskans? How does this benefit an Alaskan bush pilot's ability to get 
critically important, area accurate weather information when flying 
into a remote airport with no one on the ground?
    Answer. Autolaunchers will not degrade NOAA services in Alaska. To 
the contrary, autolaunchers would allow NWS to improve our science and 
service delivery to the whole state. In fact, autolaunchers are a 
proven technology used at more than 70 locations around the world over 
the last 10-15 years. It uses the same sensors used in manual launches. 
Initial assessments done through a demonstration project in Kodiak and 
Fairbanks, Alaska are showing launch success rates on par with manual 
launches. If fully implemented, autolaunchers would improve launch 
success rates. Harsh conditions and vast distances between sites make 
manual radiosonde releases particularly difficult and time-consuming in 
Alaska.

    Question 6. What is NWS doing to alleviate the 30 percent staffing 
shortage in rural Alaska? And is it true that many of these positions 
have been downgraded from GS-10 positions to GS-7 thus making it all 
the more difficult to attract applicants to these rural areas?
    Answer. As of June 4, 2018, there were eight Weather Service 
Offices (WSO) across rural Alaska with staffing deficiencies (i.e., 
offices with empty billets that the region does not have sufficient 
personnel available to temporarily detail qualified employees into). 
Assuming no additional attrition occurs prior to summer's end, staffing 
deficiencies at each of the eight WSOs will be resolved via a 
combination of hiring actions and the demonstration project automation 
of weather balloon launches at five of the 11 WSO locations. Automation 
of weather balloon launches would allow for the reallocation of mobile 
meteorological technicians that were hired explicitly to allow the NWS 
to fill staffing gaps frequently experienced in rural Alaska. 
Reallocation would provide greater opportunities for these employees 
and allow them to be employed to provide enhanced services to customers 
in Alaska.
    Due to advances in technology and science, the major duties and 
responsibilities at rural Alaska WSO locations have changed 
dramatically over the past five years. As a result, NOAA Workforce 
Management reclassified WSO positions to appropriately reflect current 
duties and responsibilities. For Meteorological Technicians hired after 
May 2015, NOAA Workforce Management reduced the grade of those 
positions from GS-10 to GS-7 pay plus Cost-of-Living Adjustment and 
Locality Pay.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                         RDML Timothy Gallaudet
Forecasting Hurricanes
    Significant advances in hurricane forecasting in recent decades 
allowed for a state of emergency to be declared in Florida a record six 
days before landfall of Hurricane Irma. But accurately forecasting 
hurricane intensity remains a challenge. One of my priorities, along 
with Senator Rubio, in the 2017 Weather Act was to direct NOAA to 
improve hurricane forecasting including the prediction of rapid 
intensification and track of hurricanes.

    Question 1. How is the NOAA budget reflective of the need to 
improve hurricane tracking and intensity forecasts? Can you 
specifically give us an update on progress regarding breakthrough 
hurricane tracking technologies like Airborne Phased Array Radar 
(APAR), and is it possible to find more resources in the future to 
support this critical initiative?
    Answer. The President's FY 2019 budget request prioritizes reducing 
the impacts of extreme weather and water events. This budget includes 
providing the observational infrastructure and personnel to develop 
timely and accurate weather forecasts. The budget would also invest 
more than $1.1 billion in weather forecasting capabilities, including 
an increase to the Advanced Weather Interactive Processing System, 
which is the cornerstone of our field operations at the National 
Weather Service. Finally, this budget would invest $878 million in our 
polar orbiting satellites, and $408 million in our geostationary 
weather satellites that are essential for our weather forecasts and 
warnings. Furthermore, using FY 2018 Supplemental Appropriations for 
Disaster Relief, NOAA will support activities to move toward meeting 
the goals of the next generation Hurricane Forecast Improvement Program 
(HFIP).
    In FY18 and FY19 NOAA will continue to partner with the National 
Science Foundation to advance the understanding of high-impact weather 
events by supporting the development of an Airborne Phased Array Radar 
(APAR). APAR is being developed to study weather and related hazards, 
especially over rugged terrain or the open ocean, where ground-based 
radars can have major limitations. Because APAR will gather much-
improved observations of dynamics and microphysics from within storms, 
its development holds the potential to make significant improvements in 
understanding, tracking, and forecasting many types of high impact 
weather. The development of this technology is supported jointly 
through NSF base funding and NOAA grant funding provided to the 
National Center for Atmospheric Research Earth Observing Laboratory. 
The currently funded APAR project has focused on critical tasks that 
will have major positive impacts on clarifying radar system design and 
reducing key risk factors already identified in the development. One 
significant deliverable will be the design and implementation of the 
64-element Line Replaceable Units (LRUs) demonstrator that will serve 
as the heart of the eventual fast scanning radar array. Given the 
unique operating environment, another key deliverable is the suite of 
studies that will assess the vibrations that the APAR will be subjected 
to in flight on the C-130 aircraft.

    Question 2. The Weather Act of 2017 also contained an April 18, 
2018 deadline for NOAA to submit a plan to implement the Hurricane 
Forecast Improvement Program. Will NOAA meet that deadline?
    Answer. The Weather Act requires development of a project plan for 
the Hurricane Forecast Improvement Program (HFIP), with focus on 
improving prediction of rapid intensification and track of hurricanes, 
forecast and communication of storm surges, and incorporating risk 
communication research. NOAA did not meet the deadline, but the plan 
has been drafted and is in the clearance process. Extensive planning 
and coordination with the HFIP community was conducted to update the 
program plan, while remaining consistent with goals outlined in 
previously developed HFIP plan. A preliminary strategic plan was shared 
at the Annual HFIP Community Workshop in November 2017. Community 
feedback was collected through December 2017.
Hurricane Hunter
    I helped secure a requirement in the Weather Act that NOAA maintain 
reliable backup capabilities for its Hurricane Hunters--both the P3 and 
the jet. NOAA didn't do that last year, and the aging Gulfstream was 
frighteningly grounded for emergency repairs on several occasions. So I 
worked to secure $133 million for aircraft recapitalization in the FY 
18 omnibus spending bill, including $121 million to acquire a 
replacement and backup for NOAA's aging Gulfstream-IV hurricane hunter 
jet, which is over 20 years old.

    Question 3. How will having two hurricane hunter jets improve 
forecasting capabilities?
    Answer. Two Hurricane Hunter jets provide redundancy and 
reliability necessary to ensure critical hurricane data collection and 
mission accomplishment. Pending the availability of funding for 
operating and maintaining the second hurricane hunter jet, two high 
altitude jet aircraft could also enable NOAA to increase the sampling 
of storms both temporally and spatially, leading to improved track and 
intensity forecasts.
GPRSO Gap
    At this past year's American Meteorological Society meeting in 
Austin, TX, the head of the NOAA satellites office, Dr. Stephen Volz, 
told colleagues that private sector GPS Radio Occultation data was not 
of sufficient quality to go into NOAA's weather models. He said this 
after he had cancelled NOAA's participation in the deployment of the 
polar constellation that would have provided data over the United 
States--called COSMIC 2B. He was then asked what NOAA's plan was to 
address the ``GPSRO gap,'' to which he had no answer. And the Weather 
Act required NOAA to complete this important mission.

    Question 4. Does NOAA have a plan to close the GPSRO gap and if 
not, when will you have a plan?
    Answer. NOAA is actively working with its interagency partners, the 
international community, and the commercial sector to source radio 
occultation (RO) data sets needed to meet the National Weather Service 
numerical weather prediction modelling requirements. Furthermore, NOAA 
is also assessing the feasibility of RO payloads as part of future NOAA 
satellite constellations.
Weather Forecasting
    The Weather Act is also intended to help restore and maintain U.S. 
leadership in numerical weather prediction and forecasting. But in 2017 
the U.S. model did not fare as well against the European model in 
predicting Irma's track.

    Question 5. What areas will you be focusing on in this regard when 
it comes to improving hurricane prediction? Are you considering re-
organizing NOAA research's approach and bringing in more extramural 
partners to improve hurricane forecasts by creating a ``European-like'' 
approach?
    Answer. NOAA is implementing the Next Generation Global Prediction 
System (NGGPS), based on the finite volume cubed sphere dynamical core 
(FV3), which was developed at NOAA's Geophysical Fluid Dynamics 
Laboratory and selected via open competition. The FV3 is designed to 
upgrade the current operational Global Forecast System (GFS) to run as 
a unified, fully-coupled system in NOAA's Environmental Modeling System 
infrastructure. With this decision, NOAA has changed the way it 
develops and improves the weather forecasting computer models by 
actively involving not only NOAA research efforts, but leveraging the 
full research community--other Federal agencies, universities, and the 
private sector, in building the Unified Forecast System under NGGPS. 
Experimental runs with a new version of the GFS developed under this 
program using FV3 dynamic core have been promising, and provided track 
forecasts for Hurricane Maria that performed better than the European 
model. NOAA will continue to improve the representation of physical 
processes in the model as well as operational data assimilation and 
data processing system to provide more quality controlled observations 
to be used by the forecast models. We believe this approach will lead 
to further integration of extramural research partners' efforts.

    The Weather Act of 2017 also directs the NWS to improve risk 
communication research to create more effective watch and warning 
products.

    Question 6. Has the National Weather Service provided improved 
watch and warning products, and how will these products be used in the 
upcoming hurricane season?
    Answer. NWS continues to work with social, behavioral and economic 
scientists to refine our communication approach for all NWS products. 
For the hurricane program, there are new operational products that 
directly address improved communication of the storm surge threat. 
These products include the Potential Storm Surge Flooding map and the 
Storm Surge Watch and Warning products. These products help to more 
effectively communicate the potential impact from storm surge, and we 
believe had a very positive impact on reducing the loss of life during 
both the 2017 hurricane season as well as the ongoing 2018 hurricane 
season. By request, NWS provided an update briefing on our work in this 
area to Committee staff on June 27. We will continue to keep the 
Committee updated as we implement these provisions of the Weather Act.
Public Consumption of Warnings
    Research by Baker and Lindell has shown that most people get their 
news about hurricanes and other weather emergencies from local news 
sources as opposed to national services like the NWS.

    Question 7. What is NOAA doing to work with local meteorologists 
and emergency officials to ensure accurate and timely warnings be 
issued?
    Answer. The NWS provides test guidance and participates in numerous 
state hurricane table top exercises annually. These exercises are 
important training for decision makers and provide them a preview of 
improvements to NWS tropical products and services for the upcoming 
hurricane season. The NWS was also engaged in the planning and 
execution of the FEMA National Level Exercise which was focused on a 
tropical cyclone landfall scenario for 2018.
    In addition, as codified in the Weather Act, there are Warning 
Coordination Meteorologists in every NWS Weather Forecast Office. These 
individuals reach out to the local media and emergency managers to 
improve message communication. Building these relationships is key to 
the successful communication of potentially life-saving watches and 
warnings.
National Weather Service
    The dedicated employees of the National Weather Service provided 
quality forecasts and decision support services during the hurricanes 
and wildfires of 2017. And yet, the Administration's Fiscal Year 2019 
Budget dangerously proposes slashing positions at the agency.

    Question 8. What is the reasoning behind the proposed cuts to the 
NWS staff positions and how does the NWS plan to continue delivering 
quality and timely forecasts and services?
    Answer. The funding levels provided in the 2018 Consolidated 
Appropriations Act did not require cuts in NWS staff positions.
Climate Change and Hurricanes
    Science shows there are links between global warming and increased 
storm intensity.

    Question 9. How does a warming climate affect hurricanes and what 
can we expect future seasons to look like?
    Answer. There have been several studies and reports that have 
assessed the impact of a warming climate on hurricanes, including the 
United Nations' Intergovernmental Panel on Climate Change Assessment 
Report Five (2013) as well as Chapter 9 of the U.S. Global Change 
Research Program's Climate Science Special Report (2017).

    Florida is ground zero for the impacts of climate change such as 
sea level rise.

    Question 10. You assured me during your confirmation process that 
you would take any effort to politically interfere with NOAA scientists 
seriously. Since you've been at NOAA, what steps are you taking to make 
sure the employees know they can continue their work free from 
censorship or undue pressure?
    Answer. I am committed to promoting scientific integrity within 
NOAA. NOAA already has a strong Scientific Integrity Policy (NOAA 
Administrative Order NAO 202-735D) that provides best practices to 
promote a continuing culture of scientific excellence and integrity.
Disaster Supplemental Funds
    In October 2017, I joined the Florida delegation in a bipartisan, 
bicameral letter to the House and Senate Appropriations Committee 
leadership requesting $27 billion in emergency funding following 
Hurricanes Irma and Maria to address the significant impact that the 
hurricanes left on our Nation. The Supplemental Appropriations for 
Disaster Relief and Recovery provided $200 million for fishery 
disasters, $18 million for NOAA marine debris removal, and $40 million 
for mapping and charting at NOAA.

    Question 11. When is NOAA going to release its spend plans for 
supplemental appropriations?
    Answer. DOC provided the spend plan for supplemental funding within 
the Bipartisan Budget Act of 2018 for Hurricanes Harvey, Irma, and 
Maria to appropriations staff for non-fishery disaster funding on April 
20, 2018, and the fishery disaster allocation plan on May 10, 2018.

    Question 12. How is NOAA going to use the $200 million appropriated 
for the declared fisheries disasters? More than a dozen declared 
fishery disasters qualify for the supplemental funding.
    Answer. DOC provided the fishery disaster allocation plan to 
appropriations staff on May 10, 2018. The plan includes funding for all 
fishery disasters declared by the Secretary of Commerce in calendar 
year 2017 and for fishery disasters declared in Florida, U.S. Virgin 
Islands, Puerto Rico, and Texas resulting from Hurricanes Maria, Irma, 
and Harvey. NOAA is working expeditiously with the constituents to 
develop detailed proposals tailored to priority needs in accordance 
with the Magnuson Stevens Fishery Conservation and Management Act and 
the Interjurisdictional Fisheries Act.

    Question 13. How does NOAA plan to use the disaster supplemental 
funds for marine debris removal?
    Answer. The NOAA Marine Debris Program will work with partners to 
identify marine debris hot-spots through assessment of debris abundance 
and distribution using satellite and airborne imagery, sonar, and 
partner agency reports. NOAA will use spatial data portals, in person 
meetings and local partner engagement to prioritize objects for 
removal. NOAA will provide staff support to assist with assessment, 
removal, disposal and environmental compliance. NOAA will ensure 
agencies and groups conducting removal operations have access to the 
most up-to-date locations, descriptions and priority of debris objects. 
Finally, to the extent feasible, the NOAA Marine Debris Program will 
fund marine debris removal and disposal activities through cooperative 
agreements with state partners. These funds will fill an important 
niche for restoring economic activities and protecting economically 
significant natural resources where other funds, such as FEMA disaster 
assistance, have not been available for debris removal.
Coastal Resilience
    Florida has natural defenses against hurricane damage, including 
mangroves and coral reefs, which significantly reduce storm surge and 
wave action from hurricanes. Florida has the third largest barrier reef 
in the world, but it is facing significant threats: warming waters, 
bleaching, climate change, and coral disease.

    Question 14. How can NOAA help to build resiliency of natural 
systems like beaches, coral reefs, and mangroves as well as coastlines 
and coastal communities?
    Answer. NOAA is taking a comprehensive approach to strengthen the 
Nation's coastal communities, ecosystems, and economies to minimize 
current and future impacts from natural hazards. NOAA provides funding 
and technical assistance to implement coastal resilience and habitat 
restoration projects that reduce the vulnerability of coastal 
communities and infrastructure from the impacts of extreme weather 
events, climate hazards, and changing ocean conditions. NOAA helps 
identify sites where restoration of coral reef, mangroves, beaches, and 
marshes can be successful and where options that integrate hybrid 
natural and build infrastructure may be required in order to offer 
protection. NOAA also offers opportunities for planners and decision-
makers to connect with natural infrastructure experts, learn about 
different types of natural infrastructure projects Finally, NOAA 
supports state planning, policies, and trainings to minimize risks from 
coastal hazards such as storms, flooding, erosion, and sea level rise. 
For example, through the Digital Coast, users have access to a range of 
data and decision-support tools, such as the Coastal Flood Exposure 
Mapper and the Sea Level Rise Viewer, and trainings, such as those 
focused on adaptation planning.
Proposed Offshore Oil Drilling
    As you know, the Gulf Coast of Florida is off limits to oil 
drilling by law. And there are good reasons not to drill in the Florida 
Straits and the Atlantic Coast, too. You've got the Florida Keys 
National Marine Sanctuary, NASA launches, DOD launches, threatened and 
endangered corals, manatees, and sea turtles, not to mention the 
calving grounds of the critically endangered North Atlantic Right 
Whale.

    Question 15. Can I have your word that you will act in the best 
interest of the resources in NOAA's trust in considering proposals by 
this Administration to ease restrictions on offshore drilling?
    Answer. Our country has a strong record of facilitating offshore 
energy development while ensuring sustainable populations of marine 
life. I assure you that NOAA will continue to fulfill its legal 
obligations with respect to all its statutory authorities while 
continuing to facilitate offshore energy development and maintain 
marine life.
El Faro Recommendations
    Both the Coast Guard and the National Transportation Safety Board 
have made a number of recommendations to address the El Faro cargo 
ship, which sunk after traveling into the path of Hurricane Joaquin.

    Question 16. From the recommendations, what do you believe are the 
most important issues to address?
    Answer. The NWS is working closely with the National Transportation 
Safety Board (NTSB) and the U.S. Coast Guard (USCG) on the safety 
recommendations in the aftermath of the El Faro incident. NWS staff met 
with NTSB principals on May 24, 2018, and discussed some of the most 
important safety improvements which include increasing the number of 
hurricane advisories when forecasts significantly deviate from 
predicted track or intensity--and to make these products available via 
satellite communications for ocean going vessels. Status on the 
progress on recommendations can be found at the NTSB site: https://
www.ntsb.gov/investigations/Pages/2015_elfaro_jax.aspx.

    Question 17. How can we make sure that all vessels are getting the 
most up-to-date weather information and have the best safety 
equipment--like enclosed lifeboats--onboard?
    Answer. International standards and requirements exist for 
shipboard communications equipment \1\ to ensure the receipt of weather 
warning and forecast text bulletins from authoritative sources. The NWS 
contributes to maritime safety by providing the authoritative weather 
warnings and forecasts for the western North Atlantic and eastern and 
central North Pacific. Text warning bulletins are supplemented with 
graphical and digital products. In addition to preparing graphical 
charts for USCG weather radiofacsimile broadcasts, NOAA is working with 
international partners to develop the standards for the display of 
critical weather information in shipboard Electronic Chart Display and 
Information System (ECDIS).
---------------------------------------------------------------------------
    \1\ Safety of Life at Sea (SOLAS) Chapter IV, Regulation 7--Radio 
equipment: General--.4 and .5 and SOLAS Chapter V, Regulation 5--
Meteorological Services and Warnings 2.1 and 2.2.
---------------------------------------------------------------------------
Timing to Complete Recommendations
    The NTSB made dozens of recommendations to the Coast Guard and 
NOAA.

    Question 18. Which of those recommendations have been completed? 
What is your plan to make sure all of the recommendations are 
completed?
    Answer. NWS staff met with the NTSB El Faro investigation team at 
NTSB HQ on May 24, 2018. All of the El Faro safety recommendations were 
reviewed. Progress on all recommendations can be viewed at https://
www.ntsb.gov/investigations/Pages/2015_elfaro_jax.aspx.
    NWS has concurred and is implementing recommendations M-17-12, 13, 
16 and 52. The remainder of the recommendations will be implemented 
during the 2018 and 2019 hurricane seasons. One exception includes M-
17-008 and 009, which involves improving model predictions of hurricane 
intensity and track. These NTSB recommendations have been specifically 
included in the Hurricane Forecast Improvement Project implementation 
plan.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                         RDML Timothy Gallaudet
    As you know, on March 23, 2018, the President signed into law 
omnibus appropriations legislation for Fiscal Year 2018, securing vital 
funding for NOAA, U.S. Coast Guard, and NTSB.
    Reports have shown President Trump and congressional leaders have 
discussed legislation to give rescission authority to the president for 
investments included in the omnibus. These rescissions would create 
tremendous financial uncertainty for programs dedicated for 
safeguarding our coasts, bodies of water, and transportation systems. 
Even the threat of rescissions are enough to disrupt efforts to carry 
out Agency directives.
    The power to propose budget rescissions is essentially the power to 
conduct line-item vetoes, an act deemed unconstitutional in 1998. 
Attempting a do-over on the Fiscal Year 2018 omnibus should not be 
prioritized over more pressing matters.

    Question 1. Has the White House contacted you about a rescission 
package?
    Answer. The Administration continues to explore its rescissions 
authority under the Impoundment Control Act of 1974 (ICA) to see what 
can be done to control unnecessary and wasteful spending. NOAA has been 
informed by the Office of Management and Budget that a rescission 
package could include NOAA programs.

    Question 2. Has anyone at your Agency contemplated what a 
rescission would look like for your Agency?
    Answer. The impacts of a rescission would be highly variable 
depending on the programs and expiration dates of the affected funds.

    NOAA is critical in the response and recovery of hurricane 
disasters. Yet, the President's Fiscal Year 2019 budget proposes to cut 
NOAA funding by more than one billion dollars. Two important programs 
on the chopping block include grants for coastal zone management and 
grants for coastal resilience, both critical for development of 
adaptation strategies and bolstering hurricane resiliency.
    Additional cuts include programs that support forecasting and 
observation technology. Cuts to these programs will decrease accuracy 
of hurricane path prediction and potential flooding impacts caused by 
storm surge.
    In other words, it will now be even harder to predict and protect 
the Nation from catastrophic hurricane damage.
    There has been great advancement in the technology used in 
predicting and tracking hurricanes, and I am concerned that these cuts 
may halt additional progress.

    Question 3. Would you agree that bad forecasts cost us far more 
than investments these programs require?
    Answer. NOAA does not provide ``bad'' forecasts. The NWS uses the 
best, most actionable data and information to generate the most 
accurate, consistent weather forecasts possible. The President's FY 
2019 Budget provided adequate funding to ensure that that the NWS' 
forecasts would not be impacted and the 2018 Consolidated 
Appropriations Act provided further funding to ensure the continued 
excellence of NWS forecasts.

    Question 4. Do these proposed cuts harm the Nation's ability to be 
hurricane-ready?
    Answer. There are many aspects for the public to be hurricane-
ready. Each year NOAA conducts extensive public outreach and education 
to ensure that people are aware of the potential impact of hurricanes 
and tropical systems and that they know how to respond and take action, 
should a storm be headed their way. We do not expect an impact to this 
effort.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Edward Markey to 
                         RDML Timothy Gallaudet
    According to hazard mitigation experts, every single dollar 
invested in pre-disaster resilience saves $4 in rebuilding costs in the 
aftermath of a storm. It is clear that we need to rebuild smarter, 
stronger, and better equipped to adapt to the demands of a changing 
climate.

    Question 1. How can NOAA help local and state planners invest in 
pre-disaster resilience?
    Answer. NOAA appropriations support several programs to assist 
local and state planners with pre-disaster planning. For example, NOAA 
provides comprehensive evaluation mapping data, observations, modeling, 
and prediction services for communities to conduct pre-disaster 
planning. By maintaining these historical data sets, NOAA is able to 
advise planners about environmental trends and impacts of hazard 
mitigation efforts. Through the NOAA's Digital Coast, planners have 
access to a range of data and decision-support tools, such as the 
Coastal Flood Exposure Mapper which creates user-defined maps to show 
the people, places and natural resources exposed to coastal flooding, 
and Coastal County Snapshots, which provide easy to understand charts 
and graphs to understand flood exposure at the county level.

    Question 2. Could an interagency oversight council help NOAA and 
the Federal government be more prepared and resilient for the next 
natural disaster? How?
    Answer. The National Planning Frameworks under FEMA's National 
Preparedness System are existing interagency forums to help NOAA and 
the Federal government be more prepared and resilient for the next 
natural disaster. Specifically, the National Mitigation Framework and 
National Disaster Recovery Framework establish a common platform and 
forum for federal, state, and local agencies, plus private sector 
organizations, to coordinate delivery of mitigation and recovery 
capabilities.

    Question 3. What percentage of the Promote and Develop Fisheries 
Product Account was directed towards the Operations, Research and 
Facilities Account? Please describe how these monies are used, and 
include a list of all specific programs and amounts allocated to each.
    Answer. The Congressionally directed $144 million transfer to the 
Operations, Research, and Facilities (ORF) account is approximately 93 
percent of the $155 million available from the transfer from the 
Department of Agriculture into the NOAA Promote and Develop Fisheries 
Account (P&D). NOAA will use the funds transferred to ORF in accordance 
with the Consolidated Appropriations Act, 2018 (Public Law 115-141) 
language:

        ``Provided further, that in addition, $144,000,000 shall be 
        derived by transfer from the fund entitled ``Promote and 
        Develop Fishery Products and Research Pertaining to American 
        Fisheries,'' which shall only be used for fishery activities 
        related to the Saltonstall-Kennedy Grant Program, Cooperative 
        Research, Annual Stock Assessments, Survey and Monitoring 
        Projects, Interjurisdictional Fisheries Grants, and Fish 
        Information Networks. . .''

    NMFS will use $141.0 million to support Fisheries Data Collections, 
Surveys, and Assessments. Funding within this budget line includes 
Expand Annual Stock Assessments, Fisheries Statistics, Fish Information 
Networks, Survey and Monitoring Projects, and Cooperative Research. 
Funds support data collection, data management, and fisheries stock 
assessment production. NMFS will use $3.0 million for 
Interjurisdictional Fisheries Grants, a formula-based financial 
assistance program provided to coastal states to support science and 
management of interjurisdictional fisheries resources.

    Question 4. What percentage of the Promote and Develop Fisheries 
Product Account was directed towards the Saltonstall-Kennedy Grant 
Program?
    Answer. After the Congressionally directed $144 million is 
transferred to the Operations, Research and Facilities Account, the 
remaining funds of approximately $10.7 million, will be available for 
the Saltonstall-Kennedy Grant Program.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                       to RDML Timothy Gallaudet
Issues with Health Care Ships
    After the devastation on Puerto Rico, there were many news reports 
of a Navy medical ship, known as the USNS Comfort, sitting on the 
island ready to help but only treating a small number of patients. I 
actually had heard some concern from Nevadans about friends not being 
able to reach the ship and access the medical care it provided.

    Question 1. Can you give examples of any similar experiences you 
had during your time at the Navy and what can be done to overcome them?
    Answer. I am not familiar with the circumstances regarding the USNS 
Comfort off of Puerto Rico, and defer to the U.S. Navy.

    Question 2. How is medical care coordinated with local and state 
agencies?
    Answer. I am not familiar with the circumstances regarding the USNS 
Comfort off of Puerto Rico, and defer to the U.S. Navy.
New Technology in Response and Preparation
    Some really exciting things are happening in Nevada with drones and 
the state is quickly emerging as a leader in this technology. The 
Nevada Institute for Autonomous Systems is working with UAV companies 
to develop new applications for these exciting machines. These have a 
number of potentially lifesaving applications during disasters as well, 
including being used to help prepare for and respond to hurricanes.

    Question 3. Is NOAA using UAV technology in any way for disaster 
response and if so, how?
    Answer. NOAA is using unmanned aircraft in a variety of ways 
related to disaster response, including post-storm surveys and oil 
spill response.
    The National Weather Service (NWS) is exploring the utility of 
Unmanned Aircraft Systems (UAS) for post-severe storm damage surveys to 
determine cause, intensity, and extent. Rapidly accessible aerial 
imagery has been shown to increase survey accuracy and save on time, 
especially when coordinated with local emergency management partners. 
This innovative data acquisition strategy supports NOAA's Weather-Ready 
Nation and is readily applicable to other regional hazards, such as 
flooding, wildfire burn scar assessment, oil spill response, ice jam 
detection, and many others.
    NOAA's UAS Program and U.S. Coast Guard Research and Development 
Center teamed up to evaluate several airborne systems as part of an 
Arctic Technology Evaluation conducted during the warm seasons of 2013-
2016. NOAA's Office of National Marine Sanctuaries, the Office of 
Response and Restoration, and the UAS Program have continued inter-
agency research, development and operational assessments for UAS oil 
spill testing with industry partners, including this month in the Gulf 
of Mexico with Chevron. UAS deployment evaluations have focused on 
increased situational awareness in hard to access areas, target 
identification, and near real time image processing to assist in 
response operations.
    NOAA is investigating use of UAS for oil slick identification, oil 
thickness measurements, and for obtaining aerial imagery for emergency 
response. Most promising has been the ability to collect and process 
georeferenced imagery of a 30-minute flight onsite within hours. This 
capability would be immensely useful for response and assessment 
requirements for tornadoes, minor flooding events, minor hazmat events, 
focused areas of a larger event (critical infrastructure, dams, 
bridges, etc.), and clearing roadways.

    Question 4. How is drone technology advancing to help predict the 
impact of storms and identify vulnerabilities?
    Answer. NOAA is investigating how data obtained with unmanned 
systems can be used to better predict storms and their impacts. For 
example: NOAA's National Severe Storms Laboratory has been 
investigating the utility of small Unmanned Aircraft Systems (UAS) to 
obtain meteorological observations in the lower atmosphere for enhanced 
operational forecasting of severe weather. Additionally, this group 
also seeks to address a number of issues concerning deployment 
logistics, utilization, and coordination of multiple drones that might 
eventually operate in a semi-autonomous manner. A recent project funded 
by the UAS Program showed that UASs launched frequently prior to severe 
storm development can obtain highly accurate profiles and horizontal 
transects of temperature, moisture, and wind speed/direction. Initial 
results look promising, yet much work remains to retrieve some 
observations, which will require enhanced coordination with the Federal 
Aviation Administration and advanced testing and integration of Sense 
and Avoid safety mitigation applications during UAS operations.
Climate Change
    Western Regional Climate Center in Reno, Nevada, is one of six 
regional climate centers in the United States that delivers high-
quality climate data services in conjunction with NOAA and national 
climate and weather partners. We don't deal with hurricanes but climate 
change impacts us through fires and droughts.

    Question 5. How well is it understood from current scientific 
research the potential future changes in hurricane frequency and 
intensity?
    Answer. There have been several studies and reports that have 
assessed the impact of a warming climate on hurricanes, including the 
United Nations' Intergovernmental Panel on Climate Change Assessment 
Report Five (2013), as well as Chapter 9 of the U.S. Global Change 
Research Program's Climate Science Special Report (2017).

    Question 6. Storms can impact roads and other modes of 
transportation, how well can we predict where vulnerabilities are with 
respect to transportation?
    Answer. It is outside the scope of NOAA's mission to predict 
vulnerabilities in transportation infrastructure. However, NOAA 
contributes to a variety of tools and resources that can aid other 
Federal agencies, state and local governments, and private parties in 
understanding vulnerabilities and planning for the future. The NWS 
provides weather, hydrologic, and climate forecasts and warnings that 
support those entities in charge of infrastructure, such as 
transportation, and for them to make informed decisions. For example, 
the NWS routinely provides impact-based decision support services for 
hazardous weather events to state Departments of Transportation (DOTs). 
It also has partnered with the Federal Highway Administration on a 
project called Pathfinder. Pathfinder is a collaborative effort between 
the NWS, state DOTs, and state DOTs' support contractors who provide 
road weather information to share and translate weather forecasts into 
consistent transportation impact statements for the public.
    There are also a variety of tools available to help with 
transportation impact analysis at www.data.gov. NOAA programs such as 
the Regional Integrated Sciences and Assessments program conduct 
targeted research and collaborate with regional stakeholders to 
understand current and future risk to infrastructure, including 
transportation networks. High profile examples of this NOAA-supported 
research include coastal flood vulnerability assessments for the Port 
of Houston, Texas, and the City of Beaufort, South Carolina. NOAA-
supported research is underway in the Southwest on the relationship 
between drought, monsoon season winds, and dust storms and impacts 
particularly for the trucking industry in areas frequented for freight 
transportation.
    In another example, NOAA's National Integrated Drought Information 
Service supports research focused on reliably transporting the 
approximately 650 million tons of cargo valued at over $75 billion in 
U.S. inland waterways annually. The researchers are using the lens of 
drought and its impact on moving agricultural goods along the 
Mississippi River.

    Question 7. How well can we predict vulnerabilities for ``cascading 
failures,'' when modes of transportation are disrupted, causing 
responders and victims to be stranded?
    Answer. It is outside the scope of NOAA's mission to predict 
vulnerabilities in transportation infrastructure. The NWS does provide 
weather, hydrologic, and climate forecasts and warnings that support 
those entities in charge of infrastructure, such as transportation, and 
for them to make informed decisions.
Telecommunication Systems
    As you know Puerto Rico's power grid and communications systems 
were completely devastated by the storms there. In the modern world, 
almost everyone is completely reliant on these networks for 
communication with loved ones and to access government services. One of 
the challenges is rebuilding this infrastructure in the aftermath of a 
storm, because you essentially have to start from scratch. We have 
testing being done in Nevada on projects to extend telecommunication 
service via launching balloons, including in Puerto Rico.

    Question 8. How well can we predict vulnerabilities in our 
telecommunications systems?
    Answer. It is outside the scope of NOAA's mission to predict 
vulnerabilities in telecommunications systems. However, the NWS 
provides weather, hydrologic, and climate forecasts and warnings that 
support those entities in charge of infrastructure like 
telecommunications systems. NWS does plan for any telecommunications 
outages by implementing mitigating solutions such as geographically and 
physically diverse circuits for high impact sites.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Maggie Hassan to 
                         RDML Timothy Gallaudet
    Question. Will you commit to advocating for NOAA's budget to 
continue to cover cost of at-sea monitors?
    Answer. NOAA recognizes that an effective and affordable monitoring 
program is essential to the success and sustainability of the New 
England groundfish fishery, and we appreciate Congress' funding support 
in the Consolidated Appropriations Act of 2018. NOAA is funding at-sea 
monitoring costs for the groundfish fishery for the 2018 fishing 
season. We will continue to keep Congress apprised of monitoring needs 
for the 2019 fishing season, and anticipate supporting these costs.
                                 ______
                                 
     Response to Written Question Submitted by Hon. John Thune to 
                        Hon. T. Bella Dinh-Zarr
    Question. One of your recommendations from the Board's report on El 
Faro is for the American Bureau of Shipping (ABS) to enhance their 
training of surveyors to ensure they are properly qualified and 
supported to perform effective, accurate, and transparent vessel 
surveys, meeting all statutory and regulatory requirements.
    a. Do the Board's finding support that ABS could have conducted 
more thorough inspections and surveys of vessels?
    Answer. Yes. The NTSB's final report recommended a complete review 
of the Alternate Compliance Program (ACP) program to assess the 
adequacy and effectiveness of the program, and that the American Bureau 
of Shipping (ABS) should enhance its training for their surveyors to 
ensure that they are properly qualified and supported to perform 
effective, accurate, and transparent vessel surveys, meeting all 
statutory and regulatory requirements.

    b. What role did ABS's failure to properly assess the vessel's 
stability booklet play in the safety of the El Faro?
    Answer. The stability booklet carried on El Faro at the time of the 
accident was dated February 14, 2007 and was approved by ABS on behalf 
of the Coast Guard on May 31, 2007. ABS representatives stated that 
they reviewed and approved the stability booklet based on guidance in 
the Coast Guard regulations and navigation and vessel inspection 
circular (NVIC) 3-89, but that the items listed in the Code of Federal 
Regulations directing the development of stability books (46 CFR 
170.110) were considerations only and not required to be included in 
the booklet.
    As stated in NTSB's final report, a more comprehensive stability 
booklet may have changed the course of events. El Faro's stability 
booklet did not contain any information on down flooding angles and 
lacked information of the effects of wind-driven heel. If the vessel's 
stability booklet had contained this specific information the captain 
might not have taken the route that brought him close to strong winds 
or taken the actions that placed the vessel in danger.

                                  [all]

                  This page intentionally left blank.


      
</pre></body></html>
